<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]


 
  STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2018

                              ----------                              


                         TUESDAY, MARCH 7, 2017

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 2:17 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Lindsey Graham (chairman) 
presiding.
    Present: Senators Graham, Blunt, Boozman, Moran, Lankford, 
Daines, Rubio, Leahy, Durbin, Shaheen, Coons, Merkley, and Van 
Hollen.

  RUSSIA'S POLICIES AND INTENTIONS TOWARD SPECIFIC EUROPEAN COUNTRIES

STATEMENTS OF:
        HON. PAVLO KLIMKIN, MINISTER OF FOREIGN AFFAIRS, UKRAINE
        HON. PIOTR WILCZEK, AMBASSADOR, EMBASSY OF THE REPUBLIC OF 
            POLAND
        HON. DAVID BAKRADZE, AMBASSADOR, EMBASSY OF GEORGIA
        HON. ANDRIS TEIKMANIS, AMBASSADOR, EMBASSY OF THE REPUBLIC OF 
            LATVIA
        HON. ROLANDAS KRISCIUNAS, AMBASSADOR, EMBASSY OF THE REPUBLIC 
            OF LITHUANIA
        HON. EERIK MARMEI, AMBASSADOR, EMBASSY OF ESTONIA


              opening statement of senator lindsey graham


    Senator Graham. The subcommittee will come to order.
    I want to thank Senator Leahy for being such a good partner 
in this endeavor.
    Our hearing today is on Russia's polices and intentions 
toward specific European nations. The one thing that we have in 
common with all of these countries: they are young, struggling 
democracies and they are friends of the United States.
    Out of respect for your families, I will not pronounce any 
of your names. I will try to get your country right and you 
have an opportunity when you speak to tell us who you are.
    We have the Foreign Minister from Ukraine, the Ambassador 
from Poland, the Ambassador from Georgia, the Ambassador from 
Latvia, the Ambassador from Lithuania, and the Ambassador from 
Estonia. I have met most of you on my travels, and I cannot 
thank you enough for coming to this hearing today, and to share 
with the subcommittee, and the American people, what is going 
on in your backyard because you live in a very difficult 
neighborhood.
    I would like to welcome to the subcommittee Senators Rubio 
and Van Hollen. Hopefully we can do things together that are 
good for the country.
    I will make a short opening statement followed by Senator 
Leahy, and we will have 5-minute rounds of questions and 
answers. Again, to each of you, thank you very much for coming.
    Very briefly, everybody talks about what happened in our 
election in 2016 and let me tell you my views.
    The Russians tried to interfere in our election. I do not 
believe they changed the outcome, but it was the Russians who 
hacked into the Democratic National Committee. It was the 
Russians who compromised John Podesta's e-mails. In my view, it 
was the Russians who provided that information to WikiLeaks in 
an effort to interfere with our election.
    It is my belief if we forgive and forget regarding our own 
election, we will invite future aggression by other countries. 
The Republican Party and Democratic Party should be one when it 
comes to foreign interference. An attack on one party should be 
considered an attack on all. I want this subcommittee to lead 
the way in terms of uniting our country to pushback against 
Russia's interference in democracy at home and abroad.
    The goal is to find out from these countries what it is 
like to live in the shadow of Russia. What kind of interference 
do they face in their daily lives? What are the efforts, the 
tools, and the toolbox of Russia to undermine their 
democracies? The subcommittee needs to create a counter-Russia 
account, a soft power account.
    This subcommittee has jurisdiction over foreign operations 
and I would like to try to convince Americans it is in our 
interest to put some money aside to help these emerging 
democracies because at the end of the day, democracy should be 
a goal of all of us simply because democracies tend not to go 
to war.
    I want to make sure we can do whatever we can within 
reason. Money is tight, but it would be a good investment to 
have a counter-Russia account to put some money aside--and 
maybe cyber security assistance, maybe it is trade assistance, 
whatever it is--that we can help you withstand this assault on 
your democracies by Russia.
    That is the goal: to understand what is going on and do 
something about it. To each of you, thank you for coming to the 
subcommittee. I think if we can come together and produce a 
product, history will judge us well.
    Senator Leahy.


                 statement of senator patrick j. leahy


    Senator Leahy. Thank you, Mr. Chairman. I am glad you are 
having this hearing.
    I want to mention that Tim Rieser has always helped by 
giving me a phonetic pronunciation, but I will still mix it up. 
I think the fact that we have representatives of Estonia and 
Lithuania, Latvia, Georgia, Poland and Ukraine, places that 
many of us have visited; I know you have and I know Senator 
Durbin has.
    We know the stakes involved. This is the second 
congressional hearing on Russia since the beginning of the new 
administration. I suspect we are going to have many more.
    It is also the benefit of hearing directly from the 
representatives of countries that have experienced Russia's 
military aggression, and economic and political interference 
for many years.
    We now count ourselves among those who are facing some of 
the same kinds of interference. We learned the Russian 
Government interfered in our elections to further its own 
interests and our new President has said virtually nothing 
about it.
    He has made no secret of his admiration for President 
Putin. He has called the American news media the enemy of the 
people. That is something you might expect of President Putin, 
but not of the President of the United States.
    We need an independent investigation into Russia's 
interference in our election. By knowing exactly what happened, 
we can take appropriate action. But at the same time, I think 
we need hearings, like Chairman Graham has called here, so the 
American public will know what Russia is doing in other parts 
of the world.
    It is one thing when we see our leaders attacking the 
American media. I disagree with that. I disagree when nothing 
is said about Vladimir Putin's ruthless campaign to silence his 
critics, especially to silence the Russian press.
    We have not heard any criticism from our President about 
Russia's invasion of Ukraine, annexation of Crimea, Russia's 
occupation of Georgian territory, the atrocities committed by 
Russian forces in Syria, their support for the Assad regime, or 
Russia's efforts to undermine stability and democracy across 
Europe.
    I think I want you to know that not everybody in this 
country is praising Vladimir Putin. I do not. The chairman does 
not. I think that supporting the independence of our friends 
and allies when they are under a threat of attack is in the 
United States' national interest.
    I will continue to work with Senator Graham. I want to 
ensure that U.S. assistance is made available for our partners 
in Eastern Europe and the former Soviet Union.
    It is not because we are seeking a confrontation with 
Russia. It is because we recognize the importance of ensuring 
that our partners can maintain their sovereignty and provide 
for their people.
    Do I agree with the President in saying we should have a 
constructive relationship with Russia rather than an 
adversarial one? Yes, if that is possible. But we cannot ignore 
the significance of the Russian Government's malignant 
activities toward us and our partners if we want to protect our 
own national interests.
    So I thank you for having this hearing. I thank all of you 
for being here.
    Senator Graham. Thanks, Senator Leahy.
    And we will start with the Foreign Minister of the Ukraine.
STATEMENT OF HON. PAVLO KLIMKIN, MINISTER OF FOREIGN 
            AFFAIRS, UKRAINE
    Minister Klimkin. Chairman Graham, Ranking Member Leahy, 
Members of the subcommittee.
    Thank you for giving me this opportunity to testify before 
you today. And of course, it is great to sit in the line here 
with friends in front of the subcommittee.
    Back in 1994, still as a young diplomat, I was involved in 
the process of strategic nuclear disarmament. While working on 
the Budapest Memorandum, I had already questioned its 
effectiveness and feasibility to ensure security of Ukraine.
    Still, and I have to say it, it was beyond my imagination 
that in 20 years, one guarantor of our suzerainty and 
territorial integrity, a permanent U.N. Security Council member 
will invade Ukraine and occupy parts of its territory.
    Why did it happen? Here is the key to understanding what is 
the root cause of Russian policies and intentions to all its 
European countries, particularly the Ukraine--for Putin, the 
collapse of the Soviet Union was the greatest catastrophe of 
the 20th century.
    From the very beginning, he was and is still obsessed with 
restoring the former Russian greatness. Of course, it could be 
done in two ways. One way was to invest in building a strong 
democratic state with the rule of law and competitive market 
economy, honoring the international principle and order. But it 
was not the Russian choice.
    Instead, the Kremlin resorted to aggressive expansionism in 
gross violations with the international law in different 
dimensions: breaking the U.N. Charter and Helsinki Final Act, 
undermining arms control and possibly violating the 
Intermediate-Range Nuclear Forces Treaty (INF) and New START 
treaties, aggressive with trade and energy pressure in 
contradiction to the W20 principles and, of course, blatantly 
violating human rights.
    The Kremlin has developed the concept of hybrid warfare and 
launched it with the illegal annexation of Crimea and the 
invasion in Donbas. It is a highly sophisticated strategy which 
mixes conventional aggression with economy, and economic 
pressure with propaganda and misinformation, as well as direct 
interference in the internal affairs of other countries. It is 
waged daily against peaceful countries to undermine, disrupt, 
and sow dissent.
    It is spearheaded and lying in ruins across the globe by 
the insidious television channel RT, which seeks not to promote 
any particular narrative, but to undermine that of the host.
    In real terms, this hybrid war against Ukraine translates 
into a shocking number of Russian weaponry pumped into the 
occupied Donbas and Crimea. It is now about 4,200 regular 
troops and up to 40,000 militants. It is about more than 400 
tanks and 800 armored vehicles. It is up to 1,000 artillery 
systems and over 200 multiple rocket launchers, and around 
23,000 troops in the occupied Crimea.
    Just a few hours ago, the Russian agent at the 
International Court of Justice made a completely ridiculous 
statement that the Russian-backed militants actually discovered 
all that weaponry had been hidden in the old Soviet coal mines. 
It is in this case just today. Can anyone believe it?
    Kremlin's war against my country over the last 3 years has 
led to over 7 percent of the Ukraine being occupied, almost 
10,000 of my fellow Ukrainians, both military and civilians, 
losing their lives with a further 23,000 being injured.
    Just in the last 6 weeks, the Russians and their proxies 
launched a fierce attack against our troops and civilian 
population in Avdiivka. Russia has recognized the passports and 
documents issued by illegal entities in Donbas, and have also 
completed the introduction of the Russian ruble as the currency 
in the occupied territory.
    Furthermore, Russia has also ordered the illegal 
expropriation of the key enterprises in the occupied territory. 
All this is nothing but the clear breach of each and every 
point of the Minsk Peace Agreement.
    The only viable way to negotiate with Russia is from a 
position of strength and international solidarity. And no new 
agreements should be made with Russia until such time as they 
have delivered on their provisions and commitments.
    So let me thank all of you for the enormous support which 
the United States has given to Ukraine, in particular over the 
last 3 years in our fight against the resurgent Russia. And all 
the signals from the new U.S. administration give us great hope 
that the United States' support for the Ukraine will continue 
and increase. And this continued support is not just in the 
interest of the Ukraine. It is in the interest of the United 
States, and the freedom and stability of the wider 
transatlantic alliance.
    So I am asking the subcommittee for its explicit support in 
a number of areas. Defensively, we have been supplied by the 
United States, and continued military and technical support 
would make a powerful statement to the Kremlin and improve 
significantly Ukraine's ability to defend its territory against 
the Russian army. This support has already shown its 
effectiveness.
    The battalion of the 73rd Brigade, trained by U.S. 
instruction, was one of the most effective in repelling the 
Russian attacks in Avdiivka. The units prepared by the U.S. 
instructors appeared to be very effective on the frontline. 
That is why we believe this kind of support and training is 
very important and should be continued.
    So I would like to ask you to support the appropriation of 
funds authorized for security assistance to Ukraine in the 
National Defense Authorization Act (NDAA) 2017. And please 
support the appropriation of funds for enhanced assistance to 
Ukraine in the U.S. fiscal year 2017 budget and, of course, 
forthcoming 2018 budget.
    Ukraine also needs a long term security arrangement for 
closer partnership and cooperation on defense and security. The 
involvement of the United States will be key for any such 
arrangement to work. Of course, we need U.S. support in re-
launching the negotiations of the signatory of the Budapest 
Memorandum. The United States should play a key role in the 
negotiation, both on Donbas and Crimea.
    And finally, until Russia gets off Ukrainian land, there 
must be no easing up of sanctions. If anything, they should be 
increased.
    Dear Senators, the Ukraine is on the frontline and 
currently the only country fighting and dying to hold off 
Russia. And Ukraine does not simply ask for support. We 
currently spend 6.6 percent of our GDP on defense. At the same 
time, it is obvious that we need the U.S. and transatlantic 
solidarity with Ukraine and Ukrainian people.
    A strong, stable, and democratic Ukraine able to defend its 
borders against Russian expansionism is a crucial ally for the 
United States in the region and globally.
    Thank you.
    [The statement follows:]
                  Prepared Statement of Pavlo Klimkin
    Let me thank you for giving me this opportunity to share with you 
our assessments and related first-hand information on Russian policies 
towards a big European country--towards Ukraine.
    The current policies of Russia towards Ukraine can be expressed in 
one word--the war.
    It has been already 3 years since Russia launched a military 
aggression against Ukraine on 20 February 2014. The appalling number of 
victims highlights the immorality of Kremlin's war against the 
Ukrainian people: over 9,800 Ukrainian citizens have been killed, about 
23,000 wounded and almost 1.8 million have become internally displaced 
persons. 7.2 percent of Ukrainian territory has been seized by Russia 
and millions of Ukrainian citizens live there under occupation and 
endless terror.
    Two years after the Package of Measures for the Implementation of 
the Minsk Agreements was signed, none of its provisions has been 
fulfilled by the Kremlin and its proxies, including the very first 
step--comprehensible and sustainable ceasefire.

  --In 2016 there were about 16,000 ceasefire violations, including 
        about 5,000 ceasefire violations with prohibited artillery and 
        large-caliber mortars.
  --In 2017 the OSCE SMM has recorded a notable increase in the use of 
        weapons proscribed by the Minsk agreements, including multiple 
        launch rocket systems and artillery.

    The recent spike in violence in and around Avdiivka is an eloquent 
example of controlled escalation strategy and a clear indication of 
Russia's blatant disregard of its commitments under the Minsk 
Agreements.
    I would like to thank our partner the United States for training 
provided to the Ukrainian military, which have already shown its 
effectiveness. The battalion of the 72nd brigade trained in Yavoriv by 
the U.S. instructors was one of the most effective in repeling the 
Russian-control attacks on Avdiyivka.
    The units prepared by the U.S. instructors appear to be very 
effective on the frontline and they demonstrate the lowest level of 
losses in manpower, better joint maneuvers and tactics implementation.
    That is why we believe this kind of training and support in 
enhancing Ukraine's defense is very important and should be continued.
    Moscow's attempts to make security on the ground conditional on 
implementation of its political demands breach the Minsk Agreements and 
further exacerbate the dire situation of civilians in certain areas of 
the Donetsk and Luhansk regions.
    The sustained attacks of the Russian hybrid forces would not be 
possible without continued logistic support.
    Russia keeps sending weapons, ammunition and manpower to Ukraine 
through the 409.7-km of uncontrolled segment of the Ukrainian-Russian 
state border. Heavy flamethrower TOS-1 ``Buratino'', radar jamming 
system ``Zhytel'', drone Orlan-10--all manufactured in Russia and used 
exclusively by the Russian Army--have been registered by the OSCE SMM 
in Donbas over the past year and in 2017.
    Russia continues to cover up the reinforcement of its proxies as 
``humanitarian aid''.
    On February 28 the Kremlin dispatched its 61th so-called 
``humanitarian convoy'' without consent and inspection by the Ukrainian 
authorities and ignoring the coordinating role of the ICRC as well as 
principles of international humanitarian law.
    Political settlement on the East of Ukraine is possible only if 
adequate security preconditions are provided by Russia.
    No political settlement on the East of Ukraine is possible while 
there is constant shelling, wide presence of Russian troops and 
mercenaries, weapon supply from Russia and no control by Ukraine over 
its border.
    Russia is imposing by brutal force a model of hybrid elections--
without termination of aggression, without legal institutions and law 
enforcement agencies, without environment for return and expressing 
their position through vote of over 2 million displaced persons, 
without disarmament of illegal armed formations exercising terrorism.
    The Kremlin's Decree of February 18, 2017 on recognition of so-
called documents issued on the territories of certain areas of the 
Donetsk and Luhansk regions, confiscation of Ukrainian assets (public 
and private enterprises) and introduction of the ``ruble zone'' are yet 
another evidence of Russian occupation of the part of Donbas as well as 
a clear violation of international law and the Minsk Agreements.
    Russia is also trying to water down the trilateral format of the 
Minsk talks by granting the illegal +representatives of Donetsk and 
Luhansk; full member status in the process of consultations.
    Moscow is willing to disclaim all liability for the developments in 
Donbas by insisting on its mediator status. Russia hopes that such an 
approach will help it to mitigate or even to get rid of sanctions.
    The developments in the humanitarian sphere require every strong 
consolidated effort to unblock this important track of the Minsk 
Agreements. The civilian population continues to suffer from 
restrictions, deprivation and hardships inflicted upon them by the 
Russian hybrid forces.
    Despite Kremlins' commitments to put additional pressure on the 
illegal armed formations to grant the international humanitarian 
organizations, including the ICRC, access into the region, the 
situation on the ground has not seen even the slightest change.
    During the previous month, the OSCE Special Monitoring Mission in 
Ukraine faced increased restrictions on freedom of movement for the 
monitors and other impediments to its activities in non-government-
controlled areas.
    Such actions carried out by the Russian and Russia-backed militants 
in areas under their control are meant to disrupt the OSCE SMM mandated 
activities, particularly those aimed at monitoring and verifying 
withdrawal of heavy weapons, as envisaged by the Minsk Agreements.
    According to the latest OSCE SMM daily reports covering the period 
of 1-28 February 2017, the OSCE monitors registered over 130 incidents 
of impeding the SMM's activities by the illegal armed formations.
    The international solidarity and consistency of international 
policy of non-recognition of the annexation of Crimea is very 
important.
    The illegal annexation of Crimea and the city Sevastopol has 
imposed very serious challenges to the international security and to 
human rights of people remaining in Crimea. The occupied Crimea has 
become a ``grey zone'' where the militarization, repression and 
political persecution are in growing progress.
    The atmosphere of fear, intimidation, physical and psychological 
pressure forced about 35-40 thousand Ukrainian citizens (including over 
20 thousand Crimean Tatars) to leave occupied Crimea and settle in 
other areas of Ukraine. Today the Crimean Tatars, having survived a 
genocide of the Soviet deportation in 1944, once again face severe 
repressions.
    We witness murders, tortures, harassment, illegal detentions, 
enforced disappearances, intimidation, raids and searches, attacks on 
property and arrests under fabricated charges, and the persecution of 
journalists, human rights defenders and activists.
    The Russian authorities use such methods to eliminate any public 
opposition to the occupation of Crimea and to the current government. 
For the same reasons local independent media and journalists have 
nearly all been co-opted, forced to flee, or run out of business.
    Russia has designated the militarization of Crimea as a top 
priority. The aim is to make the peninsular a powerful military base to 
ensure full control over adjusting regions thus to counterbalance NATO 
forces in the Black Sea region.
    Comparing to the pre-occupation period, Russia has more than 
doubled personal strength of its military in Crimea (from 12,500 before 
the occupation to 29,300 as of October 2016). In the near future (2020-
2025) it should further increase up to 43,000.
    Russia also has substantially reinforced and modernized its Crimean 
military land, air and naval components. Since January 2014 it has 
increased:

  --a number of tanks from 0 to 40
  --armed combat vehicles from 92 to 583
  --artillery systems of the caliber more than 100 mm from 24 to 162
  --combat aircraft from 22 to 101
  --combat helicopters from 37 to 56
  --anti aircraft systems from 0 to 16
  --combat ships from 26 to 30
  --submarines from 2 to 5

    Particularly dangerous are the Russian actions to prepare Crimean 
military infrastructure for deployment of nuclear weapons, including 
refurbishing of the infrastructure of Soviet-era nuclear warheads 
storage facilities. Potential carriers of nuclear weapon, such as 
warships, short-range missile systems and combat aircraft, have been 
already deployed in the Crimean Peninsula.
    In fact, Russia turns Crimea into a ``grey zone'', which is de-
facto not covered by the existing multilateral arms control agreements.
    Crimea has been already used by Russia for its outreached 
activities (in Syria). Such role for military facilities in Crimea 
might be developed in the future.
    The militarization of Crimea complicates the process of its de-
occupation and poses serious threats both to the national security of 
Ukraine and regional security.
    The only effective response to aggressive actions of Russia should 
be international solidarity with Ukraine and strengthening political, 
diplomatic and economic pressure on the aggressor. Russia must fully 
implement the Minsk Agreements and restore the territorial integrity of 
Ukraine, including de-occupation of Crimea. Unless so done, the imposed 
sanctions must be not only preserved but enhanced.
    I am also confident that Ukraine can effectively retaliate the 
Russian aggression only when its defense is strong and Kremlin 
understands that further hostilities will be even more costly. 
Appeasement and concessions made to the aggressor would only encourage 
it for further aggression.
    In this regard, we highly value the bicameral and bipartisan unity 
and support of the U.S. Congress on the issue of utilizing sanction 
policy against Russia.
    We are grateful for your advocacy of an increased U.S. security 
assistance to Ukraine, including through provision of defensive 
weapons.
    I would like to ask you to support the appropriation of funds 
authorized for security assistance to Ukraine in the NDAA, 2017.
    The NDAA, 2017 reaffirms once again the high level of continued 
bicameral and bipartisan support in the U.S. Congress for Ukraine 
fighting the ongoing Russian aggression.
    It is also important that the U.S. security assistance to Ukraine 
does not decrease in the forthcoming 2018 budget.
    We are grateful that the United States has already provided $3 
billion in loan guarantees to Ukraine.
    We also very much appreciate the fact that the State, Foreign 
Operations, and Related Programs Appropriations Act, 2017 cleared by 
this subcommittee has authorized providing of U.S. loan guarantees to 
Ukraine in fiscal year 2017 budget.
    I would like to ask you to support the appropriation of the 
necessary funds for the above purposes in the fiscal year 2017, and, 
possibly, fiscal year 2018 budgets.
    I would like to draw special attention to the situation with 
humanitarian needs of Ukrainian people affected by the Russian 
aggression. The horrors of war and its terrible consequences are daily 
reality for millions of people, with no hope for a quick end to their 
suffering. Totally Ukraine has 3.8 million people in need of 
humanitarian assistance, including 1.7 million--in need of an immediate 
assistance.
    According to U.N. estimates, there is a need of at least $214 
million in additional humanitarian aid for 2017 with a critical 
requirement of $127 million. Ukraine's huge budget resources alongside 
assistance from our Western partners are being spend on humanitarian 
aid, but all these joint efforts are not able to meet existing 
challenges. The United Stated is a lead donor of humanitarian 
assistance to conflict-affected Ukrainians with more than $49 million 
provided last year. At the same time, given the scope of urgently 
needed help we would appreciate a decision of the U.S. Government to 
extend humanitarian aid programs in Ukraine.
    Given the large scope of challenges faced by Ukraine because of 
Russian aggression, we count on increased U.S. financial assistance for 
Ukraine that will help us implement the comprehensive reform agenda and 
ensure Ukraine's economic sustainability.
    Let me convey our strong belief that the Congress of the United 
States will remain united in supporting Ukraine defending its 
independence and choice for free and democratic future.
    I thank you.

    Senator Graham. Thank you very much. If you could, please 
try to keep your statements to 5 minutes. We have questions 
where you can tell us anything on your mind, but time is of the 
essence in the Senate. So thank you very much.
    Mr. Ambassador.
STATEMENT OF HON. PIOTR WILCZEK, AMBASSADOR, EMBASSY OF 
            THE REPUBLIC OF POLAND
    Ambassador Wilczek. Mr. Chairman, Members of the 
subcommittee.
    Thank you for inviting me to testify before the Senate 
subcommittee. It is an honor to be here and I am pleased to be 
able to provide the view of Poland's Government on Russia's 
policy in Europe and the challenges originating from it.
    The Kremlin has a chief strategic objective: restore the 
superpower status lost after the fall of communism. The way to 
achieve this goal seems straightforward, altering the security 
architecture in Europe, thus impeding post-Soviet countries 
from integrating with the Euro-Atlantic community.
    First, the current situation, while pursuing its foreign 
policy objectives, Moscow largely relies on force, 
intimidation, and economic extortions trying to impose on other 
countries an autocratic and oligarchic form of government.
    Russia invaded Georgia, harassed Moldova, meddled in the 
Nagorno Karabakh conflict, and violated international law by 
annexing Crimea.
    Finally, the Kremlin masterminded and keeps fueling the 
conflict in eastern Ukraine. Although Moscow signed the 
ceasefire agreements--Minsk I and Minsk II--it did not withdraw 
from the region which is the point of departure to achieve a 
political solution. Even worse, during the last weeks, we have 
seen increasing military clashes in the Donbas.
    Second, Russia is a growing military threat. President 
Putin embarked Russia on a large scale modernization of its 
armed forces. The introduction of new types of equipment was 
coupled with the reform of military doctrine. The threshold for 
the usage of nuclear weapons has been lowered.
    Kaliningrad, bordering Poland and Lithuania, became the 
most militarized region in Europe. Russia equipped the exclave 
with Anti-Access Area-Denial capabilities. This A2/AD bubble 
aims at limiting NATO's freedom of maneuver and action on 
Allied territory. It covers an area spanning from northeastern 
Poland to the Baltic States.
    Moreover, Kaliningrad is equipped with Iskander systems 
nuclear capable missiles able of hitting targets in Estonia, 
Latvia, Poland, and even in eastern parts of Germany.
    Moscow conducts large scale snap exercises with openly 
aggressive scenarios. We also observe an unprecedented number 
of military incidents provoked by Russia, but the most alarming 
issue is Russia's ability to take prompt and deceptive actions. 
We saw that in Crimea.
    Third, the hybrid dimension, the challenges posed by 
Russia's actions go beyond the conventional military realm. We 
see them in the cyber, informational, and energy domains.
    Russia deliberately employs hybrid means to act below the 
threshold of a military conflict. Moscow often acts by 
exploiting national vulnerabilities and sensitivities. This 
might involve actions in the cyber domain, frequently backed by 
a fierce propaganda effort. Ukraine is a case in point.
    While countries in Central Europe try to diversify their 
import routes, Russia promotes the Nord Stream 2 pipeline, 
creating divisions among EU member states. Should this project 
go ahead, Russia could effectively hinder the diversification 
efforts of the whole region. Increased gas supplies from Russia 
would inevitably affect the economic viability of LNG projects 
in Central and Eastern Europe.
    Fourth, our response, two words--uncertainty and 
insecurity--best describe the current security situation we 
operate in. Such conditions and challenges call for an adequate 
answer. NATO is the best platform to provide it. It is a unique 
force multiplier.
    Deterring all those threats and challenges requires a swift 
and full implementation of the decisions taken at the Summit in 
Warsaw in 2016. Furthermore, my government believes that the 
Special Meeting of Heads of States and Governments should be an 
important milestone in the process of adapting the Alliance's 
defense and deterrence posture.
    As the challenges we face are here to stay, the Enhanced 
Forward Presence of Allied troops on the eastern flank of the 
Alliance should have a long term character. Poland is very 
grateful for those actions. It would be impossible to achieve 
the Warsaw's Summit decisions without American leadership.
    In this context, I would also like to thank you for the 
deployment of your troops to our region under the NATO flag. A 
long term American commitment to the Enhanced Forward Presence 
(EFP) is absolutely essential. I would like to add that the 
presence of American soldiers in Poland, as part of Operation 
Atlantic Resolve, is of equal and paramount importance. Further 
congressional support for the European Reassurance Initiative 
would be greatly appreciated.
    Mr. Chairman, distinguished Members of the subcommittee, a 
fair burden-sharing among allies is a must. Poland meets the 2 
percent defense spending target along NATO guidelines. More 
than 20 percent of our 2017 military budget will be spent on 
military equipment. Our soldiers serve in missions in 
Afghanistan and Kosovo. Poland contributes to collective 
defense. A Polish tank company has been deployed to Latvia 
under the framework of the EFP. Our vessel commands the 
Standing NATO Maritime Group 2 operating on the Aegean Sea.
    Poland has always been ready to deal with the terrorist 
threat. Polish and American soldiers were brothers-in-arms 
during the missions in Iraq and Afghanistan. Altogether, more 
than 40,000 Polish troops took part in both operations. 
Nowadays, Poland is an active member of the Global Coalition 
Against Daesh.
    Moreover, our efforts go beyond the military domain. Last 
year saw the opening of an import LNG terminal in Poland. It 
could become a gateway for U.S. made LNG destined for clients 
in Central Europe. Delivering gas supplies to Ukraine via 
Poland would send a powerful political message, whilst 
providing business opportunities for American firms.
    Moscow orchestrated the conflict in the Ukraine and Moscow 
has all the means to end it. Moscow signed ceasefire 
agreements, Minsk I and Minsk II, but does not respect their 
provisions. Moreover, Russia decided to recognize the documents 
produced by the so-called Donbas Republics.
    To sum up, taking into account Russia's actions, we see no 
ground to ease the sanctions or to change our policy vis-a-vis 
Moscow. Congressional support for maintaining transatlantic 
unity and solidarity on this issue is indispensable.
    A couple of weeks ago, General James Mattis said at NATO 
headquarters, ``Europe and North America need to work together 
stronger than ever in times of turmoil and unpredictability.'' 
I firmly believe that the political and military engagement of 
the United States is necessary for preserving peace and 
stability in Europe.
    Let me stress that we remain open to dialogue with Moscow. 
However, such dialogue needs to be conditional on Russia 
changing its current policies and its stance towards 
international law.
    Thank you again for the opportunity to testify today, and I 
look forward to taking your questions.
    [The statement follows:]
                Prepared Statement of Hon. Piotr Wilczek
    Mr. Chairman, Members of the Subcommittee,

    Thank you for inviting me to testify before the United States 
Senate Committee on Appropriations, State, Foreign Operations, and 
Related Programs Subcommittee. It is an honor to be here and I am 
pleased to be able to provide the view of my government on Russia's 
policy in Europe and the challenges originating from it.
    Let me start by briefly outlining Russia's policy goals. Following 
that, I would like to highlight four points for you to consider.
    The Kremlin has a chief strategic objective: restore the superpower 
status lost after the fall of communism. The way to achieve this goal 
seems straightforward: altering the security architecture in Europe, 
thus impeding post-soviet countries from integrating with the Euro-
Atlantic community.

First. The current situation.

    While pursuing its foreign policy objectives, Moscow largely relies 
on force, intimidation and economic extortions, trying to impose on 
other countries an autocratic and oligarchic form of government. Russia 
invaded Georgia, harassed Moldova, meddled in the Nagorno Karabach 
conflict and violated international law by annexing Crimea. Finally, 
the Kremlin masterminded and keeps fueling the conflict in eastern 
Ukraine. Although Moscow signed the ceasefire agreements--Minsk I and 
Minsk II--it did not withdraw from the region what is the point of 
departure to achieve the political solution. Even worse, during the 
last weeks we have seen increasing military clashes in the Donbas.
    The Russian aggression against Ukraine ended the period of a post-
Cold War stability. Moscow decided to undermine the European security 
architecture, enshrined in the Helsinki Final Act.
    All these actions have been heralding the course of President 
Putin's Russia. Having left the path of dialogue and democratic change 
sparked in the early 1990s, it evolved into a dark residue of the 
Soviet menace. Yet again, military power became the Kremlin's chief 
tool for pursuing its policy objectives.

Second. Russia is a growing military threat.

    President Putin embarked Russia on a large-scale modernization of 
its armed forces. The introduction of new types of equipment was 
coupled with the reform of the military doctrine. The threshold for the 
usage of nuclear weapons has been lowered. Newly created military units 
have been deployed to the western parts of the country.
    Kaliningrad, bordering Poland and Lithuania, became the most 
militarized region in Europe. Russia equipped the exclave with anti-
access/area-denial capabilities. This A2/AD ``bubble'' relies on a 
combination of sophisticated anti-aircraft, anti-shipping and 
electronic warfare systems. It aims at limiting NATO's freedom of 
maneuver and action on Allied territory. It covers an area spanning 
from North-Eastern Poland to the Baltic states.
    Moreover, Kaliningrad is equipped with ``Iskander'' systems. These 
short-range ballistic missiles are nuclear-capable and able of hitting 
targets in Estonia, Latvia, Poland and even in eastern parts of 
Germany.
    Moscow conducts large-scale snap exercises with openly aggressive 
scenarios. The last snap military drills took place in Kaliningrad this 
February. We also observe an unprecedented number of military incidents 
provoked by Russia with Russian airplanes and warships violating Allied 
airspace and waters.
    But the most alarming issue is Russia's ability to take prompt and 
deceptive actions. We saw that in Crimea.

Third. The hybrid dimension.

    The challenges posed by Russia's actions go beyond the conventional 
military realm. We see them in the cyber, informational and energy 
domains.
    Russia deliberately employs hybrid means to act below the threshold 
of a military conflict. Moscow often acts by exploiting national 
vulnerabilities and sensitivities. This might involve actions in the 
cyber domain, frequently backed by a fierce propaganda effort. Ukraine 
is the case in point.
    Take energy. Russia largely relies on oil and gas sales for its 
exports revenues. This is a simplification. In 2013 oil and petroleum 
products were responsible for 54 percent of the Russian gross exports 
sales. Gas accounted for 14 percent. These are all EIA figures. From 
the Russian perspective, it was not only easy, but also not so costly 
to use gas as a political weapon.
    Nowadays countries in Central Europe largely rely on Russia for 
their energy imports. Moscow uses energy resources as a tool in foreign 
policy. Countries cooperating with Russia benefit from large discounts 
on their energy bills. Those seeking integration with the West end up 
paying high prices or are threatened with being cut off from supplies. 
Just look at Ukraine.
    Today, while countries in Central Europe try to diversify their 
import routes, Russia promotes the Nord Stream 2 pipeline, creating 
divisions among EU member states. Should this project go ahead, Russia 
could effectively hinder the diversification efforts of the whole 
region. Increased gas supplies from Russia would inevitably affect the 
economic viability of LNG projects in Central and Eastern Europe.

Fourth. Our response.

    We have been living in a changed security environment for more than 
3 years. Two words--uncertainty and insecurity--best describe the 
current security situation we operate in. Such conditions and 
challenges call for an adequate answer. NATO is the best platform to 
provide it. It is a unique force multiplier.
    Deterring all those threats and challenges requires a swift and 
full implementation of the decisions taken at the Summit in Warsaw. 
Furthermore, my government believes that the Special Meeting of Heads 
of States and Governments scheduled to take place in Brussels later 
this year should be an important milestone in the process of adapting 
the Alliance's defense and deterrence posture.
    As the challenges we face are here to stay, the enhanced Forward 
Presence (eFP) of Allied troops on the Eastern flank of the Alliance 
should have a long-term character. Poland is very grateful for those 
actions. It would be impossible to achieve the Warsaw's Summit 
decisions without American leadership.
    In this context I would also like to thank you for the deployment 
of your troops to our region under the NATO flag. A long-term American 
commitment to the eFP is absolutely essential. I would like to add that 
the presence of American soldiers in Poland as part of Operation 
Atlantic Resolve is of equal and paramount importance. Further 
congressional support for the European Reassurance Initiative would be 
greatly appreciated.

  Mr. Chairman, members of the subcommittee,

    Before concluding allow me to underline that we take our 
commitments seriously. A fair burden-sharing among Allies is a must. 
Poland meets the 2 percent defense spending target along NATO 
guidelines. More than 20 percent of our 2017 military budget will be 
spent on military equipment. Our soldiers serve in missions in 
Afghanistan and Kosovo. Poland contributes to collective defense. A 
Polish tank company has been deployed to Latvia under the framework of 
the eFP. Our vessel commands the Standing NATO Maritime Group 2 
operating on the Aegean Sea.
    Poland has always been ready to deal with the terrorist threat. 
Polish and American soldiers were brothers-in-arms during the missions 
in Iraq and Afghanistan. Altogether, more than 40 thousand Polish 
troops took part in both operations. Nowadays, Poland is an active 
member of the Global Coalition against Daesh. Our F-16 fighter-jets are 
flying over Iraq.
    Moreover, our efforts go beyond the military domain.
    Together with our Danish and Norwegian partners we are working on a 
big-scale diversification project: the Baltic Pipe. A natural gas 
pipeline linking the Norwegian fields with Poland via Denmark. It would 
allow direct imports of natural gas from Norway to Poland. It could 
also be used to ship re-gasified LNG from Poland to Denmark.
    Last year saw the opening of an import LNG terminal in Poland. It 
could become a gateway for U.S.-made LNG destined for clients in 
Central Europe. Delivering gas supplies to Ukraine via Poland would 
send a powerful political message, whilst providing business 
opportunities for American firms.

  Mr. Chairman, members of the subcommittee,

    Moscow orchestrated the conflict in Ukraine and Moscow has all the 
means to end it. It signed ceasefire agreements, Minsk I and Minsk II, 
but does not respect their provisions. Moreover, Russia decided to 
recognize the documents produced by the so-called Donbas republics.
    Is it a proof of good will?
    To sum up, taking into account Russia's actions, we see no ground 
to ease the sanctions or to change our policy vis-a-vis Moscow. 
Congressional support for maintaining transatlantic unity and 
solidarity on this issue is indispensable.

  Mr. Chairman, members of the subcommittee,

    A couple of weeks ago General James Mattis said at the NATO HQ that 
``Europe and North America need to work together stronger than ever in 
times of turmoil and unpredictability''--I couldn't agree more with his 
statement. I firmly believe that the political and military engagement 
of the United States is necessary for preserving peace and stability in 
Europe.
    Let me stress that we remain open to dialogue with Moscow. However, 
such dialogue needs to be conditional on Russia changing its current 
policies and its stance towards international law.
    Thank you again for the opportunity to testify today, and I look 
forward to taking your questions.

    Senator Graham. Thank you. And to those who stick to 5 
minutes, your chance of assistance goes up. [Laughter.]
    Thank you very, very much.
    The Ambassador from Georgia.
STATEMENT OF HON. DAVID BAKRADZE, AMBASSADOR, EMBASSY 
            OF GEORGIA
    Ambassador Bakradze. Mr. Chairman, ladies and gentlemen.
    I am here today to remind you that before Ukraine, Georgia 
was invaded in 2008, and 20 percent of our country remains 
under Russian occupation.
    Despite ongoing Russian aggression, with the support of the 
United States, Georgia has made tremendous strides in 
strengthening democratic institutions and fostering economic 
development to solidify an irreversible pact towards Europe and 
Euro-Atlantic integration. I am also here to tell you that we 
need a stronger America in Georgia and the region.
    The conflict, which started in the early 1990's, reached 
its peak in 2008 with the Russian invasion of Georgia and the 
occupation of our territories. As the international community 
failed to effectively respond to early warning signs, Russia 
continues its occupation with up to 10,000 Russian military, 
security, and the Federal Security Service of the Russian 
Federation (FSB) border guard personnel. The Russian occupation 
forces have no legal mandate, and are in stark violation of 
international law of the August 12, 2008 ceasefire agreement.
    In 2009, Russia began installing razor wire fences and 
other artificial obstacles along the occupation line. The total 
length of the trenches across both occupation lines is more 
than 62 miles. We greatly appreciate the interest of Congress, 
both its bodies and its representatives, who are frequently 
visiting the occupation line.
    In further violation of the ceasefire agreement, Moscow has 
signed so-called treaties with the occupational regimes. These 
documents represent a step towards annexation of Georgia's 
occupied regions as they provide a foundation for full 
integration into social, economic, administrative, and most 
importantly, military and security institutions of the Russian 
Federation.
    Georgia is pursuing an engagement and reconciliation 
process with the people in the occupied territories. We make 
all benefits, which are available to Georgian citizens, also 
accessible to our compatriots residing on the other side of the 
occupation line--free healthcare, educational, cultural, 
scientific programs, and other benefits of Georgia's European 
path such as visa liberalization.
    Since regaining its independence, and to undermine Georgian 
sovereignty and territorial integrity, Georgia has been subject 
to different forms of unconventional hybrid warfare.
    Russian propaganda in Georgia--in addition to an economic 
embargo of 2006, energy cuts, and the cyber attacks in 2008--
seeks to challenge and derail Georgia's European and Euro-
Atlantic integration aspirations. It builds on fears that exist 
in different societies, creating myths, and communicating 
through different forms of media.
    A recent example is the spreading of false information that 
through a well-deserved visa-free travel decision for Georgian 
citizens to Europe came at the expense of building refugee 
camps in Georgia.
    The Georgian Government has been effective in its strategic 
communication efforts through a coordinated approach, 
dismantling myths, but also countering anti-Western narratives 
by bringing tangible results to Georgian citizens such as a 
free trade agreement, an association agreement with Europe, and 
visa liberalization. As a result, we have managed to maintain 
strong support toward Georgia's EU and NATO aspirations within 
70 to 75 percent.
    Overall, despite Russia's vicious efforts, for a small 
nation, Georgia makes an outsized contribution in international 
security efforts by allocating more than 2 percent of our GDP 
for defense spending. We are a committed partner in the fight 
against terrorists and we are one of the largest contributors 
to the Resolute Support mission in Afghanistan. With one of the 
highest number of 870 servicemen, Georgian soldiers are proudly 
standing shoulder to shoulder with allies in the most dangerous 
parts of the world.
    In recent years, we have made progress in building strong 
and effective state institutions ensuring democracy, human 
rights, and rule of law because we believe that our political 
and economic progress will ultimately serve as a potent 
antidote to Russia's expansionist design.
    For the last decade, Georgia--as the most reliable and 
democratic ally of the United States in a very tough region--
has been a great example of American taxpayers' money wisely 
spent. Therefore, I want to invite the Members, and the staff 
of this subcommittee, to visit and see firsthand the 
transformational power of U.S. assistance.
    Last year, we signed a memorandum on a deepening of 
security and defense partnership between our two nations, and 
we successfully launched the Georgia Defense Readiness Program. 
Further improvements of these programs, and elevation of our 
security partnership, is of vital importance as we believe 
Georgia remains an essential part of the Euro-Atlantic security 
architecture.
    When the Cold War ended and the Soviet Union dissolved, the 
United States and its allies sought to build Europe whole, 
free, and at peace. Today, when one of the basic foundations of 
security and peace--respect for national borders--is violated, 
a new transatlantic leadership is needed to fortify and enlarge 
the alliance.
    We believe a comprehensive, long term engagement strategy 
by the new administration will include the strengthening of 
Georgia's territorial integrity and sovereignty, improving 
bilateral trade, economic investment relationships, and 
supporting the democratic choice of the Georgian people to 
integrate with Euro-Atlantic institutions.
    All these measures will make Georgia stronger and more 
resilient. That is important because a stronger Georgia is in 
the United States' interest, as much as a stronger America is 
in Georgia's interest.
    Thank you.
    [The statement follows:]
               Prepared Statement of Hon. David Bakradze
             russia's meddling in georgia--a brief history
    Georgia was under Russian colonial occupation between 1801 and 
1991, with prior independent statehood of more than 3,000 years. For a 
brief period between 1918 and 1921 Georgia reclaimed independence, only 
to face massive Soviet invasion and another 70 years of occupation.
    In 1991, as the Soviet Union collapsed, Georgia regained its 
independence and began a state-building process. Georgia's stated 
aspirations to European and Euro-Atlantic integration and its 
commitment to democratic progress and economic growth have since then 
provided a counterpoint to the new-imperialist intentions of the 
Russian Federation to keep Georgia and other former-Soviet states under 
its direct political influence and domination.
    U.S. support has been critical to Georgia's ability to continue on 
its path toward progress, despite regional challenges. In return, 
Georgia has been America's closest ally in a tough neighborhood. For a 
small nation, we make an outsized contribution to international 
security efforts with an allocation of more than 2 percent of our GDP 
to defense spending. We are also a committed partner in the fight 
against terrorism. We remain the largest per capita contributor to 
NATO's Resolute Support mission in Afghanistan with 870 Georgian 
servicemen. Georgian soldiers stand shoulder-to-shoulder with the U.S. 
and allies in the most dangerous parts of the world, 32 Georgian 
soldiers lost their lives in the fight against terrorism.
    The U.S.-Georgia alliance remains vital in the face of ongoing 
Russian provocations, which have been going on for decades. The first 
demonstration of Russia's imperialist intensions--in what it likes to 
refer to as its ``near abroad''--came shortly after Georgia's 
independence, when Russia sponsored separatist movements in Georgia in 
the Tskhinvali region/South Ossetia in 1991 and the Abkhazia region in 
1992. Situations in both regions escalated to armed hostilities, where 
Russian-backed separatist forces and so called `Russian mercenaries' 
defeated the newly-formed weak and fragmented Georgian military forces, 
resulting in the displacement of hundreds of thousands of ethnic 
Georgians from those regions.
    Throughout the 1992-1993 conflict, the ethnic Georgian population 
was subject to atrocities including acts of murder, torture, rape and 
pillage. The U.N. Secretary-General-mandated fact-finding mission, 
which visited Abkhazia, Georgia in 1993, described various episodes of 
the conflict where such acts occurred on a large scale.\1\ To escape 
the atrocities, the entire ethnic Georgian population of approximately 
260,000 was forced to flee from the Abkhazia region by 1994.\2\ 
However, an estimated 35,000 Georgians remained in the region.
---------------------------------------------------------------------------
    \1\ U.N. Sec. Council, Report of the Secretary-General's Fact-
Finding Mission to Investigate Human Rights Violations in Abkhazia, 
Republic of Georgia,  17, U.N. Doc. S/26795, (Nov. 17, 1993).
    \2\ See UNHCR data at: http://www.unhcr.org/cgi-bin/texis/vtx/
page?page=49e48d2e6.
---------------------------------------------------------------------------
    The population that remained in the Abkhazia region soon was 
subject to forced passportization. As described by the EU-mandated 
Independent International Fact-Finding Mission on the Conflict in 
Georgia, ``after the ethnic cleansing of Georgians in these two regions 
in early 1990s, en masse distribution of Russian passports to the 
remaining civilian population represented a deliberate and well-
constructed policy aimed at establishing a pretext of the military 
intervention of the Russian Federation on the territory of Georgia [in 
August 2008]''.\3\
---------------------------------------------------------------------------
    \3\ IIFFMCG Report, Volume II, at 187.
---------------------------------------------------------------------------
russia-georgia war in august 2008 and security situation on the ground 
                             after 8 years
    The Russian military aggression and invasion of Georgia in August 
2008 brought a new wave of massive ethnic cleansing of the Georgian 
population from the Tskhinvali region/South Ossetia. The widespread 
violence against Georgian civilians included acts of killing, torture, 
rape, looting and burning of people's houses.\4\ All Georgian villages 
in the Tskhinvali region/South Ossetia, Georgia with a total ethnic 
Georgian population of approximately 35,000 were burned down and 
destroyed in order to preclude any return of the expelled population.
---------------------------------------------------------------------------
    \4\ See for example ``Human Rights Watch, Up in Flames: 
Humanitarian Law Violations and Civilian Victims in the Conflict Over 
South Ossetia'' (Human Rights Watch 2009), at 127-194; ``Amnesty 
International, Civilians in the Line of Fire: The Georgia-Russia 
Conflict'' (Amnesty International Publications, 2008), at 34-45.
---------------------------------------------------------------------------
    August 12, 2008 Ceasefire Agreement between the Russian Federation 
and Georgia calls for the withdrawal of Russian troops to the places 
held prior to the outbreak of hostilities. However, Russia continues to 
occupy both Georgian regions through the presence of approximately 
10,000 Russian military and security personnel and the so-called FSB 
border guards. The Russian occupation forces have no legal mandate and 
are in stark violation of international law. There is neither host 
country consent from Georgia to have Russian troops on Georgian soil, 
nor any agreement that would permit Russian military presence. 
Moreover, the Russian state has direct control over both regions given 
that top decision-makers in both the Tskhinvali and Abkhazia regions 
are Russian citizens.
    In addition to the personnel presence, Russia has illegally built 
and fortified military infrastructure in the occupied regions. In 
August 2010, the military base located in the Abkhazia region was 
fortified with the S-300 type surface-to-air (anti-aircraft) missile 
system. In December 2010, Russia installed a multiple-launch rocket 
system artillery battalion (so-called ``Smerch'' units) at the 
Tskhinvali base. In January 2011, this base was further reinforced with 
the tactical-operational missile launch system ``Scarab B,'' also known 
as ``Tochka U,'' with an operational range of 120 km, and capability of 
being equipped with conventional and nuclear warheads.
    Despite the explicit calls of the international community to end 
the occupation and withdraw its military forces \5\ as called for by 
the EU-mediated Ceasefire Agreement signed after the August 2008 war, 
Russia has intensified both military build-up and grave human rights 
violations in the occupied regions. For instance, in 2015, the illegal 
military base in the Tskhinvali region was further fortified with 
modernized missile systems, such as the ballistic missile system 
``Iskander,'' multiple BM-21"Grad'' rocket launchers, and the surface-
to-air missile system ``Strela 10,'' as well as tanks and UAVs.\6\
---------------------------------------------------------------------------
    \5\ These include: NATO, EU, Council of Europe, Resolutions of the 
OSCE Parliamentary Assembly, U.S. Senate and House of Representatives, 
Lithuanian Seimas, Czech Senate, Romanian Senate, etc.
    \6\ Available at: http://dyn.function.mil.ru/news_page/
world.htm?objInBlock=25&blk=10323761.
---------------------------------------------------------------------------
                 creeping annexation and efforts of gog
    First in summer 2009 and then in April/May 2011, the Russian 
occupation forces started the installation of razor wire fences and 
other artificial obstacles along the occupation line in the Abkhazia 
and Tskhinvali regions; the process has further expanded since January 
2013 and continues today. The total length of the trenches across the 
Abkhazia region's occupation line is around 48 km. The total length of 
artificial barriers along the occupation line in the Tskhinvali region 
is around 52 km, affecting around 200 local families, by leaving their 
houses behind the new barriers. Some of them were compelled to flee 
their places of residence, thus creating a further wave of IDPs.
    In parallel, Russian occupation forces are installing so-called 
``border'' sign posts along the occupation line in the Tskhinvali 
region. As a result of the so-called ``borderization'' process, local 
families have found themselves cut off from agricultural lands, potable 
and irrigation water systems, religious sites and cemeteries; they are 
deprived of their fundamental rights, including the rights to free 
movement, education, and social and health services. This situation 
creates an imminent threat of further waves of displacement. The arrest 
of Georgian citizens for so-called ``illegal border crossing,'' 
kidnappings for ransom, robberies, partial murders, attacks on 
civilians, discrimination against ethnic Georgians and violations of 
the Georgian central government-controlled air space by Russian 
helicopters and Unmanned Aerial Vehicles (UAV) continue to pose 
challenges for the State Security Service of Georgia (SSSG). Since 
2010, 915 civilians have been detained for so called ``illegal border 
crossing.''
    In a further grave violation of the August 2008 Ceasefire 
Agreement, Moscow signed the so-called ``treaty on alliance and 
strategic partnership'' with the Sokhumi occupation regime on 24 
November 2014 and the so-called ``treaty on alliance and integration'' 
with the Tskhinvali occupation regime on 18 March 2015. Although 
similar Russian-led initiatives have been undertaken in the past, these 
documents represent a factual annexation of Georgia's occupied regions, 
as they provide for full integration into the social, economic, 
administrative and--importantly--military and security institutions of 
the Russian Federation. Among others, the documents envisage the de-
facto abolishment of the segment of the Georgia-Russia border in the 
Abkhazia and Tskhinvali regions, whereas the occupation line with the 
rest of Georgia will be further fortified. The documents also envisage: 
(1) the creation of ``common security and defense space;'' (2) the 
establishment of a Joint Coordinating Centre for law enforcement 
agencies, imposing the FSB system on both the Abkhazia and Tskhinvali 
regions; (3) the simplification of procedures necessary for obtaining 
Russian citizenship; (4) the equalling of pensions and salaries to the 
equivalent level of allowances for residents of the Russian 
Federation's Southern District. The document signed with the Tskhinvali 
region contains certain differences, which speak of full de facto 
annexation of the region into the Russian Federation. The title--
``alliance and integration''--points to the genuine intention and 
ultimate goal of the document. The occupation regime in the Tskhinvali 
region confirms this by making explicit the necessity of becoming a 
Federal subject of Russia. The so-called ``President'' Leonid Tibilov 
recently announced a decision to initiate a referendum on the 
integration of South Ossetia into the Russian Federation.\7\ Follow-up 
field ``agreements,'' which have been already signed or are in the 
pipeline, will factually turn Georgia's regions into Federal parts of 
Russia.
---------------------------------------------------------------------------
    \7\ Available at: http://cominf.org/node/1166506480.
---------------------------------------------------------------------------
    It is worth mentioning that, in November 2011, then President of 
Russia Dmitry Medvedev made a statement that Russia's military 
aggression against Georgia was intended to counter Georgia's NATO 
ambitions and thus Georgia's sovereign choice to integrate into the 
Euro-Atlantic community.\8\ Furthermore, on August 8, 2012, on the 
fourth anniversary of the Russia-Georgia War, the President of the 
Russian Federation Vladimir Putin confessed that since 2006, Russia had 
developed a plan to invade Georgia. He also revealed that Moscow had 
been training militias of the Tskhinvali regime to directly participate 
in the military operations.\9\
---------------------------------------------------------------------------
    \8\ Statement of D. Medvedev is available at: http://www.rg.ru/
2011/11/21/prezident-site.html.
    \9\ Statement of the President of the Russian Federation is 
available at: http://www.kremlin.ru/transcripts/16180#sel=30:1,32:21.
---------------------------------------------------------------------------
    The policy of creeping annexation exercised by Russia against 
Georgia, coupled with the alarming developments in the region, 
demonstrate that Russia does not accept the sovereign choice of 
independent states and is attempting to restore zones of influence in 
the region.
    While advancing its Euro-Atlantic integration, Georgia remains 
firmly committed to the peaceful resolution of the conflict and the de-
escalation of tensions with Russia based on respect for Georgia's 
territorial integrity. Georgia has taken concrete steps in this 
direction. In November 2010, Georgia undertook a non-use of force 
pledge against the Russian Federation, which was further reiterated by 
the Parliament of Georgia in March 2013. While the international 
community lauded Georgia's pledge on the non-use of force, Russia 
explicitly refuses to reciprocate it. In November 2011, Georgia agreed 
on Russia's accession to World Trade Organizations, thus completely 
removing the barriers for Russia's membership in the WTO. In February 
2012, the Government of Georgia unilaterally abolished the visa regime 
for Russian citizens. In November 2012, the Prime Minister of Georgia 
appointed a Special Representative for Relations with the Russian 
Federation and launched a direct channel with Moscow, thus once again 
reaffirming the political will to mend economic, cultural and 
humanitarian ties with Russia. In the meantime, the Geneva 
International Discussions, co-chaired by the UN, EU and the OSCE, 
remain the only format for discussing outstanding political and 
humanitarian issues with the Russian Federation. In February 2014, the 
Georgian national team participated in the 2014 Winter Olympics in 
Sochi, while the Government of Georgia expressed readiness to cooperate 
with relevant Russian structures on security-related issues.
    The above constructive initiatives have been met with further 
provocations, the installation of artificial barriers on the territory 
of Georgia, and steps towards the annexation of the Abkhazia and 
Tskhinvali regions. Despite Georgia's tireless efforts at constructive 
engagement, Russia continues to obstruct agreement on establishing an 
international security presence in the occupied regions, and for the 
safe and dignified return of IDPs and refugees.
    Russia's efforts to legitimize its occupation of territories of a 
sovereign state include the illegal ``recognition'' of the Georgian 
regions of Abkhazia and Tskhinvali as independent states, and 
furthermore, the coercion of other nations, including through political 
and financial pressure, to do the same. After failing to achieve 
progress in this regard at the political level,\10\ the Russian 
Federation has been resorting to other instruments in order to 
legitimize the so-called ``independence'' and thus its illegal actions 
on the ground.
---------------------------------------------------------------------------
    \10\ Despite Russia's illegal policy, only three states have 
recognized the so called ``independence'' of Georgia's occupied 
regions--Venezuela, Nicaragua and Nauru. Tuvalu and Vanuatu have 
withdrawn the recognition and established diplomatic relations with 
Georgia based on the principle of the latter's sovereignty and 
territorial integrity within the internationally recognized borders.
---------------------------------------------------------------------------
    The Abkhazia and Tskhinvali regions remain inaccessible for the 
international community. The EU Monitoring Mission, which is an 
extremely important instrument to ensure security and stability on the 
ground, is still prevented from fully implementing its mandate by not 
being allowed to access the occupied regions. Notwithstanding, the EUMM 
is the only international mechanism capable of monitoring the situation 
in close proximity to the occupied regions. The latest report by the 
Ministry of Foreign Affairs on the Human Rights Situation in the 
Occupied Regions of Georgia is attached (http://mfa.gov.ge/
getattachment/fe17def2-cd11-48b6-b9ad-d0535e49e6fa/MFA-4-report-2016-
fin.docx.aspx).
    In a recent development: Russian occupation regime in Tskhinvali 
scheduled a referendum on 9 April on changing the name of one of the 
oldest Georgian regions into the one similar to the Federal subject of 
the Russian Federation. This referendum is a step intended to lay a 
ground for illegal annexation of the occupied region.
    The international society should urge the Russian Federation to 
respect sovereignty and territorial integrity of its neighbors and 
comply with its international obligations. The firm stance and 
consolidated efforts of international society is crucial to prevent 
another act of annexation in Europe. We appreciate a firm stance of the 
U.S. State Department on this issues as expressed in the Statement of 
the Embassy of USA in Georgia. Meanwhile, we remain open for 
constructive negotiations in the format of Geneva International 
Discussions. Last year was marked by the restoration of the Gali 
Incident Prevention and Response Mechanism.
    As concerns the relations with our compatriots living in the 
occupied territories, the ethnic Abkhaz and Ossetians, are an integral 
part of our common history and future, despite the current artificial 
barriers. There is no alternative to the return of the IPDs and 
refugees to their homes and to the full re-integration of all 
ethnicities into a vibrant society where human rights and individual 
freedoms as well as cultural and linguistic diversity of different 
communities are the Georgian State's top priorities.
    We firmly pursue the engagement, confidence building and 
reconciliation process with the people living in the occupied 
territories. We are offering all benefits which are open to Georgian 
citizens. We stand ready to offer all the progress we will be having on 
our development path. The Universal free healthcare, free education, 
benefits of Georgia's European integration path--Visa liberalization, 
educational, cultural, scientific programs are available for our 
citizens residing on the other side of the occupation line. (Main 
directions of the reconciliation and engagement policy of the Office of 
the State Minister for Reconciliation and Civic Equality is attached)
                             hybrid warfare
    It is worth noting not only the persistence of Russia's efforts to 
undermine Georgian sovereignty and territorial integrity, but also the 
nature of those efforts. Since regaining its independence, Georgia has 
been subject to different forms of unconventional, hybrid warfare. The 
blackmailing and intimidation has been in the Russia's toolkit. The 
economic embargo of 2006, energy cuts, cyber-attacks in 2008 and after 
were parts of Russia's policy to attain its desired political results, 
to derail Georgia from its sovereign choice of European and Euro-
Atlantic integration.
    For the last several years, Russian propaganda has become visible 
and stronger not only in Georgia, but in the wider region. The approach 
differs not only from country to country, but from region to region, 
serving the goal it wants to achieve in each location. In Georgia's, 
case Russia is defying and confronting Georgia's European and Euro-
Atlantic path. It builds on fears and challenges that exist in 
different societies, creating myths and communicating through different 
forms of social media, using newly established NGO's or media 
organizations, like radio ``Sputnik'', Internet trolls etc.
    The Georgian Government has been successful in its strategic 
communications, through a coordinated approach that dismantles myths. 
The policy is not fighting propaganda with propaganda, but with 
truthful information and the policies, that deliver. Last 4 years have 
been successful for Georgia's European integration, bringing tangible 
results for its population, through European instruments, like Deep and 
Comprehensive Free Trade Agreement, the Association Agreement and Visa 
Liberalization, that will be available for the citizens of Georgia by 
the end of this month. These deliverables are important to counter 
Russian propaganda that aims to showing futility of the reforms 
approximating with European legislation.
    We have managed, despite increased propaganda and an open media 
environment, through effective strategic communications and coordinated 
information campaigns, to maintain high support for Georgia's European 
and Euro-Atlantic aspirations. According to the recent polls, the 
Georgian population expressed 73-78 percent support for Georgia's 
membership in the EU and NATO.
    We have strengthened traditionally emotional support for European 
integration with knowledge-based support, something that cannot be 
easily challenged through propaganda efforts. An informed society 
cannot be easily influenced by misinformation. Coordination of the 
Government's activities with civil society (23 NGOs) efforts not only 
in the capital Tbilisi, but in the most exposed regions as well, is 
implemented by communication with the most vulnerable parts of society, 
through information providers, like regional media, municipality 
workers, teachers, clergy.
    We highly appreciate good cooperation with NATO's Center of 
Excellence on Strategic Communication since the day of its 
establishment in Riga, as well as with the EU EastStratComm unit in 
Brussels. We look forward to more initiatives from the U.S. Congress.
              stronger united states for stronger georgia
    To summarize, despite the Russia's vicious efforts, Georgia has 
persisted on its path toward democratic progress and economic growth. 
We have made great progress in building strong and effective state 
institutions, ensuring: a free civil society; free media; free markets; 
social cohesion; and the rule of law. This past fall, we held free and 
fair parliamentary elections, cementing our democratic progress. 
Meanwhile, the 2017 Index of Economic Freedom named Georgia the 13th 
freest economy in the world, ensuring openness and integration into the 
global market and equal opportunities for all people interested in 
doing business in Georgia.
    We are confident that our political and economic progress will 
ultimately serve as potent antidotes to Russia's expansionist designs. 
Moreover, Russia's aggression and occupation of Georgian territories, 
its attempts to derail us from our pro-western path, made Georgia even 
more determined to resist Russian domination and pursue further 
integration with EU and NATO.
    Our viability, persistent and resilience could not be achieved 
without the United States continued and vital support for the last 25 
years. This coming April we will be celebrating 25 years of 
establishing diplomatic relations. During these years the U.S. has been 
one of the most important economic and security partners of Georgia. 
The U.S. is the largest bilateral donor, having provided several 
billion dollars since 1991. This support has always enjoyed bipartisan 
backing. Since 2009, we have institutionalized our relations and 
friendship through a Strategic Partnership charter, pledging to further 
Georgia's democratization, economic development, sovereignty, and 
territorial integrity.
    For the last decade Georgia has become the best example of the 
American Taxpayers money wisely spent, being the most reliable, 
consistent, credible democratic ally for the U.S. in a tough 
neighborhood. We have shown valor and commitment to our American 
partner during its most difficult times. We have always supported the 
U.S. in the fight against terrorism contributing to the U.S. and NATO 
led missions like an ally.
    Last year we have signed with U.S. memorandum on the deepening 
security and defense partnership, committing ``to strengthen the self-
defense capabilities of Georgia's Armed Forces . . . improving 
readiness and supporting a resilient force that is capable of providing 
its own defense and contributing to that of others'', we have 
successfully launched Georgia Defense Readiness Program. Sustainability 
and further improvement of these programs and elevation of our security 
partnership to the new level is of vital importance, as we believe 
Georgia remains an essential piece of the Euro-Atlantic security 
architecture, as NATO is seeking to protect its allies from Russia's 
expansion.
    When the cold war ended, and the Soviet empire dissolved, the 
United States and its allies sought to build Europe whole, free, and at 
peace. Nowadays, when the empire strikes back and one of the basic 
foundations of security and peace--respect for national borders--is 
violated, new transatlantic leadership is needed to fortify and enlarge 
the alliance. We believe the new administration shall soon develop a 
comprehensive long-term engagement strategy for the region and Georgia, 
which will include the strengthening of Georgia's territorial integrity 
and sovereignty, improving bilateral trade and investment relationship 
and supporting the democratic choice of the Georgian people to 
integrate further with Euro-Atlantic institutions, including NATO. All 
these measures will make Georgia more resilient a and stronger and, we 
believe that stronger Georgia is in the United States' interest as much 
as stronger United States is in Georgia's interest.

Attachments:

  --Attachment 1: Quarterly Report of the Ministry of Foreign Affairs 
        of Georgia on the Human Rights Situation in the Occupied 
        Regions of Georgia.

  --Attachment 2: Main directions of the reconciliation and engagement 
        policy of the Office of the State Minister for Reconciliation 
        and Civic Equality.

                              ATTACHMENT 1


                 Ministry of Foreign Affairs of Georgia

   Fourth Quarterly Report (October-December 2016) of the Ministry of
                       Foreign Affairs of Georgia

    on the Human Rights Situation in the Occupied Regions of Georgia

                            I. Introduction

               aims of the report and methodology applied
    1. In January 2015 the Ministry of Foreign Affairs of Georgia 
started preparation of quarterly reports aiming at assessing the human 
rights situation in the occupied regions of Georgia. The Ministry of 
Foreign Affairs of Georgia prepared four such reports in 2015. This is 
the fourth quarterly report of the Ministry of Foreign Affairs of 
Georgia for the year 2016 covering the period of October-December 2016. 
The Ministry of Foreign Affairs of Georgia will further continue the 
preparation of such reports on a quarterly basis. This reporting 
exercise aims to contribute to the provision of regular and updated 
information to the international community, to states as well as to 
international intergovernmental and non-governmental organizations, on 
the human rights situation in the occupied regions of Georgia.
    2. As for the applied methodology, this reporting exercise 
consolidates and assesses existing information from various open 
sources, national and international, on violations of human rights in 
the occupied regions of Georgia. Due to limitations on its length, the 
report does not aim to collect/contain information on all cases of 
violations of human rights in the occupied regions of Georgia; it aims 
to consolidate and assess only some of the most known examples of 
violations. The methodology applied does not provide for the conduct of 
fact-finding visits to the occupied regions of Georgia, nor to the 
conduct of interviews. Therefore the methodology applied does not 
enable this reporting exercise to collect and produce new data on the 
human rights situation in the occupied regions of Georgia.
   responsibility of the occupying power for human rights violations
    3. The territories of two regions of Georgia--Abkhazia, Georgia and 
the Tskhinvali Region, Georgia are occupied by the Russian Federation 
and human rights situation in these regions of Georgia remains 
alarming. The Russian Federation as the occupying power, exercises 
effective control over Abkhazia, Georgia and the Tskhinvali Region, 
Georgia. These two regions still remaining under unlawful foreign 
military occupation, constitute above all dangerous ``black holes'' in 
terms of holding the human rights violators accountable. The occupying 
power, exercising effective control, has been preventing numerous 
international organizations from entering Abkhazia, Georgia and the 
Tskhinvali Region, Georgia.
    4. During the reporting period, ``EU Statement on the Secretary 
General's 14th Consolidated Report on the Conflict in Georgia'' \1\ was 
made at 1271st Council of Europe Committee of Ministers Meeting.\2\ 
According to the statement, ``the human rights situation on the ground 
remains worrying''. It should be emphasized that in the same statement, 
``[t]he EU calls on the Russian Federation to . . . provide the EU 
Monitoring Mission (EUMM) with access to the Georgian regions.'' 
According to the statement, ``[t]he EU regrets that the Secretariat 
delegation and the CoE Human Rights Commissioner have not been granted 
access to the Georgian regions of Abkhazia and Tskhinvali region/South 
Ossetia. The EU calls on all the concerned parties to facilitate access 
to the Georgian regions of Abkhazia and Tskhinvali region/South Ossetia 
for the relevant bodies of the CoE. The CoE should be able to fully and 
effectively use its instruments to ensure monitoring of the human 
rights situation in all conflict affected areas and for the benefit of 
all persons in need of human rights protection. No obstacles should be 
created to the work of international partners in this field.'' \3\
---------------------------------------------------------------------------
    \1\ Consolidated Report on the Conflict in Georgia, Council of 
Europe (April 2016-September 2016), 2016, SG/Inf (2016) 37.
    \2\ EU Statement on the Secretary General's 14th Consolidated 
report on the Conflict in Georgia, 1271st Council of Europe Committee 
of Ministers Meeting--16 November 2016.
    \3\ EU Statement on the Secretary General's 14th Consolidated 
report on the Conflict in Georgia, 1271st Council of Europe Committee 
of Ministers Meeting--16 November 2016.
---------------------------------------------------------------------------
    5. During the reporting period ``Statement of the Group of Friends 
of Georgia on the Conflict in Georgia'' was adopted at the 2016 OSCE 
Ministerial Council Meeting in Hamburg, held on 8-9 December 2016. In 
the Statement, delegations of Canada, Lithuania, Poland, Romania, 
Sweden, the United Kingdom and the United States of America expressed 
``deep concern over the continuous discrimination against ethnic 
Georgians residing in the Georgian regions of Abkhazia and South 
Ossetia'' and ``condemn[ed] the gross violations of rights related to 
freedom of movement, residence, property, as well as right to education 
in one's native language and underline[d] that the placement of 
artificial obstacles, including barbed and razor wire fences along the 
occupation line, further aggravates the humanitarian situation on the 
ground.'' It should be emphasized that the Statement called upon ``the 
Russian Federation to enable access by international human rights 
monitoring mechanisms to the occupied territories of Georgia.'' \4\
---------------------------------------------------------------------------
    \4\ Statement of the Group of Friends of Georgia on the Conflict in 
Georgia, ``The Ministry of Foreign Affairs of Georgia'', 9 December 
2016, available at <http://www.mfa.gov.ge/News/
%E1%83%94%E1%83%A3%E1%83%97%E1%83%9D-%E1%83%A8%E1%83%98-%E1%83%A1%
E1%83%90%E1%83%A5%E1%83%90%E1%83%A0%E1%83%97%E1%83%95%E1%83%94%E1%
83%9A%E1%83%9D%E1%83%A1-%E1%83%9B%E1%83%94%E1%83%92%E1%83%9D%E1%83%
91%E1%83%90%E1%83%A0%E1%83%97%E1%83%90-%E1%83%AF%E1%83%92%E1%83%A3%
E1%83%A4%E1%83%98%E1%83%A1-%E1%83%A5%E1%83%95%E1%83%94%E1%83%A7%E1%
83%9C%E1%83%94%E1%83%91%E1%83%98%E1%83%A1-%E1%83%94%E1%83%A0%E1%83%
97.aspx?lang=en-US>.
---------------------------------------------------------------------------
    6. During the reporting period, namely on 13th October 2016, at the 
session of the Parliamentary Assembly of the Council of Europe (PACE), 
Mr Frank-Walter Steinmeier, then Foreign Minister of the Federal 
Republic of Germany stated the following: ``I support all the Council 
of Europe's efforts to secure regular access to Crimea for its 
monitoring bodies to observe the human rights situation. This is about 
not only Crimea, but South Ossetia, Abkhazia, Transnistria and Nagorno-
Karabakh. There should be no blank areas on our continent where human 
rights are not observed.'' \5\
---------------------------------------------------------------------------
    \5\ The Parliamentary Assembly of the Council of Europe (PACE), 13 
October 2016, available at <http://assembly.coe.int/Documents/Records/
2016/E/1610131000E.htm>.
---------------------------------------------------------------------------
    7. It should be recalled here that during the reporting period of 
the second quarterly report of the Ministry of Foreign Affairs of 
Georgia covering the period of April-June 2016, namely on 19 May 2016 
Mr. Giga Otkhozoria, was murdered by so called ``border guards'' 
deployed along the occupation line with Abkhazia. The murder was 
committed in the village of Khurcha, Zugdidi district, located in the 
territory controlled by the Government of Georgia. The murderer of Mr. 
Giga Otkhozoria has been identified--Mr. Rashid Kanji-Ogli. After 
committing the murder Mr. Rashid Kanji-Ogli and his accomplices 
immediately fled to the occupied territory of Abkhazia. In May 2016, 
the Ministry of Foreign Affairs of Georgia issued a statement 
``concerning the fact of murder committed in the village of Khurcha, 
Zugdidi District, on May 19, 2016.'' According to the statement ``this 
criminal act once again demonstrates the highly alarming situation in 
the occupied region of Abkhazia, Georgia and the full responsibility 
for it lies with the Russian Federation as with the power in effective 
control of the region.'' \6\ In May 2016, the Prosecutor's Office of 
Georgia filed charges against Mr. Rashid Kanji-Ogli for the 
premeditated murder of Mr. Giga Otkhozoria and criminal prosecution was 
launched under the Criminal Code of Georgia.\7\ In July 2016, Mr. 
Khajimba publicly declared that Mr. Rashid Kanji-Ogli would not be 
handed over to the Georgian authorities.\8\ During the reporting 
period, namely in December 2016, Zugdidi District Court found, in 
absentia, fugitive Mr. Rashid Kanji-Ogli guilty of the charges filed 
against him and sentenced him to deprivation of liberty for a term of 
12 years.\9\ However under the existing circumstances, Mr. Rashid 
Kanji-Ogli and his accomplices still remain unpunished. The above 
situation with regard to the violation of the right to life of Mr. Giga 
Otkhozoria once again demonstrates that the occupied territories of 
Georgia remain ``black holes'' in terms of holding the violators of 
human rights accountable. The above situation further reaffirms the 
need of immediate, unhindered and continuous access of international 
human rights monitoring mechanisms in the occupied territories of 
Georgia.
---------------------------------------------------------------------------
    \6\ Statement by the Ministry of Foreign Affairs of Georgia 
concerning the fact of murder committed in the village of Khurcha, 
Zugdidi District, on May 19, 2016, 19 May 2016, available at <http://
www.mfa.gov.ge/News/%E1%83%A1%E1%83%90%E1%83%92%E1%83%90%E1%83%A0%
E1%83%94%E1%83%9D-%E1%83%A1%E1%83%90%E1%83%A5%E1%83%9B%E1%83%94%E1%
83%97%E1%83%90-%E1%83%A1%E1%83%90%E1%83%9B%E1%83%98%E1%83%9C%E1%83%
98%E1%83%A1%E1%83%A2%E1%83%A0%E1%83%9D%E1%83%A1-%E1%83%92%E1%83%90%
E1%83%9C%E1%83%AA%E1%83%AE%E1%83%90%E1%83%93%E1%83%94%E1%83%91%E1%
83%90-2016-%E1%83%AC%E1%83%9A%E1%83%98%E1%83%A1-1.aspx?CatID=5&lang=
en-US>.
    \7\ The Prosecutor's Office Launches Criminal Proceedings on the 
Murder of Giga Otkhozoria, ``Prosecutor's Office of Georgia'', 21 May 
2016, available at <http://pog.gov.ge/eng/news?info_id=932>.
    \8\ Abkhazia will not hand over to Georgia border guard suspected 
in murder, ``Ria Novosti'', 6 July 2016, available at <https://ria.ru/
world/20160706/1459757274.html>.
    \9\ Court Finds Rashid Kanji-Ogli, Accused of Giga Otkhozoria's 
Murder, Guilty, Prosecutor's Office of Georgia, 28 December 2016, 
available at <http://pog.gov.ge/eng/news?info_id=1095>.
---------------------------------------------------------------------------
   occupation line and installation of barbed wire fences and other 
                          artificial obstacles
    8. The occupation line along the administrative boundary line (ABL) 
with Abkhazia and the Tskhinvali Region separates Georgia from its two 
occupied territories. The process of so called ``borderization'' was 
commenced in 2011. Currently, the total length of razor wire and barbed 
wire fences and other artificial obstacles along the occupation line in 
Tskhinvali Region is nearly 52 km (overall length of the occupation 
line is more than 350 km) and along the occupation line in Abkhazia is 
48 km (overall length of the occupation line is around 145 km).
    9. According to ``EU Statement on the Secretary General's 14th 
Consolidated Report on the Conflict in Georgia'', made on 16th November 
2016 at 1271st Council of Europe Committee of Ministers Meeting, ``the 
EU is deeply concerned about the illegal activities of 
``borderization'' that divide families and communities and impedes the 
people on the ground, depriving them from fundamental rights, including 
education in the native language, property rights and freedom of 
movement, including in the context of so called border crossing, which, 
inter alia, may lead to fatal incidents. The EU calls on the 
authorities exercising effective control to remove the fences and other 
obstacles to the freedom of movement and to investigate all allegations 
of all crimes and human rights violations on the ground.'' \10\
---------------------------------------------------------------------------
    \10\ EU Statement on the Secretary General's 14th Consolidated 
report on the Conflict in Georgia, 1271st Council of Europe Committee 
of Ministers Meeting--16 November 2016.
---------------------------------------------------------------------------
    10. During the reporting period, an article was published in The 
New York Times which describes problems created by the occupation line 
and installation of barbed wire fences along the Tskhinvali region.\11\ 
According to the article, the village of Jariasheni is ``[m]arked in 
places with barbed wire laid at night, in others by the sudden 
appearance of green signs declaring the start of a ``state border'' and 
elsewhere by the arrival of bulldozers, the reach of Russia keeps 
inching forward into Georgia with ever more ingenious markings of a 
frontier that only Russia and three other states recognize as real.'' 
The article states that ``[t]he green border signs that first appeared 
last year and now keep popping up along the zigzagging boundary warn 
that ``passage is forbidden'' across what is declared to be a ``state 
border.'' According to the article, ``Kestutis Jankauskas, the head of 
the European Union Monitoring Mission in Georgia, said it was hard to 
know where this boundary line exactly runs. It was never recognized or 
agreed upon, and its location depends on which maps are used. Russia, 
he said, is using a map drawn by the Soviet military's general staff in 
the 1980s. It demarcates what in the Soviet era was an inconsequential 
administrative boundary within the Soviet Socialist Republic of Georgia 
but what is now hardening into a hazardous frontier. The fitful 
movement of the boundary seems to be driven mostly by Russia's desire 
to align what it sees as a state border with this old Soviet map. So 
far, the movement has always been forward, often by just a few yards 
but at other times by bigger leaps.'' \12\
---------------------------------------------------------------------------
    \11\ In Russia's `Frozen Zone,' a Creeping Border With Georgia, 
Andrew Higgins, The New York Times, 23 October 2016, available at 
<https://www.nytimes.com/2016/10/24/world/europe/in-russias-frozen-
zone-a-creeping-border-with-georgia.html?_r=1>.
    \12\ In Russia's `Frozen Zone,' a Creeping Border With Georgia, 
Andrew Higgins, The New York Times, 23 October 2016, available at 
<https://www.nytimes.com/2016/10/24/world/europe/in-
russias-frozen-zone-a-creeping-border-with-georgia.html?_r=1>.
---------------------------------------------------------------------------
  new so called ``laws'' and new wave of so called ``passportisation''
    11. As a result of a reaction of the international community on the 
issue of adoption of so called new ``laws'' and so called 
``passportisation'', decision was made in December 2016 to amend so 
called ``law on legal status of foreign citizens in Abkhazia'' and to 
enable residents of Gali district, holding Georgian citizenship, to 
obtain ``residence permits''; according to the amendment, ``resident 
permits can be issued to individuals holding foreign citizenship if 
they were born in Gali district of the Soviet Socialist Republic of 
Abkhazia.'' \13\ However, it should be noted here that resident permits 
will not enable to obtain so called ``Abkhazian citizenship'' until 
holding foreign citizenship.\14\
---------------------------------------------------------------------------
    \13\ Resident Permits will be given foreign citizens in Gali, 
``Apsny'', 29 December 2016, available at <http://apsny.ru/news/
?ID=26462>.
    \14\ Legal status of residents of Eastern districts of Abkhazia 
will be regulated, ``Nuzhnaya Gazeta'', 29 December 2016, available at 
<https://abh-n.ru/pravovoe-polozhenie-zhitelej-vostochnyx-rajonov-
abxazii-budet-uregulirovano/>.
---------------------------------------------------------------------------
    12. As part of the new wave of so called ``passportisation'' in the 
Abkhazian region, the issuance of so called ``passports'' started in 
May 2016 and it was continuing during the reporting period.\15\ By the 
middle of December 2016, more than 3 000 new so called ``Abkhaz 
passports'' were issued.\16\ It has been decided to extend expiry date 
of old so called ``Abkhaz passports'' until 31st December 2018.\17\ It 
should be emphasized that on 18th October 2016, so called ``head of 
administration of Gali district'' of the Sokhumi occupation regime 
declared that ``from 17 800 residents of Gali district, only 340 have 
Abkhazian citizenship, the rest are Georgian citizens''.\18\
---------------------------------------------------------------------------
    \15\ Tania: during 1 month 300 passports were distributed in 
Sokhumi, ``Apsnypress'', 19 December 2016, available at <http://
www.apsnypress.info/news/taniya-za-mesyats-po-sukhumu-vydano-svyshe-
300-pasportov/>.
    \16\ Manargia: more than 3 000 new Abkhaz passports were issued, 
``Sputnik-Abkhazia'', 19 December 2106, available at <http://sputnik-
abkhazia.ru/Abkhazia/20161219/1020088707/manargiya-oformleno-bolee-
trex-tysyach-novyx-abxazskix-pasportov.html>.
    \17\ Expiry date of Abkhaz passports of old sample was extended 
until 31 December 2018, ``Apsnypress'', 31 December 2016, available at 
<http://www.apsnypress.info/news/data-okonchaniya-sroka-deystviya-
pasportov-starogo-obraztsa-perenesena-na-31-dekabrya-2018-
goda/>.
    \18\ Nadaraia: project is ready on creation of special economic 
zone in Gali district, ``Apsnypress'', 18 October 2016, available at 
<http://www.apsnypress.info/news/nadaraya-gotov-proekt-po-sozdaniyu-v-
galskom-rayone-osoboy-ekonomicheskoy-zony/>.
---------------------------------------------------------------------------
    13. It should be recalled that on 1st April 2016, so called ``law 
on legal status of foreign citizens in Abkhazia'' \19\ and ``law on 
entry and exit of Abkhazia'' \20\ became operational. A similar 
document was adopted by the Tskhinvali occupation regime, namely so 
called ``law on legal status of foreigners in the Republic of South 
Ossetia''. Adoption of so called ``laws'' in many ways target the 
ethnic Georgian population living in the occupied territories. The 
Ministry of Foreign Affairs of Georgia once again expresses its serious 
concern on the adoption of new discriminatory regulations for ethnic 
Georgians living in the occupied regions of Georgia.
---------------------------------------------------------------------------
    \19\ So called ``law on legal status of foreign citizens in 
Abkhazia'' was designed in order to qualify ethnic Georgians, living in 
the region of Abkhazia, into a category of ``foreign citizens'' and to 
discriminate against them in many ways. Many ethnic Georgians living in 
Abkhazia, predominantly in Gali district, hold Georgian citizenship 
that qualifies them into the category of ``foreigners'' under the so 
called ``law on legal status of foreign citizens in Abkhazia'' and 
therefore puts limitation on their human rights including the freedom 
of movement, the right to property and labour rights. Under this so 
called ``law'' ethnic Georgians holding Georgian citizenship were 
deprived possibility to obtain residence permits and respective 
restrictive clauses prepared ``legal'' ground for persecution of ethnic 
Georgian families.
    \20\ By the adoption of so called ``law on entry and exit of 
Abkhazia'', the decision has been made to introduce visas for states a) 
not recognizing so called ``independence of Abkhazia'' and b) not 
having a ``bilateral agreement'' of visa free travel. Under this so 
called ``law'' any person can exit Abkhazia, however only so called 
``citizens of Abkhazia'' can enter the Abkhazian region without 
additional formalities. It should be noted that a foreign citizen or a 
person without citizenship can be expelled from the territory of 
occupied Abkhazia if that person poses a threat to defense and security 
or to public order. It should be emphasized that this so called 
``law'', creates additional obstacles to representatives of 
international organizations leading to further isolation of the region.
---------------------------------------------------------------------------

               II. Freedom from Torture and Ill-treatment

    14. As described in previous quarterly reports of the Ministry of 
Foreign Affairs of Georgia on the human rights situation in the 
occupied regions of Georgia, the Russian FSB officers and 
representatives of the Sokhumi and Tskhinvali occupation regimes 
regularly take actions which amount to torture and ill-treatment. For 
years, there has been a regular flow of information on inadequate 
detentions conditions in so called ``detention centers'' in the 
occupied regions of Georgia. The practice of torture and ill-treatment 
in the occupied regions of Georgia remained an issue of concern during 
the reporting period as well.
    15. During the reporting period, namely on 10th December 2016, the 
Public Defender of Georgia issued the Report on Human Rights and 
Freedom in 2016. According to the report, ``inappropriate and degrading 
treatment is regularly applied toward detainees at Russian military 
basis, including forced labor, verbal and physical abuse, restriction 
of food and water etc.'' \21\
---------------------------------------------------------------------------
    \21\ The Public Defender of Georgia 10 December Report on the 
Situation of the Protection of Human Rights and Freedoms in 2016, ``The 
Public Defender of Georgia'', 10 December 2016, p. 20, available at 
<http://www.ombudsman.ge/uploads/other/4/4088.pdf >.
---------------------------------------------------------------------------
    16. On 27th November 2016, three members of so called ``special 
forces unit'' of the Tskhinvali occupation regime inflicted severe 
physical assault to a 21-year-old resident in Tskhinvali. As a result, 
numerous traumas were inflicted to the head of the victim which was 
later hospitalized. During the incident, one of the members of so 
called ``special forces unit'' even fired a shot in the direction of 
the victim.\22\
---------------------------------------------------------------------------
    \22\ A resident of Tshinvali was beaten by members of special 
forces unit, ``Sputnik-Ossetia'', 2 December 2016, available at <http:/
/sputnik-ossetia.ru/South_Ossetia/20161202/3395524.html>; General 
Prosecutor's Office started investigation against members of special 
forces unit, which have beaten a resident of Tskhinvali, Sputnik-
Ossetia'', 6 December 2016, available at <http://sputnik-ossetia.ru/
South_Ossetia/20161206/3413768.html>.
---------------------------------------------------------------------------
    17. In December 2016, in Tskhinvali members of so called ``special 
forces unit'' of the Tskhinvali occupation regime physically assaulted 
two schoolchildren--one boy and one girl of grade 11 of school N 2 in 
the restaurant ``Oasis''. Traumas to heads were inflicted to both of 
them; as a result the boy lost conscience. Later the victims were 
transported to a hospital for medical treatment.\23\
---------------------------------------------------------------------------
    \23\ Tibilov: members of special forces unit should be examples of 
behavior, ``Sputnik-Ossetia'', 29 December 2016, available at <http://
sputnik-ossetia.ru/South_Ossetia/20161229/3528028.html>; Prosecutor's 
office is investigating details of brawl between youngsters and special 
forces unit, Sputnik-Ossetia'', 27 December 2016, available at <http://
sputnik-ossetia.ru/South_Ossetia/20161227/3517504.html>.
---------------------------------------------------------------------------
    18. In October 2016, Mr. Khajimba declared that ``there is a need 
to change detention conditions of detainees in the detention centre'' 
and so called ``minister of interior'' of the Sokhumi occupation regime 
declared that ``problems related to detention conditions of criminals 
remain unsolved for already 23 years''.\24\ It has been argued by 
representatives of the Sokhumi occupation regime that ``absence of 
motivation of employees of the ministry of interior to work in the 
detention centre due to the low salary there'', ``understaffing of the 
preliminary detention centre with employees, which equals to 60 per 
cent'' and non-provision of ``the detention centre with necessary 
technical equipments'' are behind the problems.\25\
---------------------------------------------------------------------------
    \24\ Raul Khajimba: it is necessary to regulate issue of increasing 
salaries to employees of the preliminary detention centre, 
``Apsnypress'', 20 October 2016, available at <http://apsnypress.info/
news/raul-khadzhimba-neobkhodimo-reshit-voprosy-povysheniya-zarabotnoy-
platy-sotrudnikam-sizo/>.
    \25\ Raul Khajimba: it is necessary to regulate issue of increasing 
salaries to employees of the preliminary detention centre, 
``Apsnypress'', 20 October 2016, available at <http://apsnypress.info/
news/raul-khadzhimba-neobkhodimo-reshit-voprosy-povysheniya-zarabotnoy-
platy-sotrudnikam-sizo/>.
---------------------------------------------------------------------------

                        III. Arbitrary Detention

    19. The Russian FSB officers regularly carry out arbitrary 
detention for so called ``illegal border crossing'' along the 
occupation lines with Abkhazia and Tskhinvali regions. In most cases 
detention is followed by fines and later release. Detention period can 
last several days or several months, in some cases several years. 
According to data supplied by the State Security Service of Georgia in 
the middle of December 2016, between 2008 and 12th December 2016, in 
total 2 775 people were detained by the Russian FSB officers for so 
called ``illegal border crossing'': 1 788 people were detained along 
the occupation line with the Abkhazian region and 987 people were 
detained along the occupation line with the Tskhinvali region; from 1st 
January 2016 to 12th December 2016, 190 people were detained along the 
occupation line with the Abkhazian region and 132 people were detained 
along the occupation line with the Tskhinvali region.\26\ It should be 
noted that according to the information of so called ``State Security 
Committee of South Ossetia'', 549 people were detained for so called 
``illegal border crossing'' along the occupation line with the 
Tskhinvali region throughout the year 2016.\27\
---------------------------------------------------------------------------
    \26\ Representatives of the Russian occupying forces detained 2 775 
Georgians between 2008 and 12 December 2016 for so called illegal 
border crossing of Georgian occupied territories, ``Pirweli Information 
Agency'', 12 December 2016, available at <http://pia.ge/post/84592-
rusma-okupantebma-2-775-qartveli-daakaves>.
    \27\ Authorities of South Ossetia expelled violator of state border 
from Georgia, ``Sputnik-Ossetia'', 28 December 2016, available at 
<http://sputnik-ossetia.ru/South_Ossetia/20161228/3522804.html>.
---------------------------------------------------------------------------
    20. According to the report of the Public Defender of Georgia 
issued during the reporting period, ``armed forced of the Russian 
Federation continue to detain minors, pregnant women, patients and 
older people.'' \28\
---------------------------------------------------------------------------
    \28\ The Public Defender of Georgia 10 December Report on the 
Situation of the Protection of Human Rights and Freedoms in 2016, ``The 
Public Defender of Georgia'', 10 December 2016, p. 20, available at 
<http://www.ombudsman.ge/uploads/other/4/4088.pdf >.
---------------------------------------------------------------------------
    21. It is particularly alarming that during the reporting period, 
Mr. Giorgi Giunashvil remained in illegal detention in so called 
Tskhinvali prison.\29\ As described in the Third Quarterly Report 
(July-September 2016) of the Ministry of Foreign Affairs of Georgia on 
the Human Rights Situation in the Occupied Regions of Georgia, on 8 
June 2016, Mr. Giorgi Giunashvil, citizen of Georgia was detained by 
the Russian FSB officers for so called ``illegal border crossing'' 
along the occupation line with Tskhinvali region. Initially, the 
detainee was sentenced 2 months of imprisonment for so called ``illegal 
border crossing''. However, later so called ``prosecutor's office'' of 
the Tskhinvali occupation regime initiated ``criminal case'' against 
Mr. Giorgi Giunashvil accusing him of ``causing serious damage to the 
health'' of an unspecified resident of the Tskhinavli region in the 
year 2008. The Government of Georgia considers the above accusations 
against Mr. Giorgi Giunashvil to be groundless and fabricated and 
therefore calls for his unconditional release.\30\
---------------------------------------------------------------------------
    \29\ IPRM Meeting held in Ergneti, State Security Service of 
Georgia, 30 November 2016, available at <http://ssg.gov.ge/en/news/197/
IPRM-Meeting-Held-in-Ergneti>.
    \30\ IPRM Meeting held in Ergneti, State Security Service of 
Georgia, 30 November 2016, available at <http://ssg.gov.ge/en/news/197/
IPRM-Meeting-Held-in-Ergneti>.
---------------------------------------------------------------------------
    22. During the reporting period numerous cases were reported on 
arbitrary detention in the occupied regions of Georgia. Below are only 
few examples.
    23. On 12th October 2016, a resident of the village of Plavi, Gori 
district, was detained for so called ``illegal border crossing'' along 
the occupation line with Tskhinvali region and ``criminal charges'' 
were filed against him for the above reason.\31\ However, according to 
the family members of the detainee, he had not crossed the occupation 
line.\32\
---------------------------------------------------------------------------
    \31\ Criminal case was filed in relation to violator of border from 
Georgia, ``Sputnik-Ossetia'', 12 October 2016, available at <http://
sputnik-ossetia.ru/South_Ossetia/20161012/3149539.html>.
    \32\ A resident of the village of Plavi was detained for so called 
``illegal border crossing'', ``IPN'', 12 October 2016, available at 
<http://www.interpressnews.ge/ge/konfliqtebi/401945-ets-sazghvris-
ukanonod-gadakvethis-braldebith-sofel-flavis-mckhovrebi-
daakaves.html?ar=A>.
---------------------------------------------------------------------------
    24. On 22nd October 2016, a resident of the village of 
Mejvriskhevi, Gori district, was detained by the Russian FSB officers 
for so called ``illegal border crossing'' nearby the occupation line 
with the Tskhinvali region. The resident of the village of Mejvriskhevi 
did not cross the occupation line; when detained he was nearby the 
occupation line for cattle grazing.\33\
---------------------------------------------------------------------------
    \33\ 43-year-old man was detained for so called illegal border 
crossing, ``GHN'', 22 October 2016, available at <http://ghn.ge/com/
news/view/162625>.
---------------------------------------------------------------------------
    25. On 24th October 2016, a resident of the village Kirbali, Gori 
district, was detained by the Russian FSB officers for so called 
``illegal border crossing'' nearby the occupation line with the 
Tskhinvali region. When detained, the resident of the village of 
Kirbali was collecting timber in the forest nearby the occupation line. 
He did not cross the occupation line. The detainee spent three days in 
detention in the Tskhinvali region.\34\
---------------------------------------------------------------------------
    \34\ What is the story of a man who spent three days in illegal 
detention the Tskhinvali detention center? ``Palitra News'', 27 October 
2016, available at <http://www.palitratv.ge/yvela-video/akhali-ambebi/
79610-ras-hyveba-ckhinvalis-izolatoridan-samdghiani-ukanono-patimrobis-
shemdeg-gathavisuflebuli-mamakaci.html>.
---------------------------------------------------------------------------
    26. On 5th and 6th November 2016, six citizens of Georgia were 
detained for so called ``illegal border crossing'' along the occupation 
line with Tskhinvali region.\35\
---------------------------------------------------------------------------
    \35\ Tskhinvali regime released six Georgian citizens as a result 
of fine payment, ``IPN'', 8 November 2016, available at <http://
www.interpressnews.ge/ge/konfliqtebi/405626-ckhinvalis-rezhimma-
jarimis-gadakhdis-shemdeg-saqarthvelos-6-moqalaqe-
gaathavisufla.html?ar=A>.
---------------------------------------------------------------------------
    27. On 27th November 2016, a 18-year-old resident of Gori district 
was detained by the Russian FSB officers in the village of Jariasheni, 
nearby the occupation line with Tskhinvali region and was abducted to 
the occupied Tskhinvali region.\36\
---------------------------------------------------------------------------
    \36\ Occupants abducted 18-year-old man from the village of 
Jariasheni, ``Ambebi.ge'', 27 November 2016, available at <http://
www.ambebi.ge/semtxveva/184430-sofel-jariashenidan-okupantebma-18-
tslis-mamakaci-gaitaces.html>.
---------------------------------------------------------------------------
    28. On 6th December 2016, several schoolchildren residing in the 
occupied village of Otobaia, Gali district, were detained by the 
Russian FSB officers Abkhazia. The schoolchildren were held in 
detention in the Russian military base for around 5 hours.\37\
---------------------------------------------------------------------------
    \37\ So called border guards freed schoolchildren detained in 
occupied Abkhazia, ``Pirweli Information Agency'', 6 December 2016, 
available at <http://pia.ge/post/83148-e-w-mesazrvreebma-okupirebul-
afxazetsi-dakavebuli-skolis-moswavleebi-gaatavisufles>.
---------------------------------------------------------------------------
    29. On 27th December 2016, a resident of the village of 
Mejvriskhevi, Gori district, was detained by the Russian FSB officers 
for so called ``illegal border crossing'' along the occupation line 
with Tskhinvali region.\38\
---------------------------------------------------------------------------
    \38\ Authorities of South Ossetia expelled violator of state border 
from Georgia, ``Sputnik-Ossetia'', 28 December 2016, available at 
<http://sputnik-ossetia.ru/South_Ossetia/20161228/3522804.html>.
---------------------------------------------------------------------------

                        IV. Freedom of Movement

    30. Along the occupation lines with Abkhazia and Tskhinvali regions 
people are regularly subject to restrictions on freedom of movement by 
the Russian FSB officers: the operating crossing points along the 
occupation lines allow crossings only to individuals having one of the 
types of ``documents'' recognized by the occupying power. Those unable 
to present the ``document'' or show up at the crossing point out of 
working hours, are denied the right to cross, often leading to various 
types of problems of locals, including children. Restrictions on 
freedom of movement remained an issue of concern during the reporting 
period that has been attested by the various sources.
    31. It should be recalled that in spring 2016, two crossing points 
from six crossing points along the occupation line with the Abkhazian 
region were closed down.\39\ In November 2016, Mr. Khajimba publicly 
spoke about the policy of closing down the crossing points along the 
occupation line with the Abkhazian region.\40\ On 5th December 2016, so 
called ``head of administration of Gali district'' of the Sokhumi 
occupation regime publicly declared that ``the Russian Border Guards 
are closing more and more segments of fords on the River Enguri, the 
places in the river which were used to cross the border illegally. . . 
. In this 2016 year everything is ready to close down two more crossing 
points''.\41\ Eventually, by so called ``decree N 241'' of so called 
``Government of Abkhazia'', dated 28 December 2016, decision was made 
to close down two more crossing points--``Nabakevi crossing point'' and 
``Otobaia crossing point'' along the occupation line with the Abkhazian 
region.\42\ It should be noted that according to paragraph 3 of so 
called ``decree N 241'', ``the decree will enter into force in 30 days 
after it is published''.\43\ When commenting the decision on the 
closure of two additional crossing points, the representative of so 
called ``Government of Abkhazia'' stated the following: ``in accordance 
with governmental decision adopted earlier, we are gradually decreasing 
the number of crossing points on the border with Georgia''.\44\
---------------------------------------------------------------------------
    \39\ Consolidated Report on the Conflict in Georgia, Council of 
Europe (April 2015-September 2016), 2016, SG/Inf (2016) 37, paragraph 
41.
    \40\ Raul Khajimba: we will not let anybody to destroy our state in 
the heat of revenge, ``Apsnypress'', 10 November 2016, available at 
<http://www.apsnypress.info/news/raul-khadzhimba-my-nikomu-ne-pozvolim-
v-pylu-revanshizma-razrushat-nashu-gosudarstvennost/>.
    \41\ Temur Nadaraia: data supplied by Dimitri Dbar are nor 
authentic and mislead the public, ``Apsnypress'', 5 December 2016, 
available at <http://www.apsnypress.info/news/temur-nadaraya-tsifry-
privedyennye-dmitriem-dbar-nedeystvitelny-i-vvodyat-v-zabluzhdenie-
obshchestve/>.
    \42\ Two more crossing pints on the border on the River Enguri will 
be closed, ``Apsnypress'', 28 December 2016, available at <http://
www.apsnypress.info/news/zakryvayutsya-eshche-dva-punkta-propuska-na-
granitse-po-reke-ingur/>; Decree of Government of Republic of Abkhazia, 
28 December 2016, available at <http://www.gazeta-ra.info/
index.php?ELEMENT_ID=14673>.
    \43\ Decree of Government of Republic of Abkhazia, 28 December 
2016, available at <http://www.gazeta-ra.info/
index.php?ELEMENT_ID=14673>.
    \44\ Two more crossing pints on the border on the River Enguri will 
be closed, ``Apsnypress'', 28 December 2016, available at <http://
www.apsnypress.info/news/zakryvayutsya-eshche-dva-punkta-propuska-na-
granitse-po-reke-ingur/>.
---------------------------------------------------------------------------
    32. According to information disseminated on 26th October 2016, Mr. 
Tibilov declared that ``Tskhinvali needs airplanes in order to 
eradicate the practice by Ossetians travelling to Georgia for medical 
treatment''. According to the source, Mr. Tibilov stated that ``local 
residents often request authorities to send them for medical treatment 
to Georgia, where it is much easier to travel rather than to North 
Ossetia [the Russian Federation]''. According to Mr. Tibilov, ``South 
Ossetia is discussing with the Russian Federation the issue of creation 
of its own aviation''.\45\
---------------------------------------------------------------------------
    \45\ Leonid Tibilov--Tskhinvali needs airplanes in order to 
eradicate the practice by Ossetians travelling to Georgia for medical 
treatment, ``Ambebi'', 26 October 2016, available at <http://
www.ambebi.ge/conflicts/180939-leonid-thibilovi-ckhinvals-
thvithmfrinavebi-stcirdeba-imisthvis-rom-saqarthveloshi-osebis-
samkurnalod-chasvla-aghkvethos.html>.
---------------------------------------------------------------------------
    33. As described in previous quarterly reports of the Ministry of 
Foreign Affairs of Georgia on the human rights situation in the 
occupied regions of Georgia, both in the Abkhazian region and in the 
Tskhinvali region so called ``border zones'' are established in the 
vicinity of the occupation lines by the occupying power. Residents of 
each occupied region are subject to restrictions on freedom of movement 
in terms of entering these so called ``border zones'' and in terms of 
moving within these so called ``border zones''. It should be emphasized 
that during the reporting period, so called ``deputy minister of 
foreign affairs'' of the Sokhumi occupation regime declared that 
``there is a decision of government, adopted very recently, in fact few 
days ago, which approved extension of border zone''.\46\ According to 
the same source, ``this is a regime zone and correspondingly, entrance 
to this zone will be always restricted. Those who dwell there 
(householders, guests etc.) fall under this regime''.\47\ According to 
information disseminated on 15th November 2016, local residents of Gali 
district of the occupied Abkhazian region are subject to restrictions 
on freedom of movement: the Russian military personnel deployed there, 
demands ``documents'' in order to allow local residents to move across 
internal routes of Gali district.\48\ According to information 
disseminated on 16th December 2016, in the villages of Saberio, 
Lekukhona and Cheghali, Gali district, freedom of movement of local 
residents is restricted: occupants demand ``documents'' from locals in 
order to allow them to move from one village to another and shoot 
photos of local residents, presumably in order to create a 
database.\49\
---------------------------------------------------------------------------
    \46\ ``Talks about militarization of Gali district are untenable'', 
``ekhokavkaza'', 24 November 2016, available at <http://
www.ekhokavkaza.com/a/28137770.html>.
    \47\ ``Talks about militarization of Gali district are untenable'', 
``ekhokavkaza'', 24 November 2016, available at <http://
www.ekhokavkaza.com/a/28137770.html>.
    \48\ In occupied Abkhazia population is subject to restrictions of 
movement on so called border, ``Pirweli Information Agency'', 15 
November 2016, available at <http://pia.ge/post/540-okupirebul-
afxazetsi-e-w-sazrvarze-mosaxleobas-gadaadgileba-seezruda>.
    \49\ In the villages of Gali district occupants restrict freedom of 
movement of locals, ``Pirweli Information Agency'', 16 December 2016, 
available at <http://pia.ge/post/83972-okupirebuli-galis-soflebsi-
okupantebi-adgilobrivebs-gadaadgilebas-uzrudaven>.
---------------------------------------------------------------------------
    34. It should be emphasized that according to information 
disseminated on 23rd November 2016, the Russian FSB officers restricted 
freedom of movement of residents of the villages of Akhalubani, Adzvi 
and Jariasheni, Gori district, namely residents of these villages, on 
the occasion of St. George's Day, could not visit and pray in St. 
George's Church, located nearby the occupation line with the Tskhinvali 
region.\50\
---------------------------------------------------------------------------
    \50\ In Gori district, nearby the occupation line, mobilization of 
so called Russian border guards was noticeable, ``Newposts'', 23 
November 2016, available at <http://www.newposts.ge/?l=G&id=125858-
%E1%83%92%E1%83%9D%E1%83%A0%E1%83%98,%20%E1%83%A1%E1%
83%90%E1%83%9D%E1%83%99%E1%83%A3%E1%83%9E%E1%83%90%E1%83%AA%E1%83%
98%E1%83%9D,%20%E1%83%9B%E1%83%94%E1%83%A1%E1%83%90%E1%83%96%E1%83%
A6%E1%83%95%E1%83%A0%E1%83%94,%20%E1%83%92%E1%83%98%E1%83%9D%E1%83%
A0%E1%83%92%E1%83%9D%E1%83%91%E1%83%90>; Population is not allowed to 
pray nearby administrative boundary line with so called South Ossetia, 
``Kvira'', 23 November 2016, available at <http://kvira.ge/295904>.
---------------------------------------------------------------------------

                          V. Right to Property

    35. During the reporting period, violations of the right to 
property caused by the occupation of the territories of Georgia, 
remained the issue of concern.
    36. During the reporting period, a representative of the Tskhinvali 
occupation regime stated that ``particularly on locations, where the 
border is not yet clearly formalized, residents of adjacent territories 
often cultivate land and harvest crop and therefore violate the law.'' 
He further stated that ``In cases when the border crosses directly 
through premises and plots of land, a householder should keep a 
passport in order to enter his plot of land, which remained on the 
territory of another state. There are a lot of such situations, 
predominantly in the village of Zardiantkari.'' \51\
---------------------------------------------------------------------------
    \51\ David Sanakoev: Arrangement of Border depends on financing, 
``Sputnik-Ossetia'', 13 October, available at <http://sputnik-
ossetia.ru/South_Ossetia/20161013/3158517.html>.
---------------------------------------------------------------------------
    37. According to the article which was published during the 
reporting period in The New York Times, the occupation line along the 
Tskhinvali region creates problems for local residents in terms of 
enjoyment of the right to property. According to the article, ``the 
dirt track now running through this tiny Georgian village [of 
Jariasheni] nonetheless means that Vephivia Tatiashvili can no longer 
go to his three-story house because it sits on land now patrolled by 
Russian border guards.'' The article argues that ``[t]here is no fence 
or barbed wire, but Mr. Tatiashvili does not dare to cross the track to 
visit his house for fear of being arrested, as his elderly neighbor 
was, by Russian border guards. ``It is too dangerous for me to go 
home,'' he said, complaining that the boundary has become so mobile 
that nobody really knows its final destination. Mr. Tatiashvili now 
lives in his brother's house, away from the border in the village 
center. . . . Russia starts right here,'' said Mr. Tatiashvili, 
pointing to the freshly dug track that separates his house from 
Georgian-held land.'' The article further observes that ``Elizbar 
Mestumrishvili, 75, a farmer who lives next to Mr. Tatiashvili's now-
marooned house, can still get to his home, as it lies on the Georgian 
side of the new dirt track. But he is wary of going to the bottom of 
his garden, which lies within a 60-yard frontier zone that Russian and 
South Ossetian security officers claim the right to patrol. Pointing to 
a row of vines drooping with plump grapes, he said it was unwise to 
walk any farther because ``they might come and set up a border 
post''.'' \52\
---------------------------------------------------------------------------
    \52\ In Russia's `Frozen Zone,' a Creeping Border With Georgia, 
Andrew Higgins, The New York Times, 23 October 2016, available at 
<https://www.nytimes.com/2016/10/24/world/europe/in-
russias-frozen-zone-a-creeping-border-with-georgia.html?_r=1>.
---------------------------------------------------------------------------
    38. According to local residents of Gali district, so called 
``administration of Gali district'' of the Sokhumi occupation regime 
forces them to sell most of their harvested citrus crops in the Russian 
Federation: however it is economically much more profitable for them to 
sell their crops of citrus in Zugdidi, the territory controlled by the 
Government of Georgia.\53\ I should be noted here that the European 
Court of Human Rights has interpreted ``possessions'' under Article 1 
(Protection of Property), Protocol No. 1 of the European Convention on 
Human Rights (ECHR) very broadly and has held that it includes movable 
or immovable property and also the economic interests connected with 
``possessions''.\54\
---------------------------------------------------------------------------
    \53\ Abkhazian de-facto authorities force population of Gali 
district to transport citrus to Russia, ``Business Press News'', 27 
October 2016, available at <https://bpn.ge/finansebi/27714-afkhazethis-
de-faqto-khelisufleba-galis-mosakhleobas-citrusis-rusethshi-gatanas-
aidzulebs.html?device=xhtml&lang=ka-GE>.
    \54\ ``Possessions'' include ``a range of economic interests. The 
following have been held to fall within the protection of Article 1: 
movable or immovable property, tangible or intangible interests, such 
as shares, patents, an arbitration award, the entitlement to a pension, 
a landlord's entitlement to rent, the economic interests connected with 
the running of a business, the right to exercise a profession, a 
legitimate expectation that a certain state of affairs will apply, a 
legal claim, and the clientele of a cinema.'' Carss-Frisk, M. The right 
to property: A guide to the implementation of Article 1 of Protocol No. 
1 to the European Convention on Human Rights, Human rights handbooks, 
No. 4 (Strasbourg: Council of Europe, 2001), p. 6, available at 
<https://rm.coe.int/CoERMPublicCommonSearchServices/
DisplayDCTMContent?documentId=
090000168007ff4a>.
---------------------------------------------------------------------------

             VI. Right to Education in the Native Language

    39. As described in previous quarterly reports of the Ministry of 
Foreign Affairs of Georgia on the human rights situation in the 
occupied regions of Georgia, in the Gali district there are 31 schools 
and from these 31 schools only 11 schools, all of which are in so 
called ``lower zone'' of Gali district, had the status of Georgian 
schools until the end of the academic year 2014-2015. However, from the 
beginning of September of the academic year 2015-2016, drastic changes 
have been made in the curriculum of these 11 schools, implying teaching 
of all subjects in the Russian language in grades from I to IV. The 
academic year 2016-2017 started in line with the above changes implying 
teaching of all subjects in the Russian language and therefore the 
Russian language had become the formal instruction language also in 
grade V. The above policy, if continued for several years, would result 
in gradual replacement of the Georgian curriculum with the Russian 
curriculum for all grades in these 11 schools of so called ``lower 
zone'' of Gali district.
    40. According to the report of the Public Defender of Georgia 
issued during the reporting period, ``problems remain with the access 
of people living on occupied territories to education.'' \55\
---------------------------------------------------------------------------
    \55\ The Public Defender of Georgia 10 December Report on the 
Situation of the Protection of Human Rights and Freedoms in 2016, ``The 
Public Defender of Georgia'', 10 December 2016, p. 20, available at 
<http://www.ombudsman.ge/uploads/other/4/4088.pdf>.
---------------------------------------------------------------------------
    41. During the reporting period, the situation with regard to the 
right to education in the native language in the Gali district remained 
the same. According to ``EU Statement on the Secretary General's 14th 
Consolidated Report on the Conflict in Georgia'', made on 16th November 
2016 at 1271st Council of Europe Committee of Ministers Meeting, 
``[t]he EU expresses its concern at reports on a continuing 
deterioration of the access to education in the native language in the 
Georgian region of Abkhazia. We strongly believe that the right to 
education for everyone, including education in the native language 
should be guaranteed and applied in the Georgian regions of Abkhazia 
and Tskhinvali region/South Ossetia as well. We join the efforts of the 
Co-Chairs of Geneva International Discussions to promote understanding 
and respect for the universal right to education of the child.'' \56\
---------------------------------------------------------------------------
    \56\ EU Statement on the Secretary General's 14th Consolidated 
report on the Conflict in Georgia, 1271st Council of Europe Committee 
of Ministers Meeting--16 November 2016.
---------------------------------------------------------------------------
    42. As described in previous quarterly reports of the Ministry of 
Foreign Affairs of Georgia on the human rights situation in the 
occupied regions of Georgia, there is a tendency of making decisions by 
parents on termination of attendance by their schoolchildren of the 
schools with newly introduced Russian curriculum and transferring them 
to the schools located on the other side of the occupation line; 
however the right to education in the native language remains 
problematic also in relation to freedom of movement. For example, in 
the reporting period, namely on the morning of 6th December 2016, 
several schoolchildren residing in the occupied village of Otobaia, 
Gali district were detained by the Russian FSB officers and were 
prevented from crossing the occupation line along Abkhazia and 
therefore from attending school in the village of Darcheli, Zugdidi 
district, the territory controlled by the Government of Georgia. It 
should be noted that the schoolchildren were held in detention in the 
Russian military base for around 5 hours.\57\ Moreover, the decision to 
close down two more crossing points along the occupation line with the 
Abkhazian region will create further impediments to the schoolchildren 
going to schools on the territory controlled by the Government of 
Georgia to get the education in the native language, as they have to 
pass additional several kilometres every day.
---------------------------------------------------------------------------
    \57\ So called border guards freed schoolchildren detained in 
occupied Abkhazia, ``Pirweli Information Agency'', 6 December 2016, 
available at <http://pia.ge/post/83148-e-w-mesazrvreebma-okupirebul-
afxazetsi-dakavebuli-skolis-moswavleebi-gaatavisufles>.
---------------------------------------------------------------------------

                            VII. Conclusions

    43. It can be concluded that the situation described in the 
occupied regions of Georgia constitutes infringements on freedom from 
torture and ill-treatment and therefore are violations of Article 7 of 
the International Covenant on Civil and Political Rights (ICCPR); 
Article 5 of the Universal Declaration of Human Rights (UDHR); Article 
3 of the European Convention on Human Rights (ECHR); and the OSCE 
commitments.\58\
---------------------------------------------------------------------------
    \58\ The Vienna Concluding Document (1989) prohibits torture and 
other cruel, inhuman or degrading treatment or punishment. Paragraph 
23.4; The Paris Document (1990) also prohibits torture and other cruel, 
inhuman or degrading treatment or punishment; the Istanbul Charter for 
European Security commits to ``eradicating torture and other cruel, 
inhuman or degrading treatment or punishment throughout the OSCE 
area.'' Paragraph 21.
---------------------------------------------------------------------------
    44. It can be concluded that the situation described in the 
occupied regions of Georgia with regard to arbitrary detention and 
examples provided for the reporting period constitute arbitrary 
detention and therefore violations of Article 9 of the International 
Covenant on Civil and Political Rights (ICCPR); Article 3 of the 
Universal Declaration of Human Rights (UDHR); Article 5 of the European 
Convention on Human Rights (ECHR); and relevant provisions of the OSCE 
commitments.
    45. It can be concluded that the situation described in the 
occupied regions of Georgia with regard to freedom of movement and 
examples provided for the reporting period constitute violations of the 
right to freedom of movement, namely of Article 12 of the International 
Covenant on Civil and Political Rights (ICCPR); Article 13 of the 
Universal Declaration of Human Rights (UDHR); Article 2, Protocol No. 4 
of the European Convention on Human Rights (ECHR); and the OSCE freedom 
of movement commitments.
    46. It can be concluded that the situation described in the 
occupied regions of Georgia with regard to the right to property and 
examples provided for the reporting period violate the right to 
property, namely Article 17 of the Universal Declaration of Human 
Rights (UDHR); Article 1, Protocol No. 1 of the European Convention on 
Human Rights (ECHR); and the OSCE commitments.
    47. It can be concluded that the situation described in the 
occupied regions of Georgia with regard to education in the native 
language and examples provided for the reporting period constitute 
violations of the right to education in one's native language and 
therefore violations of Article 26 (read in conjunction with Article 2) 
of the Universal Declaration of Human Rights (UDHR); Article 2, 
Protocol No. 1 of the European Convention on Human Rights (ECHR); 
Article 28 (read in conjunction with paragraph 1 of Article 2) of the 
UN Convention on the Rights of the Child; and relevant provisions of 
the OSCE commitments.
    48. It can be concluded that the situation described in the 
occupied regions of Georgia, particularly adoption of so called 
``laws'' and the process of ``passportisation'' violates prohibition of 
discrimination provisions of Article 14 and Protocol No. 12 of the 
European Convention on Human Rights (ECHR); Article 26 of the 
International Covenant on Civil and Political Rights (ICCPR); and the 
International Convention on the Elimination of All Forms of Racial 
Discrimination.

              VIII. Appeal to the International Community

    49. The Ministry of Foreign Affairs of Georgia appeals to the 
international community, states as well as international 
intergovernmental and non-governmental organizations:

        to call on the Russian Federation to reverse its recognition of 
        independence of the Georgian regions Abkhazia and Tskhinvali 
        and to end the occupation of the Georgian territories;

        to call on the Russian Federation to stop violations of human 
        rights on the occupied territories while exercising effective 
        control;

        to continue calling on the Russian Federation to ensure free 
        movement of people and removal of barbed and razor wires and 
        other artificial obstacles and banners along the occupation 
        line;

        to take additional measures in order to monitor and report on 
        the human rights situation in the occupied regions of Georgia, 
        more specifically, the Ministry of Foreign Affairs of Georgia 
        appeals to:

                (i) the Office of the United Nations High Commissioner 
                for Human Rights (OHCHR) to take additional measures in 
                order to regularly address and assess the human rights 
                situation in Abkhazia and Tskhinvali region of Georgia;

                (ii) the UN Human Rights Council's Special Procedure 
                Mandate holders to take additional measures in order to 
                address and report on the human rights situation in 
                Abkhazia and Tskhinvali region of Georgia;

                (iii) the Commissioner for Human Rights of the Council 
                of Europe to take additional measures in order to 
                address and report on the human rights situation in 
                Abkhazia and Tskhinvali region of Georgia;

                (iv) the OSCE and its autonomous institutions, namely 
                the Office for Democratic Institutions and Human Rights 
                (ODIHR) and the Office of the High Commissioner on 
                National Minorities (HCNM) to find ways for monitoring 
                the human rights situation in Georgia's occupied 
                regions. Such steps could, inter alia, include 
                undertaking a follow-up mission to the occupied regions 
                of Georgia and preparing a report on the status of the 
                implementation of the recommendations contained in the 
                ODIHR/HCNM 2008 Report on ``Human Rights in the War 
                Affected Areas following the Conflict in Georgia''.

        to continue calling on the Russian Federation to allow a) 
        access of the international human rights monitoring mechanisms 
        to the occupied regions of Georgia; b) access of the relevant 
        missions of international organizations (e.g. EUMM), including 
        humanitarian organizations, to the occupied regions of Georgia 
        through legal routes;

        to continue and intensify condemning violations of human rights 
        such as the right to life; freedom of movement; freedom from 
        torture and ill-treatment; the right to liberty; the right to 
        property and the right to receive education in the native 
        language in the occupied regions of Georgia.

                              ATTACHMENT 2


 Office of the State Minister of Georgia for Reconciliation and Civic 
                                Equality

                         Main Directions of the
           Reconciliation and Engagement Policy of the SMRCE

    The Government of Georgia (GoG) pursues and actively implements the 
peaceful, pragmatic and constructive policy of reconciliation, 
engagement and confidence building with the aim to achieve conflict 
transformation, facilitate people-to-people contacts, assist the 
population on the ground and contribute to the peaceful settlement of 
the conflict.
    In this regard, the GoG continues to implement the main dimensions 
of the State Strategy towards the Occupied Territories: Engagement 
through Cooperation and its respective Action Plan with special 
emphasis on such components as healthcare, education, confidence 
building, socio-economic assistance, civil society development and 
international engagement.
    SMRCE actively cooperates with the EU, USA and with other 
international partners to enhance its peace policy based on the 
principles of Georgia's sovereignty and territorial integrity. Also, it 
actively participates in different formats and plays a leading role in 
their proceedings.
    The GoG continues to seek the ways for sharing the benefits and 
opportunities stemming from the EU-Georgia Visa Liberalization 
Dialogue, EU-Georgia political association and economic integration 
process, with the populations residing in Abkhazia and Tskhinvali 
region/South Ossetia. The EU-Georgia high level political consultations 
are periodically held to discuss the existing local and regional 
challenges and assess the efforts undertaken towards the peaceful 
settlement of conflict in Georgia. The same issues are also discussed 
at the meetings of the Association Council and of the Subcommittee on 
Justice, Freedom and Security (the latest ones held on December 2 and 
June 16, 2016). Along with the existing situation the participants 
overviewed the implementation of the Engagement Strategy and Action 
Plan.
    SMRCE holds intensive consultations with international 
organizations to ensure their presence in the occupied regions despite 
all the obstacles these organizations face in terms of accessing these 
territories and carrying out their activities on the ground.
    SMRCE is actively engaged in the implementation of the 
Communication and Information Strategy of the GoG in the sphere of the 
European Integration. Informative video commercials concerning the 
Association Agreement were prepared and transmitted on Public 
broadcasting TV channel in 4 different languages, including in 
Abkhazian and Ossetian. Special booklets were printed and distributed 
in all these languages. In addition, with the assistance of the EU, 
SMRCE prepared short videos on the issues of visa liberalization, 
Association Agreement, education opportunities and ``Life with barbed 
wires'', which was screened at the Batumi International Conference in 
July and highlighted the existing situation and challenges of local 
population.
              implementation of the engagement action plan
Healthcare
    Free healthcare represents one of the cornerstones of the 
engagement strategy. Residents of the occupied territories largely 
benefit from the state-sponsored Referral Program under which they 
receive full-scale, needs-based medical treatment in any medical 
institution of Georgia. In April 2015 Hepatitis C elimination program 
(initiated through the support of US company ``Gilead'') was launched 
and the participation was extended to the residents of the occupied 
regions.
    Through the Liaison Mechanism (LM) effectively operating under the 
Action Plan for Engagement, the GoG regularly delivers to Abkhazia 
region necessary vaccines, including immunization and veterinary 
vaccines, diabetes and HIV/AIDS treatment and medicine for 
tuberculosis, also ambulance and other types of vehicle, medical 
equipment, etc. Annually the cost of delivered medicine amounts 
approximately to 250,000 USD.
    In 2013-2015 Government of Georgia spent more than 5 million USD on 
the healthcare of the residents of occupied regions. In 2016 the amount 
on healthcare component already equaled to 3.5 million USD. It is 
important to underline that throughout the years the number of persons 
coming over for free healthcare treatment has more than doubled.
    GoG continues the construction of multi-functional center, 
including the 200-bed hospital in Rukhi that is the closest point to 
the occupation line in the direction of Abkhazia region. The 
functioning of this high profile medical institution will make the 
receipt of the free of charge medical treatment even more accessible 
and convenient.
Education
    The GoG continues sponsoring the ``1+4'' program that offers 
simplified procedures for the representatives of ethnic minorities, 
inter alia, Abkhazians and Ossetians, to enroll in higher education 
institutions of Georgia by passing only one exam in their native 
language, with 1 year in Georgian language training followed by 4 years 
of undergraduate studies in a program of their own choice. At the same 
time, the GoG maintains the operation of the International Education 
Center (IEC) which offers the funding of the MA and Ph.D. education to 
the residents of the country, including the one in the occupied 
territories.
    For these purposes and with the aim to simplify the existing 
procedures for the recognition of education received inside the 
occupied territories, the SMRCE in close cooperation with the Ministry 
of Education and Science of Georgia elaborated the amendments to the 
Order of the Minister of Education and Science of December 1, 2009 on 
the Rules for the Recognition of Higher Education Received in the 
Occupied Territories that entered into force on January 11, 2017. The 
introduced amendments to the Order created possibilities for the 
persons residing inside the Georgian regions of Abkhazia and Tskhinvali 
region/South Ossetia to obtain the recognition for the high education 
received inside the occupied territories via status neutral solutions 
and simplified procedures--online or through the assistance of 
international organization, without the need to travel to the rest of 
Georgia, to take Georgian ID or to present witnesses that was necessary 
before. On its side, the issued act certifying the receipt of education 
inside occupied territories authorizes the person to continue study in 
higher education institution in the rest of Georgia or abroad and to 
participate in international student mobility and education programs.
Trade
    Multi-functional trading center was constructed in closest vicinity 
of occupation line in Rukhi in 2015 and launched in April 2016 that 
will facilitate trade and business contacts across the divide. The 
center also includes bank, veterinary clinic, post office, drug store, 
small refrigerators for storing the goods and collection points for 
agriculture products.
    The GoG continues to actively work on further facilitating and 
encouraging trade, business ties and confidence building across the ABL 
and for creating favorable and conducive environment in this regard.
    The United States Agency for International Development (USAID) is 
funding a program entitled The ZRDA Activity in Georgia. The goal of it 
is to promote inclusive and sustainable economic growth in targeted 
regions. The activity purpose is to improve livelihoods and resilience 
in targeted communities in Georgia, through improving MSME development 
and growth, increasing productivity of rural households, facilitating 
market linkages between producers and buyers, promote local economic 
development by establishing networks. USAID intends to provide a total 
of approximately $15,000,000 funding over a 5-year period.
Liaison Mechanism
    The LM continues to serve the important functions of conveying 
messages between Tbilisi and Sokhumi, effective and regular delivery of 
the medicine and medical equipment to Abkhazia region and assistance of 
international organizations in the implementation of bilateral 
confidence building projects. Apart from this, LM directly participated 
in the implementation of several confidence building projects. In 
particular, LM was involved in the arrangement of Abkhaz Corner in the 
National Parliamentary Library of Georgia with the aim to promote the 
Abkhaz literature, culture and history, in the publishing of ``Mokvi 
Gospel'' in Georgian, Abkhazian and English languages that was 
distributed in Abkhazia region and conducted joint trainings of 
Georgian and Abkhazian doctors in Istanbul on the treatment of 
Hepatitis C.
    In 2016, the LM has delivered to Abkhazia region a special vehicle 
with spray equipment necessary for preserving box-trees and respective 
pesticides channeled by the GoG. It has also provided Sokhumi Child 
Center with ultra sound device allocated by the Ministry of Health of 
Georgia.
CBMs
    In close cooperation with the LM and the CoE, SMRCE continuously 
facilitates the implementation of bilateral Georgian-Abkhazian and 
Georgian-Ossetian confidence building projects that includes the 
meetings, seminars, trainings, study visits etc. of various groups of 
people--teachers, doctors, cultural heritage experts, civil society 
representatives, etc.--on neutral territories. The number of such 
projects is increasing.

    In particular in 2016:

  --Georgian-Abkhazian young women participated in training on women 
        empowerment in Yerevan;
  --``Series of European lectures'' were held in Sokhumi for teachers 
        and lecturers, also with the participation of several Ossetian 
        representatives;
  --Georgian-Abkhazian doctors participated in study visit to Berlin on 
        the issues of drug prevention and treatment. As a result CoE 
        mission took place to Sukhumi and Tbilisi for Pompidou Group 
        experts;
  --Georgian-Abkhazian psychology and psychiatry specialists working 
        with traumatized children participated in training in Budapest;
  --Georgian-Abkhazian archive specialists participated in follow-up 
        meeting concerning the Soviet time materials in Yerevan, 
        Tallinn and Paris as a result of which a joint publication will 
        soon be made;
  --Georgian-Abkhazian teachers participated in last workshop in Graz 
        on the methodology of teaching of foreign languages;
  --Georgian-Abkhazian human rights defenders and civil society 
        representatives met in Budapest and Venice on follow-up meeting 
        to discuss human rights issues;
  --Georgian-Abkhazian interpreters two times participated in training 
        on translation technique in Budapest;
  --Georgian-Abkhazian museum experts participated in training on 
        museum management issues in Budapest;
  --Field visit was implemented to Gudauta with the participation of 
        CoE experts as a continuation to Georgian-Abkhazian cultural 
        heritage project;
  --Training of trainers for Georgian-Abkhazian teachers on Human 
        Rights education to children of 8-13 years based on CoE 
        materials ``Compasito'' was held in Budapest.

    SMRCE supports the operation of COBERM--EU funded financial 
mechanism--that enables the implementation of bilateral confidence-
building projects by non-government and international organizations.
    The SMRCE maintains flexible and transparent operation of the 
Modalities for Conducting Activities in the Occupied Territories of 
Georgia and continues to issue Non-objection Orders with respect to the 
submitted projects which concern the activities of international and 
non-governmental organizations in the occupied territories, including 
the confidence-building initiatives. In 2016, additionally 58 new 
projects were granted with non-objection (overall 345 projects); none 
was ever refused.
Communication between the divided societies
    SMRCE engages in any kind of platform and tries to use any given 
opportunity to help re-establish effective communication among the 
divided communities. In February and June of 2015 and April of 2016 
informal dialogues were held in London between the representatives of 
Georgian and Abkhazian communities, amongst them politicians, experts 
and international organizations. Meetings of similar format were also 
held in September 2015 in Bern, Switzerland and in Berlin, Germany. 
Recent political developments had been discussed and the existing 
situation had been analyzed. At the same time, the SMRCE continues to 
actively take part in Civic Point of View meetings that is a platform 
for the meeting of representatives of Georgian-Ossetian communities.
    In the frames of GoG's peaceful policy of reconciliation, 
confidence building and engagement and as a result of agreement 
directly reached with the de-facto authorities, Georgian and Ossetian 
prisoners were released at Enguri Bridge on March 10, 2016. In 
particular, 14 citizens of Georgia held in illegal custody on the 
territories of Abkhazia and Tskhinvali region/South Ossetia and 4 
Ossetians convicted under Georgian legislation were released from 
detention. The exchange of prisoners had a positive impact on peace 
process and confidence building between the divided communities.
Assistance of conflict affected population
    GoG actively continues the efforts to alleviate the consequences of 
the installation of barbed wire fences and other physical barriers by 
the Russian militaries in villages adjacent to the occupation line. In 
the frames of the Interagency Commission, the GoG together with 
international partners restored the provision of irrigation and potable 
water in communities affected by Russian-built barbed wire fences, 
completed gasification works, provided local population with financial 
assistance during winter time, built and renovated several schools and 
kindergartens, created and rehabilitated ambulatories, restored roads 
and developed infrastructure, supported local youth in covering their 
university tuition fees and helped farmers in their agricultural work. 
The rehabilitation works and delivery of assistance to the local 
population continues annually.
    In 2016, due to the efforts of the GoG and with the assistance of 
international organizations (UNDP, UNHCR) the surface of the Enguri 
bridge was renovated. Also, the bus became operational on the bridge, 
following 8 years of restrictions. Consequently, the residents of the 
occupied territory are able to benefit from free-of-charge 
transportation.
    On 5 March 2017, representatives of the occupation regime abolished 
two so-called crossing points along the occupation line in the villages 
of Nabakebi and Otobaia, the Abkhazia region. The announced closure of 
two crossing points along the occupation line which are used daily by 
hundreds of commuters, will be detrimental to the freedom of movement 
of the population, including school children, on both sides of the 
occupation line. It will likely increase the risk of incidents, 
especially detentions.
    Such a unilateral decision would go against commitments to work 
towards enhanced security and improved living conditions for the 
conflict-affected population. Furthermore, it would be contrary to 
efforts to normalise the situation by creating an atmosphere that is 
not conducive to longer-term conflict resolution and overall stability 
in the region.
GID and IPRM
    First Deputy State Minister of SMRCE heads the Second Working Group 
of Geneva International Discussions (GID) on humanitarian issues. 
Georgian delegation regularly raises issues of utmost importance, such 
as return of IDPs and refugees and grave violations of human rights and 
basic freedoms of the population residing in the occupied territories 
(e.g. freedom of movement, right to education in native language, right 
to unimpeded access to healthcare, etc.). Other important issues--such 
as the provision of water and gas, protection of the cultural heritage 
sites, fate of the detained--are also being raised.
    In the spirit of its constructive approach in 2015 and 2016 the GoG 
handed important archive materials to Abkhaz participants and an 
international expert on cultural heritage issues was enabled to visit 
Bedia and Likhny temples in Abkhazia region and elaborate a subsequent 
document on their current condition; another expert on healthcare 
issues conducted training on diabetes in Sokhumi. The potential 
cooperation on environmental issues, in particular, addressing a shared 
problem endangering the endemic box tree population in Georgia, 
including in Abkhazia has been also discussed.
    SMRCE actively participates in Incident Prevention and Response 
Mechanism (IPRM) meetings, which are held along the ABLs with Abkhazia 
and Tskhinvali region/South Ossetia on a regular basis. As a result of 
agreement reached during the 35th round of GID, IPRM was resumed in 
Gali after 4 year suspension.
    Within the IPRM framework the issues of human rights violations in 
the occupied territories, including but not limited to illegal 
detentions, prisoners, deprivation of property, issues related to 
provision of potable and irrigation water as well as vital security and 
livelihood issues are being discussed. The hot lines remain operational 
and thanks to them kidnappings have been diminished substantially.

    Senator Graham. Thank you, Mr. Ambassador.
    The Ambassador from Latvia.
STATEMENT OF HON. ANDRIS TEIKMANIS, AMBASSADOR, EMBASSY 
            OF THE REPUBLIC OF LATVIA
    Ambassador Teikmanis. Chairman Graham, Ranking Member 
Leahy, Members of the subcommittee.
    Thank you very much for inviting me to speak before this 
very honorable subcommittee.
    Latvia and the United States have a century-long history of 
truly friendly relations and a very close partnership. Due to 
this partnership, Latvia has safeguarded its independence and 
this partnership has facilitated Latvia's integration back into 
the Euro-Atlantic community.
    We have to admit today that the world has become less 
secure and less stable over the past decade. Causes for 
instability are various and the geography of the threats is 
diverse. Continued U.S. global leadership is extremely 
important to safeguard an international rules-based order. A 
strong transatlantic link is the best answer to today's 
security risks.
    Since 2003, Latvian troops have stood shoulder to shoulder 
with the United States in the fight against terrorism in Iraq 
and Afghanistan. We both have made sacrifices and Latvia 
remains committed to fighting terrorism within the global 
coalition against ISIL.
    We can do more. We are ready to do more. In 2017, Latvia 
considers additional contribution to the fight against 
terrorism in the form of financial assistance.
    Threats around us, and threats in the region, become more 
complex and harder to identify, quantify, and pinpoint. 
Russia's actions, vis-a-vis its neighbors, show a disturbing 
and worrisome trend that we have to reckon with.
    What happened in the Ukraine, Russia's steady and 
systematic military buildup, as well as the intensive military 
maneuvers in the proximity of NATO borders--like the one 
symbolically named Zapad 2017--have caused a significant 
deterioration in the European strategic security environment, 
and are challenging the European and international security 
order. This has a direct impact on the national security of 
Latvia, Europe, and NATO.
    To respond, we need a strong NATO as a source of stability 
and reliability. We need a prosperous and resilient European 
Union. We need an effective Organization for Security and Co-
Operation in Europe (OSCE) capable of solving, not freezing, 
conflicts.
    Thanks to historical decisions of the NATO Warsaw Summit on 
the deployment of four multinational battle groups to the 
Atlantic eastern flank--including a Canadian-led Enhanced 
Forward Presence Battle Group in Latvia--we are more secure and 
reassured. This is a very practical expression of solidarity 
from our allies and a strong deterrent signal to Russia.
    Security in our region is greatly strengthened thanks to 
Congress' support for the U.S. European Reassurance Initiative, 
the Atlantic Resolve mission, and the Foreign Military 
Financing Program, for which we are grateful.
    By taking into account that the challenges to our region 
are of a long term nature, we are looking forward to the 
continuation of the European Reassurance Initiative at the 
funding level of $3.4 billion or higher. Likewise, we hope that 
the Foreign Military Financing funding will be maintained or 
enhanced.
    The continued U.S. commitment to NATO is essential to 
preserving the irreversibility of these decisions. Latvia 
highly appreciates the very clear and resolute statement by the 
U.S. Defense Secretary James Mattis at the NATO Defense 
Ministerial meeting in Brussels last month, thus reconfirming 
the United States' strong support to the Alliance. The meeting 
of the Presidents of three Baltic States and the Vice President 
of the United States in Munich in mid-February reassured us 
even further in this respect.
    Latvia is also stepping up and pulling more weight. Latvia 
is among the best examples when it comes to raising a nation's 
own defense capabilities. In case of military aggression, our 
own forces will be the first responders. We are well aware of 
that challenge, therefore Latvia has spent the past 2 years 
boosting its military capacity and improving interagency 
coordination. Currently, we are spending 1.7 percent and next 
year, only a few months to go, we will spend 2 percent of GDP 
for our defense.
    Since joining NATO in 2004, Latvia has been not only a 
recipient, but also a provider, of security. In proportion to 
our population of 2 million, we count as among the top 
contributors in missions to Afghanistan, Iraq, the Balkans, 
Mali, the Central African Republic, and Somalia.
    Europe and the United States should join their efforts to 
help Ukraine, Georgia, and Moldova counter threats of a hybrid 
nature that are a mix of various elements including information 
warfare. Latvia has been active in providing its support to the 
Eastern partners to counter propaganda and to strengthen 
independent media.
    I would like to mention two examples of very practical 
approaches and supports towards the Eastern Partnership 
countries.
    First, the Baltic Centre for Media Excellence recently 
completed a study on skills and training needs of independent 
media in the Eastern Partnership countries.
    Second, Latvia is interested in the success of the Creative 
Content Support Fund that is being established with support 
from the European Endowment for Democracy and the British 
Government. This fund will strengthen the capacity of 
independent media to offer Russian language audiences a strong 
alternative to the Kremlin controlled media. We encourage the 
United States to consider supporting this important initiative.
    During pivotal times in history, the Alliance has always 
proven to be effective, credible, and united. Solidarity is the 
keyword here. I believe the spirit of solidarity will bring us 
to wise future decisions.
    Thank you very much.
    [The statement follows:]
              Prepared Statement of Hon. Andris Teikmanis

 (See also ``Annual Report About the Activities of the Security Police 
 in 2015'' and ``Tools of Destabilization: Russian Soft Power and Non-
Military Influence in the Baltic States'' in the additional information 
                      at the end of the hearing.)

                          latvia-united states
    Latvia and the United States have a century long history of truly 
friendly relations. The United States is our closest strategic partner. 
The Latvian-American strategic partnership has helped Latvia to 
safeguard its independence and build democratic society, has 
facilitated Latvia's integration into the Euro Atlantic community. 
Latvia highly values the extensive political dialogue and multifaceted 
co-operation developed over the years.
                       global security challenges
    We have to admit today that the world has become less secure and 
less stable over the past decade. Causes for instability are various 
and the geography of the threats is diverse. The continued U.S. global 
leadership is extremely important to safeguard an international rules 
based order. The strong transatlantic link is the answer to today's 
security risks--terrorism, radicalism, cyberwarfare, information 
confrontations. Latvia is ready to continue joining the U.S. in this 
important endeavor to make the world more secure and stable.
    Since 2003, Latvian troops have stood shoulder to shoulder with the 
United States in the fight against terrorism in Iraq and Afghanistan. 
We both have made sacrifices. Latvia remains committed to fighting 
terrorism within the Global Coalition against ISIL and providing 
financial support and military expertise to those who fight ISIL in 
Iraq and Syria. Since 2014 NATO Strategic Communications Centre of 
Excellence in Riga (NATO StratCom) provides in-depth analyses and 
recommendations on countering Russian and ISIL propaganda.
    We could do more. We are ready to do more. In 2017 Latvia is 
considering additional contribution to the fight against terrorism in 
the form of financial assistance.
                    security situation in the region
    Threats around us have become more complex and harder to identify, 
quantify and pinpoint. Russia's actions vis-a-vis its neighbors show a 
disturbing and worrisome trend that we have to reckon with.
    As it is evident from the new Russian National Security Strategy, 
Russia has defined NATO as its adversary and threat to its national 
interest. The Strategy also reflects the sentiment and desire for a 
world order with spheres of influence. This vision is outdated and 
unrealistic; the sovereign nations Russia wishes to subject to such 
division have their own vision and an active say in their development 
and choice with whom to ally themselves. This sovereign right may not 
be challenged.
    What happened in Ukraine, and Russia's steady and systematic 
military build-up as well as the intensive military maneuvers in the 
proximity of NATO's borders--like the ones symbolically named ``Zapad 
2017'' (which means ``West 2017'' in Russian)--have caused a 
significant deterioration in European strategic security environment 
and are challenging the European and international security order. This 
has direct impact on the national security of Latvia, Europe and NATO. 
We take it seriously. I do predict that we can expect continued 
pressure both in terms of military pressure and hybridized warfare 
employing both military assets and non-military means aimed at eroding 
and deconstructing the unity of Europe, the Transatlantic link and 
consequently--NATO. These actions include a range of instruments, 
including propaganda, economic pressure and financing of political 
campaigns to cyber-attacks and aggressive intelligence gathering.
    To respond, we need a strong NATO as a source of stability and 
reliability. We need a prosperous and resilient European Union. We need 
an effective Organisation for Security and Co-operation in Europe 
(OSCE) capable of solving, not freezing conflicts. We need more co-
operation at the regional level. To uphold our European values and 
principles, we have to back them with strong institutions and 
partnerships with its neighbors that are nurtured on a daily basis.
    Being aware that internal and external security is interlinked, 
Latvia is doing its outmost to build on our own resilience, strengthen 
our border security and invest in our self-defense. However, our 
strength is in our solidarity! We are grateful to NATO and individual 
Allies, in particular, the U.S., for a significant military 
reinforcement experienced already. An enhanced military presence 
combined with assurance measures such as air policing and military 
exercises has provided us with visible reassurance.
                         nato and u.s. presence
    Following swiftly on the heels of Russian aggression in Ukraine, 
NATO reacted by taking decisions to reassure Allies that were proper to 
deter Russia. And since then, it has proceeded with strengthening 
strategic partnerships to build security together with non-NATO 
countries like Sweden and Finland in our region.
    Thanks to historical decisions of the NATO Warsaw Summit on the 
deployment of four multinational battle groups to the Alliance's 
Eastern flank, including a Canadian-led Enhanced Forward Presence 
battle group in Latvia, we are more secure and reassured. This is a 
very practical expression of solidarity from our allies and a strong 
deterrent signal to Russia. Security in our region is greatly 
strengthened thanks to the Congress support for the U.S. European 
Reassurance Initiative/European Deterrence Initiative, the Atlantic 
Resolve mission and the Foreign Military Financing for which we are 
grateful. Taking into account that challenges to our region are of a 
long term nature, we are looking forward to the continuation of the 
European Deterrence Initiative at the funding level of $3.4 billion or 
higher. Likewise we hope that the Foreign Military Financing funding 
will be maintained or enhanced. These policies have strengthened our 
regional security and made a positive impact on addressing our 
immediate shortfalls in national capabilities.
    The continued U.S. commitment to NATO is essential to preserving 
the irreversibility of these decisions. Latvia highly appreciates the 
very clear and resolute statement by the U.S. Defense Secretary Jim 
Mattis at the NATO Defense Ministerial meeting in Brussels last month, 
thus reconfirming the U.S. strong support to the Alliance. The meeting 
of the Presidents of three Baltic States and the Vice President of the 
United States in Munich in mid-February reassured us even further in 
this respect.
    Having said this, I would like to add that Latvia shares the notion 
that NATO must be capable of confronting the 21st century threats. We 
agree there is a need to modernize NATO, to streamline the Alliance's 
military command structures, to place greater focus on counter-
terrorism and cyber security, on information warfare. NATO has to have 
appropriate investment in military capabilities that can be achieved by 
equally sharing the burden of our collective security.
                   latvia's contributions to defense
    Latvia is also stepping up and pulling more weight. Latvia is among 
the best examples when it comes to raising a nation's own defense 
capabilities. In case of military aggression, our own forces will be 
the first responders. We are well aware of that challenge, therefore 
Latvia has spent last 2 years boosting its military capacity and 
improving the interagency coordination. For the current fiscal year, 
our defense spending has increased by 22 percent, reaching 1.7 percent 
of GDP. Our commitment to NATO target of 2 percent will be reached next 
year--in 2018.
    Since joining NATO in 2004, Latvia has not only been a recipient, 
but also a provider of security. In proportion to our population of 2 
million, count us amongst the top contributors to international 
peacekeeping missions in Afghanistan and Iraq. We have also contributed 
to the missions in the Balkans, Mediterranean, Mali, the Central 
African Republic, and off the coast of Somalia.
                    supporting our eastern neighbors
    Transatlantic resolve is also needed to continue strengthening 
resilience of the EU's Eastern neighbors who constantly encounter 
threats to their territorial integrity and statehood as a result of 
Russia's aggressive actions. Europe and the United States should stand 
firmly on calling Russia to comply with international rules and its 
commitments, in particular--fully with the Minsk Agreement. 
Transatlantic unity is of utmost importance in this respect. The latest 
escalation in the Eastern Ukraine underlines this. We need to keep up 
pressure on Russia to de-escalate the situation and facilitate peaceful 
resolution of the conflict in Ukraine. We should continue supporting 
Ukraine both practically and politically, because the success of 
Ukraine to firmly stand on its own feet will be the best response to 
the concept of spheres of influence.
    Europe and the U.S. should join their efforts to also help Ukraine, 
Georgia, and Moldova counter threats of hybrid nature that are a mix of 
various elements including information warfare. Latvia has been active 
in providing its support to the Eastern partners to counter propaganda 
and to strengthen independent media through various frameworks--NATO 
(NATO StratCom), the European Union (East StratCom Task Force), 
regionally and nationally (Baltic Centre for Media Excellence).
    I would like to mention two examples of very practical approach and 
support towards the Eastern Partnership countries. Firstly, the Baltic 
Centre for Media Excellence recently completed a study on skills and 
training needs of independent media in the Eastern Partnership 
countries. We encourage all donors to use the findings of the study to 
improve the coordination and targeting of their media support programs.
    Secondly, Latvia is interested in the success of the Creative 
Content Support Fund that is now being established with support from 
the European Endowment for Democracy and the British Government. The 
Fund will strengthen the capacity of the independent media to offer 
Russian-language audiences a strong alternative to the Kremlin-
controlled media. We encourage the United States to consider supporting 
this important initiative.
                             in conclusion
    We are living in very turbulent times. The international rules 
based order has been challenged. The European security architecture has 
been shaken up as a result of the more aggressive, assertive and 
adventurous foreign policy pursued by Russia. The other fundamental 
change in Europe's security has come with the appearance of incidents 
of terrorism on European soil. The transatlantic community needs to 
address these threats jointly. To be successful and effective in this 
endeavor we need a strong NATO, the transatlantic link and solid unity 
among the Allies. We should also support our neighbors for them to 
strengthen their resilience--both in the East and the South.
    During the pivotal times in history, the Alliance has always proven 
to be effective, credible and united. Solidarity is the key word here. 
I believe this spirit of solidarity will bring us to wise future 
decisions.

    Senator Graham. Thank you, Mr. Ambassador.
    The Ambassador from Lithuania.
STATEMENT OF HON. ROLANDAS KRISCIUNAS, AMBASSADOR, 
            EMBASSY OF THE REPUBLIC OF LITHUANIA
    Ambassador Krisciunas. Chairman Graham, Ranking Member 
Leahy, and Members of the subcommittee.
    Thank you for the opportunity to appear before you today to 
present our assessment of the threats Russia's policies pose to 
our democracy, to explain what Lithuania is doing to counter 
those threats, and to explore the possibilities for cooperation 
between Lithuania and the United States.
    First of all, let me name the threats we face. Russia has 
never stopped using its political, economic, propaganda, and 
other open and undercover tools to make democratic countries 
more vulnerable to present day challenges. The attack on 
Georgia, the illegal annexation of Crimea, and the war in 
eastern Ukraine are being perceived by Lithuania as having 
considerable implications to its own national security.
    Russia is increasing its military capabilities on the 
Lithuanian border. Kaliningrad is the most militarized zone in 
Europe. Large scale military exercises of an offensive nature 
on our borders with Belarus are taking place regularly.
    Russia is extremely active in the information field, using 
pro-Russian media, propaganda, disinformation, fake news, 
trolls, and leaks in order to confuse public opinion and to 
influence decisionmaking.
    Russia's international media channels spread its views on 
disinformation on sensitive topics such as migration, 
terrorism, ethnic relations, and the deployment of NATO troops 
in Central and Eastern Europe.
    In my written testimony, you will find various examples of 
Russia's preparations against Lithuania.
    Another security threat is the Ostrovets Nuclear Power 
Plant, which is under construction in Belarus. Because of 
revisions in nuclear safety, it has the potential to become a 
second Chernobyl.
    How do we fight back against these threats? In 2018, 
Lithuania will be spending over 2 percent of GDP on defense and 
we plan to go beyond this benchmark in the future. We are 
modernizing our military by spending 31 percent of the budget 
for new weapon systems.
    The LNG terminal independence was one of the best 
investments into our security. As its name suggests, it ensures 
the independence of energy supplies and deprives Russia of one 
of its manipulation tools. It has opened the Baltic market for 
potential LNG deliveries from the United States.
    Dear Senators, using this opportunity, allow me to thank 
you for your personal support and for the United States' 
support to our security. We greatly appreciate the 
strengthening of the United States' military presence in Europe 
and the implementation of the European Deterrence Initiative.
    We do believe that the best deterrence, therefore, the only 
way to achieve regional stability is to place U.S. and NATO 
troops in the Baltic States on a permanent basis. In our view, 
it is necessary to have forces and military plans adequate for 
deterrence.
    When it comes to practical areas of defense cooperation, 
Lithuania and the United States have been engaged in close 
dialogue. On our part, we are ready to move forward with more 
precise bilateral projects, and timelines, with identified 
financial resources on both sides.
    The projects can include the establishment of Baltic 
regional air defense capability, prepositioning of military 
equipment, procurement of ammunition, and intelligence, 
surveillance, target acquisition, and reconnaissance (ISTAR) 
capabilities among others.
    While bringing your attention to defense issues, close 
cooperation to counter hybrid threats are necessary. To counter 
threats posed by disinformation, Lithuania launched a National 
Information Influence Identification and Analysis Ecosystem 
Project to monitor and analyze the information environment, and 
preclude possible unfriendly actions. The possibility to access 
some of the services and tools of the United States would make 
this system more efficient.
    Currently, Radio Free Europe/Radio Liberty is broadcasting 
via Lithuania almost 10 hours a day in Russian and Belorussian 
languages. We see the need to increase the radio coverage and 
to improve the signal quality for the listeners of RFE/RL in 
Russia, Belarus, Ukraine, and we should aim at raising 
transmission power and extending the programming into 24 hours.
    We should also work together in creating an attractive and 
positive narrative about Western societies for radio and 
television programs seen in the region. There is also a great 
need to tell the true facts of history to the societies 
influenced by Russian propaganda.
    Finally, we are aiming to strengthen border security. With 
the U.S. Army support, Lithuania will be launching a new RAID 
systems project. Lithuania also plans to build a Situation 
Awareness Center that would integrate border, air, and maritime 
situation pictures. United States experience and assistance in 
this area would be greatly appreciated.
    Once again, thank you for this opportunity to tell you our 
part of the story today. We much value our strategic 
partnership with the United States. We will continue to be your 
reliable ally willing and hoping to work with the U.S. Congress 
and the U.S. administration very closely.
    Thank you, and I am pleased to be on the mark first.
    [The statement follows:]
             Prepared Statement of Hon. Rolandas Krisciunas
    Chairman Graham, Ranking Member Leahy, and members of the 
subcommittee; thank you for the opportunity to appear before you today 
to present our assessment of the threats Russia's policies and 
intentions pose to our democracy, to explain what Lithuania is doing to 
counter these threats and to explore the possibilities for cooperation 
between Lithuania and United States.

                          I. Threat Assessment

1. Russia's Aggressive Posture

    Russia continues to maintain its aggressive posture towards NATO 
and the EU. Russia has deliberately chosen confrontation with the Euro-
Atlantic community aiming at weakening Europe, discrediting NATO and 
cutting the transatlantic link. These are the most alarming trends of 
the past years:

  --Russia updated basic strategic documents, indicating NATO, and 
        particularly the U.S., as threats. It is written in official 
        documents, it is publically said by Russian politicians, and it 
        is constantly broadcasted on TV for the public.
  --Russia withdrew from international agreements aimed at building 
        trust and stability and thus assuring existence of the 
        international security system. Russia is violating basic 
        international law norms, and is keen to change current 
        international order.
  --At the time NATO was aiming to build a strategic partnership with 
        Russia, cutting defense structures and focusing on 
        expeditionary forces, Russia was increasing its investments 
        into defense, modernizing its armaments and military 
        structures, reviewing its strategy, doctrine and tactics.
  --Russia is extremely active in the information field, using pro-
        Russian media (e.g. Russia Today, Sputnik), propaganda, 
        disinformation, fake news, trolls, leaks etc. in order to 
        confuse public opinion and influence the decisionmaking.
  --Russia also employs lobbying, PR agencies to disseminate the 
        conspiracy theories, to discredit other states in the 
        international arena and harasses those who criticize the 
        Kremlin.
  --Russia is active in promoting its narratives: ``the West is corrupt 
        and morally bankrupt'', ``fascist regime in Kiev'', ``Ukraine 
        is an artificial state'', ``widespread Russophobia''. There is 
        a constant manipulation of the historical facts, e.g. common 
        history of the post-Soviet countries, and the victory over 
        fascism in the World War II (liberators vs occupiers).
  --Russia tends to support European extremist and anti-EU groups, 
        strives to foment divisions and instability in the target 
        countries, and to create divisions inside the EU and NATO. 
        Other forms of action: cyber activity (attacks against critical 
        infrastructure, hacked and leaked emails, and cyber espionage), 
        initiation of population resettlement (in order to change the 
        ethnic composition of a frozen conflict region), creation of 
        the proxy groups (pseudo-NGOs, youth organizations, research 
        institutes, think tanks, motorcycle clubs).
  --The compatriot policy (providing financial, healthcare or other 
        kind of benefits to Russian-speakers abroad, issuing Russian 
        passports, and justifying aggression against neighboring 
        countries with protection of Russian speakers' rights) is being 
        used as an additional tool for Russia's disruptive strategies 
        abroad.
  --Rising militant nationalism and chauvinism inside Russian society 
        is a result of government efforts to mobilize the population 
        and increase its acceptance for sacrifices in the name of 
        ``higher'' national objectives. Nationalism in Russia is 
        tolerated and fostered but nationalism in other countries 
        presented to Russian public almost as extreme as Nazism. An 
        intense state propaganda campaign has stoked Russians' 
        perception that Putin righted a historical wrong in 
        orchestrating Russia's seizure of Crimea and reasserted 
        Russia's great-power interests against hostile West.
  --For more examples of Russian hybrid activities see Annex 1.

    The Kremlin increasingly sees Europe whole, free, and at peace not 
as an opportunity for prosperous coexistence, but as a threat to its 
geopolitical agenda and regime survival. Moscow views the Western 
values--pluralism and openness--as weaknesses to be exploited. Its 
tactics are asymmetrical, subversive, and not easily confronted. U.S. 
is presented as an abuser of a global dominant position and Russia 
knows a solution--diminishing U.S. role in the world to achieve 
multipolar international order. Western governments have ignored this 
threat for too long, but finally, awareness is growing that the 
transatlantic community must do more to defend its values and 
institutions.

2. Threat Perception in Lithuania

    The illegal annexation of Crimea and the war in Eastern Ukraine are 
being perceived by Lithuania as having substantial implications to its 
own national security for the following reasons:

  --Russia has never stopped treating the Baltic States as part of its 
        exclusive sphere of influence and used its political, economic, 
        energy resources, propaganda, cyber, information and other 
        coercive, open and undercover tools to make the democratic 
        countries more vulnerable to the present-day challenges.
  --In Ukraine, Russia demonstrated that it would not shy away from 
        invading sovereign country.
  --Russian military snap readiness exercises that take place regularly 
        complicate tactical warning and increase military tensions 
        along the Russian borders.
  --Russia is increasing its military capabilities on Lithuania's 
        borders. It is broadening its range of military options in the 
        region and limiting NATO's possibilities to reinforce and 
        resupply.
  --Large-scale military exercises of the offensive nature on our 
        borders with Belarus taking place regularly.
  --``Russia first'' military tactics to engage in a military conflict 
        and destroy its adversary military installations is 
        particularly dangerous. Russian determination to use nuclear 
        component as an escalation in order to ``deescalate'' regional 
        conflict is extremely dangerous.

    There are additional reasons that explain our concern:

  --Attack on Georgia in 2008, illegal annexation of Crimea and covert 
        use of military and paramilitary forces by Russia in Ukraine 
        redrew the political map of Europe and shook up the rules-based 
        international peace order.
  --It is difficult to trust Russia to uphold its word and its 
        international commitments, as it violated--among other--
        Budapest Memorandum, Helsinki Accords and the UN Charter.
2.1 Kaliningrad Factor
    Kaliningrad is the most militarized zone in Europe with extensive 
A2/AD capabilities. These capabilities allow gaining control of the 
Baltic Sea and air space. Short-range nuclear-capable ballistic 
missiles Iskander are expected to be deployed to Kaliningrad this year. 
Last year, two frigates armed with nuclear capable cruise missiles 
``Kalibr'' (range up to 2500 km) have been additionally deployed to 
Kaliningrad, as well as coastal defense missile system ``Bastion'', 
capable of blocking the entrance to the Baltic Sea.
    Around 25,000 troops are permanently deployed in the Kaliningrad 
region. It is assessed that up to 70 percent of the region's population 
is related to the military in one way or another.
    It became a new practice to command civilian ships to change their 
course in Lithuanian exclusive economic zone during exercises of 
Russia's Baltic Sea Fleet.
2.2 Belarus Factor
    President Lukashenko has been balancing between the West and Russia 
for decades in order to receive possible benefits from the both sides. 
However, in military terms, Belarus is fully integrated with Russia and 
has limited means to disallow using its territory for military 
operations. Quick military operation to unite Kaliningrad region with 
Belarus (through the so-called Suwalki gap) was being exercised by 
Russian troops. In case of conflict, it is very unlikely that Belarus 
remains neutral.
    Situation in Belarus is worrisome. Weak economic situation allows 
Russia to dictate conditions for cooperation. Two countries have a 
joint air defense system, there are Russian facilities and capabilities 
in the territory of Belarus. Astravets nuclear plant, which is under 
construction, is one more risk as the project does not have economic 
grounds and technological reliability. Its nuclear safety credentials 
cannot be trusted. It is Russian political project created in order to 
prevent the integration of Baltic countries into the European Energy 
system.

                       II. Closing Security Gaps

                    ensuring defense and deterrence

    Due to geographic location of the Baltic States, the most credible 
way to deter Russia is by making it physically difficult to achieve its 
objective to capture and hold the Baltic States by strengthening their 
defense and resilience.
    Bearing in mind the time and geographical factors, credible 
deterrence in the Baltics could primarily be ensured through having 
adequate capabilities and the will to act. The Baltic States do have 
the will, but due to the size of their economies, they are not in a 
position to eliminate all the gaps in their defence capabilities by 
themselves.

1. National Efforts

    The awareness of being a frontline state and the lessons learned 
from the war in Georgia, and especially in Ukraine, led to immediate 
steps that were necessary to take in order to strengthen Lithuania's 
security:

  --Increase of professional soldiers in the armed forces, 
        reintroduction of conscription, higher number of citizens 
        familiar with armaments and military tactics.
  --Increase of defense budget, which is set to hit the 2 percent of 
        GDP mark next year and subsequently grow, as required, based on 
        threat analysis and the need to further modernize our armed 
        forces.
  --Modernization by substantial defense procurements (28 percent of 
        the current budget goes to procurement of new weapons systems).
  --LNG terminal was built to ensure independence of energy supplies 
        and to cut short one of the Russia's manipulation tools.
  --National legislation related to state of war, crisis management and 
        information security has been amended in order to remove some 
        legal obstacles for smooth and fast national response actions.
  --New law on cyber security was adopted. It overhauls national cyber 
        governance system, defines general cyber security requirements 
        as well as identifies additional cyber security measures, 
        including close private-public cooperation. In 2015 National 
        Cyber Security Center was established. It focuses on protection 
        of critical information infrastructure, public sector, 
        increasing resilience and response capability.
  --In response to Russia's information war, strategic communication 
        capabilities have been improved within the government and in 
        the armed forces. Public awareness of information warfare and 
        propaganda was raised. Lithuania is part of information sharing 
        and coordination platforms among the Baltic States, Poland and 
        Finland, contributes to the EU and NATO StratCom capabilities.
  --Monitoring of TV and radio programs for initiating legal actions to 
        suspend licenses for those disseminating disinformation and 
        hatred was introduced.

2. Strengthening Conventional Capabilities

    Conventional threats being the main cause for concern, current 
efforts to improve Lithuania's defense capabilities are focused 
primarily on modernization of armed forces, increasing the ability to 
inflict damage on adversary. There are some crucial areas where Allied 
support and specifically that of United States is very much needed:
  --The U.S. military presence in Europe (notably in Germany, 
        Netherlands, and Poland) is being strengthened and ERI 
        (European Reassurance Initiative)/EDI (European Deterrence 
        Initiative) are being implemented, which we greatly appreciate.
  --The NATO`s enhanced Forward Presence with 4 (U.S., Germany, Canada 
        and UK) battle groups being deployed in Poland, Lithuania, 
        Latvia and Estonia is an important contribution. It is our 
        strong belief, however, that restoring the U.S. military 
        presence in Europe back to a pre-2009 level would be highly 
        instrumental and play well into substantiating our joint 
        credible deterrence and defense posture.
  --In our view, it is necessary to have forces and adopt military 
        plans adequate for deterrence, especially considering Russia's 
        A2/AD (anti-access and area denial) and growing naval 
        capabilities in the Baltic Sea.
  --The best deterrence, therefore, and the only way to achieve 
        regional stability, is to place U.S. and NATO troops in the 
        Baltic States on a permanent basis.

    When it comes to practical areas of defense cooperation we would 
need U.S. assistance in:

  --The establishment of Baltic regional air-defense capability that is 
        the most important element for ensuring regional security. This 
        would allow the Baltic States armed forces to respond to a 
        military aggression at the very first stage of a conflict and 
        to sustain before the reinforcement arrives.
  --The prepositioning of military equipment that allows for rapid 
        reinforcement. In terms of cost value, it is much better to 
        invest in defense installations in the Eastern part of Europe. 
        Lower-cost U.S. investments with a high rate of our 
        contribution are mutually beneficial.
  --Procurement of ammunition to increase our antitank capabilities, 
        namely Javelin, AMRAM for the NASAM system, and 155 mm 
        artillery shells.
  --ISTAR capabilities to gather crucially important intelligence.
  --Need to upgrade our communication systems.
  --As time being a very important factor, it would be welcome to apply 
        for the Baltic region a program similar to ``Train and Equip'' 
        thus strengthening the Eastern border of NATO, increasing 
        abilities of forces in place to defend, and contributing to 
        deterrence. It could be worth considering the revival of the 
        Warsaw initiative that in previous years helped to acquire 
        necessary capabilities while procuring products of U.S. 
        manufacturers.

    In all these mentioned areas, Lithuania and United States have been 
engaged in discussions and dialogue, but we on our part are ready to 
move forward with more precise bilateral projects and targeted 
timelines with identified financial resources on both sides.

3. Countering Hybrid Threats

    Recent study ``Hybrid Warfare in the Baltics. Threats and Potential 
Responses'' by RAND Corporation (http://www.rand.org/pubs/
research_reports/RR1577.html) concludes that while improving the 
conventional deterrent in the Baltic region is important, the U.S. and 
NATO should also address the potential for all forms of Russian 
aggression across the conflict spectrum. An increased U.S.-Baltic 
engagement in the area of hybrid threats--in parallel with more 
substantial NATO/U.S. military presence in the region--would be very 
welcome.
    Currently, an intra-governmental discussion is ongoing in Lithuania 
on the coordination between various institutions of countering hybrid 
threats. The Government aims at upgrading an integrated system of 
crisis management and countering hybrid threats. Here, we are seeking 
to gain from the U.S. experience and are ready to share ours.
    Lithuania supports regional cooperation among NATO Allies exposed 
to similar types of hybrid threats, which would include closer 
interagency cooperation among border guard, police, and municipal 
authorities. This would lead to joint development of comprehensive 
cooperation mechanisms and procedures for reacting to and countering 
hybrid threats. Closer regional cooperation between Baltic and Nordic 
States, Poland and the U.S. would be very instrumental and desirable.
    The EU and NATO would gain from closer dialogue with the third 
states directly affected by the hybrid threats, particularly Georgia, 
Ukraine, and Moldova. Additionally, we should invest in supporting 
these countries in building up their capabilities. Continued U.S. 
engagement in this direction would be welcome.
3.1 Disinformation
    In order to counter disinformation attacks, Lithuania launched a 
national information influence identification and analysis ecosystem 
project to monitor and analyze physical and electronic information 
environment, and preclude possible unfriendly and destructive actions. 
The recent example was the reaction to the fake news about the alleged 
rape of a teenage girl in Lithuania by the German soldiers. The 
reaction time was very short, it was managed smoothly and did not have 
a negative effect on the perception of the local population towards the 
NATO Allies and the Enhanced Forward Presence in Lithuania.
    It would make a great benefit if similar systems were launched in 
other two Baltic States and Poland, also possibly in a wider region. It 
would allow us to understand the pattern of Russian influence 
activities, monitor them and preclude some unintended actions. To make 
this system more effective, the access to some of the U.S. services 
would be appreciated to facilitate the analysis of electronic 
environment and technologies like cybercrime, and social communication 
analysis tools (about $300,000 per year for licenses).
    The legal cooperation on information warfare is another important 
area, as it is often the case when the U.S.-owned cyber space is used 
initiating information attacks against other states.
    More American popular culture in Lithuania could help to neutralize 
Russia's so-called ``active measures''. Cultural, student, journalist 
exchange projects, educational, history programs should be encouraged 
and funded. In January 2017, the Broadcasting Board of Governors (BBG) 
and Radio Free Europe/Radio Liberty (RFE/RL) shipped to Lithuania an AM 
radio transmitter for broadcasting of the RFE/RL programs to Russia and 
Belarus. The Nautel NX-200 type solid-state transmitter currently is 
under installation in Viesintos (North-East of Lithuania).
    The AM band is available in all car radios. The AM radio can be 
very important in case Russian or Belarusian authorities block the 
websites of RFE/RL. Currently, RFE/RL is broadcasting via Lithuania 
almost 10 hours a day in Russian and Belarusian languages. The 
transmission power is 75,000 W. The annual broadcasting cost is 
$220,186.
    In order to increase the radio coverage, to improve the signal 
quality and to provide the most convenient schedule for the listeners 
of RFE/RL in Russia, Belarus and Ukraine, we should aim at raising the 
transmission power from 75,000 W to 120,000 W and RFE/RL 24 hour 
broadcasting. The annual broadcasting cost would be $890,000 (increase 
by $670,000).
3.2 Cyber Threats
    In the face of rapidly growing cyber threats, it is critically 
important for Lithuania to make a leap forward in critical information 
infrastructure protection. To give a spark in this direction, we 
suggest the idea of establishing a Cyber Laboratory within our National 
Cyber Security Center and propose a joint project that could be 
ambitiously pursued with the U.S. support. It would greatly contribute 
to our security by: (1) enhancing cyber defense capabilities of our 
armed forces; (2) strengthening resilience of state-level critical 
information infrastructure; (3) laying a better background to the 
development of national cyber defense competencies; (4) enabling better 
preparedness to counter conventional and hybrid scenarios against 
Lithuania.
3.3 Border Security
    Security of the borders starts with the situation awareness and the 
ability to monitor. This year, with the U.S. Army support, Lithuania 
will be launching a new so-called RAID systems project that would 
significantly increase national abilities in beefing up our border 
security. We hope this to be enhanced to the Baltic regional operation 
with the overall aim to have an integral security situation picture of 
NATO's Eastern border. U.S. assistance in this area would be of 
tremendous importance.
    Lithuania plans to build a situation awareness center that would 
integrate border, air and maritime security situation picture. We see 
many reasons for turning it into a regional U.S.--Baltic center. U.S. 
experience and assistance in this area would be of great help.
3.4 Energy Security
    Lithuania has been very active in fighting Russian dominance in the 
energy sphere. We constructed the first LNG terminal in the Baltic Sea 
region, which broke Russian monopoly of gas supply and reduced 
political influence. It has opened Baltic gas market for potential LNG 
deliveries from USA.
    Lithuania bridged the Baltic Sea by laying underwater electricity 
cable linking Lithuania and Sweden and got connected with Poland as 
well. Our next goal is to connect with continental European electricity 
networks. Baltic States aim to synchronize their electricity networks 
with the EU, breaking away from Russia. It is a matter of urgency and 
top priority, because of geopolitical aspects, security and economic/
market issues.
    The Ostrovets Nuclear Power Plant constructed in Belarus is a 
nuclear and environmental safety issue not only for Lithuania, but for 
the whole region (for more information about the Ostrovets NPP see 
Annex 2).
    Lithuania (the EU) deals with the issue engaging unilateral and 
multilateral instruments including but not limited to the Espoo, Aarhus 
and the Nuclear Safety Conventions aiming to promote nuclear and 
environmental safety in the Ostrovets NPP. Seriousness of nuclear 
safety issues should warrant it to become an item on bilateral U.S.-
Belarus agenda. We also ask for U.S. support regarding this issue in 
the framework of the Convention on Nuclear Safety.

                                ANNEX 1

                 Examples of Russian Hybrid Activities

1. Aggressive Russian Intelligence Operations

    Russian intelligence services (RIS) support Russian foreign policy 
objectives by conducting active and aggressive influence operations or 
espionage against Lithuania.

  --In 2015 the FSB officer Nikolay FILIPCHENKO, one of the organizers 
        and coordinators of the FSB long-term operation against 
        Lithuania, was detained in Lithuania. His recruitment targets 
        were VIP Protection Department, officers of other institutions, 
        Lithuanian politicians, and state servants. With the help of 
        the recruited law enforcement officers (VIP Protection 
        Department), the FSB had intentions to penetrate other 
        Lithuanian state institutions, among them--the President 
        Palace. FILIPCHENKO was looking for a VIP protection officer 
        who could arrange possibility for FSB to plant bug into 
        Presidential Office and residence.
  --During the parliamentary elections in Lithuania in October 2016, 
        when RIS extensively focused on the collection of the 
        information about domestic political situation and the 
        recruitment of Lithuanian citizens who could provide such 
        information.

2. Increasing Russian Cyber Intelligence Attacks

    RIS is more often using increasingly sophisticated cyber attacks 
for intelligence collection and against high value political and 
economic targets.

  --In autumn 2016 GRU related Internet hacker group SOFACY (APT28) 
        conducted attack against several members of Lithuanian 
        parliament. With the help of social engineering the GRU tried 
        to penetrate Parliament computers, gain their control and 
        overtake the information stored there. The cyber attack against 
        members of the Lithuanian Parliament was a part of SOFACY 
        attack series against NATO and Ukraine targets. We assess that 
        in the near term Russian intelligence services will continue to 
        organize cyber attacks against NATO countries.

3. Wide Scope of Russian Technical Intelligence Capabilities

    Russia has a wide scope of technical capabilities to intercept, 
decrypt and process electronic communications. It uses stationary 
technical intelligence centers in Kaliningrad oblast, mainland Russia 
and Belarus, as well as mobile land, air and sea units.

  --In June 2013 a couple of phone conversations between Lithuanian MFA 
        diplomats in Vilnius and diplomats posted to Hungary and 
        Azerbaijan were released to YouTube. Diplomats informally 
        discussed Lithuanian relations with Armenia and Azerbaijan. It 
        was Russian active measures operation aimed to discredit 
        Lithuanian EU Presidency and instigate internal tensions in 
        Lithuania. Conversations were intercepted by Russian electronic 
        intelligence unit.

4. Investment in IT Projects As Intelligence and Subversion Threat

    Russia has traditionally used supply of energy resources, 
investment in strategically important sectors of economy and trade 
relations as a tool to influence domestic and foreign policy of 
Lithuania as well as other countries. Lithuanian energy and economic 
dependency on Russia is decreasing, however, Russia is inventing novel 
ways to use its economic resources to increase its influence 
capabilities.

  --The company based in Lithuania and owned by Russian citizens, who 
        have ties to Russian Federal Security Service, is planning to 
        launch data center project Amber Core that would be a biggest 
        data center in the Baltic region. Data center project poses a 
        threat to Lithuania's national security. It is probable that 
        after the construction of the data center the FSB would acquire 
        the possibility to overtake the data of Lithuanian and foreign 
        state institutions stored there and by such means to collect 
        intelligence information. If state institutions, banks, 
        telecommunication enterprises become the clients of the data 
        center, Russia would acquire the possibility to undermine 
        Lithuanian state management and functioning of the economy in 
        order to implement its political, economic and military 
        interests.

5. Russian Propaganda and Disinformation Activities

    Russia pursues to influence Lithuanian and Western audiences by 
setting up and promoting international media channels that spread its 
views and disinformation on the sensitive topics--such as migration 
crisis, terrorism, ethnic relations, deployment of NATO troops in 
Central and Eastern Europe etc.

  --The most active propaganda project of Russia's international media 
        outlet ``Rossyia Segodnia'' in Lithuania is website 
        Baltnews.lt. It realizes Russia's informational and ideological 
        policy, disseminates articles which cover main narratives of 
        Russian propaganda. Baltnews.lt gets funding from ``Rossyia 
        Segodnia'' in a complex and non-transparent financial scheme 
        through intermediary companies in foreign states.
  --A new ``Rossyia Segodnia'' propaganda project ``Sputniknews.lt'' 
        was launched in Lithuania in December 2016. ``Sputniknews.lt'' 
        is oriented in Lithuanian-speaking audience, but for the moment 
        failed to gain any popularity.
  --The most recent example of information attack was attempt by 
        Russian media outlets and pro-Russian activists in February 
        2017 to the spread the fake news that German soldiers stationed 
        in Lithuania were culpable for the rape of the teenage girl. 
        This particular piece of disinformation failed to attract 
        attention of mainstream media, but the like information attacks 
        against NATO military personnel deployed in the region are 
        highly likely to be repeated in the future.

6. Russian Political and Social Influence Activities

    Moscow's attempts to regain the influence in the post-Soviet region 
materialize in Russia's efforts to weaken Lithuania's social integrity 
and to escalate intra-ethnic tensions. Russia employs so call 
compatriot policy to achieve that. Kremlin's aim is to discredit and 
hinder any efforts made by the authorities' to carry out a successful 
integration of national minorities.

  --The main goal of Russia's compatriot policy in the Baltics is to 
        incite ethnic tensions. The Fund to Support and Protect the 
        Rights of Compatriots Living Abroad, which was established by 
        the Russian Ministry of Foreign Affairs and the Federal agency 
        ``Rossotrudnichestvo'', finances two Lithuanian-based 
        organizations, which try to fuel ethnic tensions within 
        Lithuania. Centre for the Protection and Research of 
        Fundamental Rights uses various international human-rights 
        events to blame Lithuania for violating the rights of ethnic 
        communities. Independent Human Rights Centre, takes part in 
        pro-Russian propaganda campaigns against the US and NATO. Both 
        organizations receive nearly 100 thousand euro from the fund 
        every year. Vladimir POZDOROVKIN, current coordinator of the 
        Baltics in the fund, had been the chief of SVR under a 
        diplomatic cover at the Russian Embassy in Vilnius from 1994 
        till 1996.
  --Russian Embassy in Lithuania directly controls, coordinates and 
        finances activities variety of pro-Russian organizations, clubs 
        and groups ranging from political protests to cultural events. 
        Despite the fact that pro-Kremlin political parties or NGOs 
        currently fail to gain wider support, their representatives are 
        constantly used as information sources for Russian propaganda, 
        because mostly their political actions and ideas coincide with 
        Russia's viewpoint. One of the most popular ideas suggested by 
        these political organizations is the idea of Lithuania's 
        neutrality and withdrawal from NATO.

7. Belarus As a Base of Russian Influence and Agression

    Close military and intelligence cooperation between Russia and 
Belarus and significant Russian influence in Belarusian society poses a 
significant threat to Lithuanian national security.

  --In 2014 Belarusian intelligence operation against Lithuanian 
        military communications system was terminated. Belarusian 
        military intelligence (GRU) undercover officer Sergey KURULENKO 
        carried out the operation. He tried to collect information 
        about fiber optic cable network of national Lithuanian air 
        navigation system. The cable was also used by the military, 
        among other for NATO communications. Due to close military 
        cooperation between Belarus and Russia, it is highly likely 
        that the Belarusian GRU shared the collected information with 
        the Russian military intelligence GRU.
  --Approximately 100 pro-Russian groups are active in Belarus. Many of 
        them are paramilitary patriotic groups, some of them related to 
        Belarusian Cossacks movement. These groups are most active in 
        Belarus regions bordering Lithuania and Poland. Cossacks played 
        significant role in the Russian hybrid warfare against Ukraine, 
        including the Crimea takeover operation. Belarusian Cossacks 
        and other pro-Russian paramilitary groups operate in the same 
        fashion as in Ukraine, using representatives of Russian 
        Orthodox Church as liaison officers for the Russian 
        intelligence services. Pro-Russian groups in Belarus can be 
        used by Russia to pressure Belarusian president Alexander 
        Lukashenko as well as various operations (provocations) against 
        the NATO member countries, e.g. Lithuania and Poland. Such 
        provocations are highly likely during the ``Zapad 2017'' 
        military exercise.

                                ANNEX 2

  Main Facts About the Ostrovets Nuclear Power Plant (NPP) Project in 
                                Belarus

  --Belarus is implementing the NPP project \1\ in violation to the 
        international nuclear and environmental safety requirements and 
        without respect to the principles of openness, transparency and 
        good neighbourliness. That was recognized internationally:
---------------------------------------------------------------------------
    \1\ The Ostrovets NPP in Belarus is situated in the North-Western 
part of Belarus, Grodno oblast, near Ostrovets (coordinates 
544519.6"N 260528.9"E). The distance from the construction site to 
the Lithuanian capital Vilnius 40 km, to the Lithuanian (and external 
EU) border 20 km. The NPP will have two units with VVER-1200 reactors 
(output capacity up to 2x1200 MW, operating lifetime--60 years). The 
first unit of the NPP is scheduled for launch in 2019, the second--in 
2020. The contractor general--Rosatom's subsidiary company--
Atomstroyexport (Russia). Project financed by Russia.
---------------------------------------------------------------------------
    --The Meeting of Parties (MOP) of the Espoo Convention \2\ and the 
            MOP of the Aarhus Convention \3\ acknowledged that Belarus 
            was developing the NPP project in violation to the 
            mentioned Conventions (decision VI/2 of the Espoo 
            Convention MOP--ECE/MP.EIA/20.Add.1, decision V/9c of the 
            Aarhus Convention ECE/MP.PP/2014/2/Add.1).
---------------------------------------------------------------------------
    \2\ Espoo Convention--UNECE Convention on Environmental Impact 
Assessment in a Transboundary Context.
    \3\ Aarhus Convention--UNECE Convention on Access to Information, 
Public Participation in Decision-making and Access to Justice in 
Environmental Matters.
---------------------------------------------------------------------------
  --The Ostrovets construction site was selected prior to the start of 
        the transboundary environmental impact assessment (EIA), 
        without seismic, geological and hydrological research and 
        without consultations with the immediate neighbours, i.e. 
        Lithuania. This constitutes serious violations of the Espoo, 
        Aarhus and the Nuclear Safety Conventions.
  --Belarus sidesteps from its international obligations: the 
        accomplishment of the International Atomic Energy Agency's (the 
        IAEA) specialised mission for site and design evaluation (Site 
        and External Events Design (SEED) mission) and the risk and 
        safety assessments (the stress tests) in line with the 
        declaration signed with the European Commission on 23 June 
        2011. Despite Lithuanian requests and the recommendations of 
        the Espoo Convention to look into the site selection process 
        and scientific researches of the sites, the IAEA SEED mission 
        invited by Belarus was incomplete and was not tasked to assess 
        site related issues.
  --In 2016, at least six incidents occurred at the Ostrovets NPP. Two 
        of the incidents included the reactor vessel--one of the most 
        important safety components of a NPP. In all the cases Belarus 
        tried to conceal the information about the incidents and after 
        it appeared in the independent media, Belarus either denied it 
        or attempted to downgrade the consequences. The recurrent 
        incidents at the Ostrovets NPP reveal serious problems with the 
        work and safety culture and raise reasonable doubts regarding 
        the competence and independence of the Belarus nuclear safety 
        regulator ``Gosatomnadzor'' that is currently the department 
        within the Ministry of Emergency situations of Belarus. It also 
        indicates the lack of transparency and openness in the 
        implementation of the project.

                Ostrovets NPP: A Multidimensional Threat

    Environmental threat. The implementation phase of the Ostrovets NPP 
project was commenced before the start of the transboundary 
environmental impact assessment (EIA), without the obligatory seismic, 
geological and hydrological research. Lithuania holds that the 
transboundary EIA is still pending, as Lithuanian questions regarding 
the potential impact on its environment and population have not been 
answered, public hearings for the Lithuanian public have not been 
arranged, consultations with Lithuania in line with Art. 5 of the Espoo 
Convention have not been organised.
    Radiological threat. Belarus selected the Ostrovets site that is 
20 km from the Lithuanian border and 40 km from the Lithuanian 
capital Vilnius without obligatory assessment of population density in 
the territory of Lithuania and without assessment of feasibility to 
implement emergency preparedness and response arrangements in case of a 
nuclear accident, although it is required by the IAEA. In case of an 
accident at the Ostrovets NPP, \1/3\ of Lithuanian population (within 
the radius of 100 km from the Ostrovets NPP) could be affected. Need 
for evacuation of the Lithuanian capital Vilnius, where all the 
Governmental institutions are based, cannot be excluded.
    Unfair competition. Belarus is constructing its NPP with a prospect 
of electricity export to the European market; however, Belarus has no 
necessary infrastructure neither for the operation of the NPP, nor for 
the electricity export, but expects to make use of the Lithuanian 
infrastructure, including the newly build power interconnections with 
Poland and Sweden. Belarus does not invest into nuclear and 
environmental safety in order to reach the level set by the 
international safety standards, thus creating the potential for 
distortions in the European electricity market. Furthermore, attempts 
to evade from needed investments into adequate safety of this project 
distorts the competition in the nuclear industry globally. It is of 
utmost importance to ensure that electricity trade with third countries 
follows the rules of fair competition (level playing field) and that 
electricity produced in violation to the international nuclear and 
environmental safety standards would not be accepted in the European 
electricity market.
    Military threat. For the physical protection of the Ostrovets NPP 
Belarus created a new military unit No. 7434 under the command of 
Lieutenant Colonel Viktor Zhadobin. It will consist of 300 military 
personnel that is trained not only in Belarus, but also in Russia.\4\ 
In February 2017, the military unit was located in the place of 
permanent deployment. Moreover, in 2016, Belarus started the 
construction of the military base for the Air Force and Air Defence 
units for the security needs of Belarus NPP.\5\
---------------------------------------------------------------------------
    \4\ ``The military unit for the protection of BelAES will be 
located at the site of a permanent deployment in early January'' http:/
/www.atom.belta.by/ru/belaes_ru/view/voennaja-chast-po-oxrane-belaes-
razmestitsja-na-meste-postojannoj-dislokatsii-v-nachale-janvarja-8954/.
    \5\ ``First stage of military base to guard Belarusian nuclear 
power plant ready in 2016'' http://atom.belta.by/en/belaes_en/view/
belaes_en/view/first-stage-of-military-base-to-guard-belarusian-
nuclear-power-plant-ready-in-2016-8091/t_id/1.

     Population within the range of 100 km from the Belarus NPP & 
                            Kaliningrad NPP
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    International Atomic Energy Agency (IAEA) on emergency preparedness 
and response: territories within the radius of 100 km can require 
evacuation within a day and relocation within a week to a month.
    Belarusian authorities agree that there is a possibility for the 
radiological impact to the environment and people: \6\
---------------------------------------------------------------------------
    \6\ Based on A.N. Rykov, Director of Belinipenergoprom, 
presentation, 16-06-2010.

  --1000 km--possible short-term restriction for consumption of locally 
        produced food;
  --300 km--possible long-term restriction for consumption of certain 
        types of food;
  --100 km--possible need for iodine therapy.

    Senator Graham. Well, thank you. That is the model for the 
rest of us right there. You nailed it. Lithuania is doing well.
    Senator Leahy. Get out the checkbook.
STATEMENT OF HON. EERIK MARMEI, AMBASSADOR, EMBASSY OF 
            ESTONIA
    Ambassador Marmei. Thank you. My name is Eerik Marmei. I am 
the Ambassador of Estonia.
    Chairman Graham, Ranking Member Leahy, Members of the 
subcommittee.
    Thank you for the invitation to testify before the United 
States Senate Appropriations Subcommittee on State, Foreign 
Operations, and Related Programs. It is an honor to be here.
    First, let me emphasize how important the United States' 
steadfast support for the freedom and independence of Estonia 
has been. Our membership in Euro-Atlantic institutions is the 
cornerstone of our prosperity and security, and we are mindful 
of the role the United States has played in supporting and 
assisting us.
    As Russia's immediate neighbor, Estonia would like nothing 
more than to have good relations with a democratic Russia, 
including prosperous trade and active everyday relations at all 
levels of society. But shared commitment to the core values of 
democracy, human rights, and the rule of law are indispensable 
pillars for good, neighborly relations.
    We should not be guided by wishful thinking, but by real 
facts. Examples of Russian malign activities in Europe, to name 
but a few, include the Russia-Georgia war, the annexation of 
Crimea, the war in eastern Ukraine, provocative activities by 
the Russian military, and interference in Western democratic 
processes including elections. We have learned that inadequate 
responses to such behavior can only feed future transgressions.
    I would like to stress that Russia's ambitions and 
activities are not only of concern to NATO's eastern flank or 
the countries represented at this hearing, but are influencing 
all our allies in the West. Therefore, it is essential not to 
regionalize the Russian threat to Eastern European countries, 
but to clearly recognize that the threat of Russia's subversive 
methods has expanded far beyond the eastern flank of Europe, 
including to the United States. We, as neighbors to Russia, are 
just a bit more used to witnessing such behavior.
    Upcoming elections in the Netherlands, France, and Germany 
are a perfect theater for the Russian disinformation warriors.
    The goal of Russia's influence and activities in Europe is 
to create tension and sow confusion between European Union 
member states and within individual states. By doing so, the 
Kremlin hopes to influence the decisionmaking process and steer 
the narrative and outcomes towards its own interests.
    The illegal annexation of Crimea in March 2014 succeeded 
largely because of a successful information war that allowed 
Russia to avoid a direct military confrontation. It can be 
expected that Russia will use this tactic--extensive 
manipulation of information--to support its military goals in 
order to achieve strategic advantage in the future as well. 
This forces the adversary to doubt and verify the facts, thus 
delaying its response.
    The unity of the West, joint action, and the decision to 
stay the course towards Russia has been the strongest message 
in response to Russian actions so far. To be credible, we need 
to stand by our values and be consistent in our policies. We 
need to take into account that Russia sees itself being in a 
confrontational era with the West for a long time.
    We, the West, need to address the subversive actions in a 
systematic and coordinated way within the European Union and 
NATO, but also in cooperation between these two organizations. 
This should be done in very practical terms. We need to share 
more intelligence on Russia's subversive methods and to decode 
the Russian hybrid method playbook.
    We need to raise the awareness of decision makers and the 
public at large in order to limit the ability to abuse the open 
nature of our societies. We can do it by exposing or countering 
Russia's malign tactics such as covert support to political 
parties and politicians, seemingly innocent NGO's or economic 
leverage gained through murky business connections. Also, 
transparency, regulation, and anti-corruption measures can, and 
should be, strengthened.
    The Kremlin makes extensive use of Russian and foreign 
language media outlets, as well as countless fake social media 
accounts. Merely constant reaction to propaganda is not enough 
and can sometimes even be counter-effective.
    The quality of strategic communication capabilities, and 
the formation of our own messages, needs to be improved. The 
effect of disinformation can be diminished by enhancing 
critical reading skills within intended audiences. The best 
medicine against disinformation is an open and free, high 
quality, and pluralistic media environment offering a variety 
of voices and opinions.
    I firmly believe this subcommittee plays an important role 
in effecting positive change in the areas I have described 
above.
    Funding for initiatives that fall under the State 
Department, USAID, the Broadcasting Board of Governors, the 
National Endowment for Democracy, to mention but a few, can all 
contribute to building capability and resilience in Europe in 
order to counter changes Russia is trying to achieve.
    Thank you again for the opportunity to provide you with my 
thoughts and I look forward to answering your questions.
    Thank you.
    [The statement follows:]
                Prepared Statement of Hon. Eerik Marmei
    Chairman Graham, Ranking Member Leahy, members of the subcommittee,

    Thank you for the invitation to testify before the United States 
Senate Appropriations Subcommittee on State, Foreign Operations, and 
Related Programs. It is an honor to be here. We are here to discuss an 
important topic: Russia and Europe.
    First, let me emphasize how important the United States' steadfast 
support for the freedom and independence of Estonia has been. Your non-
recognition policy helped carry us through the darkest days of Soviet 
occupation and we thank you for your unwavering support to join the 
family of nations since we regained our independence. Our membership in 
Euroatlantic institutions is the cornerstone of our prosperity and 
security and we are mindful of the role the U.S. has played in 
assisting us.
    As Russia's immediate neighbor, Estonia would like nothing more 
than to have good relations with a democratic Russia, including 
prosperous trade and active everyday relations at all levels of 
society. But shared commitment to the core values of democracy, human 
rights and the rule of law are indispensable pillars for good-
neighborly relations. Those values have underpinned the post-war 
international order and we should not abandon them. It is now up to 
Russia to honor those fundamental principles.
    We shouldn't be guided by wishful thinking but by real facts. 
Russia has demonstrated time and time again that it cannot be trusted. 
There is a disturbing pattern of aggressive behavior that dates back at 
least to 2008. We have learned that inadequate responses to such 
behavior can only feed future transgressions.
    Examples of Russia's malign activities in Europe, to name but a 
few, include the Russia-Georgia war, the annexation of Crimea, the war 
in Eastern Ukraine, provocative activities by the Russian military, and 
interference in Western democratic processes, including elections.
    I would like to stress that Russia's ambitions and activities are 
not only of concern to NATO's eastern flank or the countries 
represented at this hearing, but are influencing all our allies in the 
West. We, as neighbors to Russia, are just a bit more used to 
witnessing such behavior. Upcoming elections in the Netherlands, 
France, and Germany are a perfect theatre for the Russian 
disinformation warriors. Therefore, it is essential not to regionalize 
the Russian threat to Eastern European countries, but to clearly 
recognize that the threat of Russia's subversive methods has expanded 
far beyond the ``Eastern flank'' of Europe, including to the United 
States.
    The goal of Russia's influence and activities in the European Union 
is to create tensions and sow confusion both between member states and 
within individual states. By doing so, the Kremlin hopes to influence 
the decisionmaking process and steer the narrative and outcomes towards 
its own interests.\1\ Russia sees the problems ailing the European 
Union--including Brexit, the migrant crisis and the debt crisis--as 
signs of the weakening of the Western-led world order and it seeks to 
reconfigure power relationships in international politics.
---------------------------------------------------------------------------
    \1\ Estonian Information Board, 2017. International Security and 
Estonia. http://teabeamet.ee/pdf/EIB_public_report_Feb_2017.pdf.
---------------------------------------------------------------------------
    The Kremlin makes extensive use of Russian- and foreign-language 
media outlets, as well as countless fake social media accounts. The 
fabricated information often falls on fertile soil in certain circles 
in the EU, who further disseminate the Kremlin's talking points.
    The illegal annexation of Crimea in March 2014 succeeded largely 
because of a successful information war that allowed Russia to avoid a 
direct military confrontation. It can be expected that Russia will use 
this tactic--extensive manipulation of information to support its 
military goals in order to achieve strategic advantage--in the future 
as well. This forces the adversary to doubt and verify the facts, thus 
delaying its response.\2\
---------------------------------------------------------------------------
    \2\ Ibid.
---------------------------------------------------------------------------
    To carry out its foreign policy goals, the Kremlin is increasingly 
reliant on right- and left-wing populist parties arrayed against or 
frustrated by the European Union and NATO. Open or covert sponsoring of 
the numerous populist anti-establishment far-right and far-left 
political movements across Europe lends the Russian message credibility 
and allows it to distance itself officially. We have also seen how the 
Russian diaspora can be instrumentalized and how the Russian Orthodox 
Church and state monopolies can be mobilized to achieve their foreign 
policy goals. President Putin has even managed to use history as a tool 
of warfare.
    The best way to build resilience against Russia's malign influence 
is to make sure our own house is, and remains, in order. Cohesiveness 
of our societies, trust in government and sticking to our fundamental 
values make us less susceptible to such attempts.
    The unity of the West, joint action and the decision to stay the 
course towards Russia, has been the strongest message in response to 
Russian actions so far. To be credible we need to stand by our values 
and be consistent in our policies. We need to take into account that 
Russia sees itself being in a confrontational era with the West for a 
long time. Only a strong, united and efficient Europe can contribute to 
the fight against terrorism and also counter Russian malign influence. 
U.S. backing and cooperation, both with individual countries and 
through Euro-Atlantic institutions is vital to this effort.
    We, the West, need to address the subversive actions in a 
systematic and coordinated way within the EU and NATO, but also in 
cooperation between these two organizations. This should be in very 
practical terms: we need to share more intelligence on Russia's 
subversive methods--to decode ``the Russian hybrid method playbook''. 
We need to raise the awareness of decision makers and the public at 
large in order to limit the ability to abuse the open nature of our 
societies. We can do it by exposing or countering Russia's malign 
tactics such as covert support to political parties and politicians, 
seemingly innocent NGOs or economic leverage gained through murky 
business connections. Also, transparency regulation and anti-corruption 
measures can and should be strengthened.
    Merely constant reactions to propaganda is not enough and can 
sometimes even be countereffective. The quality of strategic 
communication capabilities and the formation of our own messages needs 
to be improved. The effect of disinformation can be diminished by 
enhancing critical reading skills within intended audiences. The best 
medicine against disinformation is an open and free, high-quality and 
pluralistic media environment offering a variety of voices and 
opinions.
    I firmly believe the subcommittee plays an important role in 
effecting positive change in areas I've described above. Funding for 
initiatives that fall under the State Department, USAID, the 
Broadcasting Board of Governors, the National Endowment for Democracy, 
to mention but a few, wisely chosen and strategically deployed, can all 
contribute to building capability and resilience in Europe in order to 
counter changes Russia is trying to achieve.
    In conclusion, I'm sure all the countries represented here would 
like to have good-neighborly and predictable relations with a 
democratic Russia that respects the core values of democracy and 
international law. Unfortunately for the time being, Russia remains a 
common concern for the West as it is an unpredictable and aggressive 
actor in Europe and beyond. Transatlantic unity and a clear, unwavering 
posture in our policy towards Russia will remain crucial in near 
future.
    Thank you again for the opportunity to provide you with my thoughts 
and I look forward to answering your questions.

    Senator Graham. Thank you all for coming and informing the 
subcommittee of what you face, a Parade of Horribles when it 
comes to Russia.

                         RUSSIAN HYBRID WARFARE

    Lithuania. There was a recent deployment of German soldiers 
to Lithuania to help train Lithuanian military. I have been 
informed that as soon as the soldiers from Germany arrived, 
there was an allegation that one of the German soldiers had 
raped a Lithuanian woman. Are you familiar with that?
    Ambassador Krisciunas. Yes, it did not take long, Senator, 
because right after German troops had arrived, because of the 
decisions taken in Warsaw for deployment, German troops are 
leading the battalion in Lithuania.
    It was almost like the second day or the next day of their 
arrival, after their arrival, there was news spread that a 
teenage girl was raped, allegedly, by German troops and it was 
absolutely nonsense. It was fake news. It was cooked and it was 
denied right away.
    But, of course, as you know with fake news, not all people 
are aware listening to the denouncement of this that it is not 
true.
    Senator Graham. Did it come from a Russian outlet, the 
news?
    Ambassador Krisciunas. Yes, that is what we suspect. It is 
always difficult to get a grip of where it comes from first. 
But yes, that is what we suspect because the very idea is very 
clear: that NATO troops in Lithuania are bad.
    Senator Graham. Have you experienced an uptick of Russian 
involvement since President Obama drew the red line in Syria 
against Assad and nothing happened, or has it been the same the 
whole time? Did that affect Russia's involvement at all or is 
it all about the same?
    Ambassador Teikmanis. Well, I would not say that there have 
not been some significant changes. While we have been 
experiencing Russian hybrid warfare already for 35 years, well, 
maybe we have become a bit more resilient to it. But certainly, 
it has never stopped.
    Certain narratives are not changing and certain methods are 
still being used. And in that sense, very much has been 
disclosed by journalists as to what are the methods, how 
trolling is being done, and where the fake facts are emerging.
    I would not say that the intensity has changed in the 
course of the last years, but it has not diminished.
    Senator Graham. Is it, then, constant Russian interference 
in your countries? Has it been constant? Is it on the rise?
    Ambassador Marmei. Yes, Chairman, it has been constant as 
my Latvian colleague said. We have experienced this for the 
past 25 years.
    I think what really opened our eyes was the 2007 cyber 
attacks against Estonia; that was politically motivated. And 
even today, the cyber domain remains one of the most important 
areas, and we really need to put more emphasis on this issue as 
well; bilaterally but also in NATO.

                             U.S. RESPONSE

    Senator Graham. What do you think the consequences would be 
if our country forgave and forgot the interference in our 
election by Russia? What kind of effect do you think that would 
have on Russia?
    The Foreign Minister from the Ukraine.
    Minister Klimkin. Actually, Russia has developed a very 
systemic way on how to use all kinds of unconventional warfare.
    Senator Graham. My question is what would the effect be if 
the United States did not act regarding the interference in our 
election? Would it embolden Russia?
    Minister Klimkin. Well, there should be a clear way of how 
to react to the Russian interference. Otherwise, the Russians 
are always good in exploiting weaknesses.
    Senator Graham. The Ambassador from Poland, do you agree 
with that?
    Ambassador Wilczek. I mean, it is difficult for me to make 
comments on what Americans should do, or should not do, or what 
would happen if Americans did not do something.
    But I think that investigations in such cases are essential 
in all countries and it cannot be covered up. It just should be 
investigated in every case.
    Ambassador Bakradze. To continue what my colleague from 
Poland just said, as I have mentioned in my remarks, as we 
think that international response on the invasion and 
occupation of Georgia was insufficient; that that might have 
led to the further operation of the Russian Federation towards 
the Ukraine, et cetera. I think that international response is 
generally necessary in the violation of international laws.
    Senator Graham. Thank you all. You will have a chance to 
tell the subcommittee specifically what we could do to help you 
regarding Russia on the power side.
    Senator Leahy.
    Senator Leahy. Thank you. This has been very instructive. 
Mr. Klimkin, am I pronouncing that correctly? Thank you.

                      RUSSIAN INVASION OF UKRAINE

    In 2014, since Russia's annexation of Crimea, the United 
States has supported the Ukrainian Government against pro-
Russian separatists.
    During our past election campaign, Mr. Trump said we might 
withdraw U.S. support, possibly as a deal with Vladimir Putin, 
and said that he would also look into recognizing and approving 
of Russia's annexation of Crimea.
    Have you or any other senior Ukrainian officials met with 
President Trump or Secretary Tillerson to discuss their policy 
toward the Ukraine?
    Minister Klimkin. I have just met with Secretary Tillerson 
a couple of hours ago, and it was a very strong message of 
support for Ukraine, and that any kind of tradeoffs is not 
possible. And our President had a phone conversation with 
President Trump, and it was the same, a very clear message.
    Senator Leahy. Did he say anything about Crimea?
    Minister Klimkin. No compromise about Crimea, and Crimea is 
the issue about rules and international law.
    Senator Leahy. How important is our aid to Ukraine?
    Minister Klimkin. The U.S. support and U.S. assistance, 
more security-related assistance, and reform-related assistance 
was and is fundamental for the Ukraine in the sense of our 
ability to counter Russian aggression and in the sense of us 
creating a democratic and European Ukraine.
    Senator Leahy. Thank you.
    Ambassador Wilczek, your country, Poland, is uniquely 
positioned geographically between the conflict between Russia 
and Ukraine.
    I assume Russia's deployment of nuclear capable missiles to 
Kaliningrad creates significant challenges for you, am I 
correct?
    Ambassador Wilczek. As I have just said, the deployment of 
these missiles to Kaliningrad is very essential for our 
security. It is a kind of, I think, it was a kind of 
breakthrough moment because it strengthens this feeling of 
insecurity and uncertainty.
    And it is not only about Poland. It is about the 
flexibility of NATO in this region, and it is also about the 
Baltic countries and other countries.
    So this area of the Kaliningrad region is an especially 
sensitive area. And as I said, it is the most militarized area 
in the whole of Europe, I think.
    Senator Leahy. Do you get support from NATO? Do you feel 
that NATO's support is strong?
    Ambassador Wilczek. Yes, we feel enormous support both from 
NATO and bilaterally from the United States. So I think that 
the whole project of deployment and deterrence is implemented 
right now. That we are still being supported fully by the 
United States is essential for our security and is very 
important.

                         RUSSIA AND THE BALTICS

    Senator Leahy. Do you, in the Baltic states, Latvia, 
Lithuania, and Estonia feel any greater or less concern about a 
Russian invasion since the elections here in the United States?
    Ambassador Teikmanis. I think we are concerned since 2014 
or even before that, since 2008, since Georgia or Ukraine.
    We are all concerned because we see the international 
rules-based order is being challenged. And that is a concern 
for all of Europe. It is a concern for all of NATO. And here we 
are considering that the most important principle is the 
indivisibility of NATO territory.
    And it does not matter which part of NATO can be 
challenged. It is a challenge for the whole of NATO in this 
sense: the assurances from NATO, the presence of NATO 
battalions, international battalions on Baltic soil, and 
reassurance given by the United States in particular, that 
gives a strong sense of a strong response to anybody who wants 
to challenge NATO as the strongest military organization. That 
is the only response we can expect from NATO and that is a 
response that is understandable by everybody.
    That gives us, as small nations, a good sense of assurance 
about our security, safety, and stability for the future.
    Senator Leahy. Does anybody disagree with that?
    Ambassador Marmei. If I just may add, Senator, I think what 
we have seen in the past 2\1/2\ years, with the two NATO 
summits, Wales in 2014 and Warsaw last year, have made very 
important decisions. It is important to implement those 
decisions, and we do not see any change in direction in that 
sense.
    This is my answer to the question: Is there a change of 
direction after the elections in the United States? No, we do 
not see that happening. Thank you.
    Senator Leahy. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Graham. Senator Moran.
    Senator Moran. Chairman, thank you very much.
    Mr. Minister and Ambassadors, thank you for joining us.

                            U.S. ASSISTANCE

    As we make decisions about spending money, taxpayer dollars 
of American taxpayers, what would you highlight for me as the 
priorities that we should have in the financial aid that we 
provide your countries? Is there a consensus?
    I mean, I am happy to have one or a few of you respond to 
that if there is consensus in what is the highest priority. 
Ambassador.
    Ambassador Teikmanis. Well, if I may.
    Probably the programs that have been already mentioned 
today, this is the European Reassurance Initiative or the 
Deterrence Initiative that has already started and financing is 
assured partly. We hope very much that this program will be 
financed fully and maybe even higher.
    As well, foreign military financing received by the Baltic 
States is a very crucial point of improving our resilience, our 
capabilities.
    And third, I would mention are the programs devoted to 
counter hybrid warfare. And these programs can be in different 
shapes, whether it is the strengthening of free media, 
independent media, or countering the propaganda, or countering 
hybrid attacks. All of these programs are doing very relevant 
work to increase resilience.
    Senator Moran. Does anyone wish to add or detract or 
subtract? Minister.
    Minister Klimkin. In the case of Ukraine, it is probably a 
bit different one, but in our case it is definitely about 
upgrading the Ukraine defense and security sector to the NATO 
standards.
    It is about permanent control. It is about training. And it 
is a two-way road because we understand now the sense of hybrid 
warfare and unconventional warfare.
    So it is about exchange, but it is also about weapon 
supplies, especially defensive weapon supplies.
    Senator Moran. Let me ask if any of you have other 
thoughts, if you would get that to the subcommittee, I want to 
ask a couple more questions. So if you can provide that answer 
in writing, I would appreciate it.

                    SANCTIONS AND THE EUROPEAN UNION

    Senator Moran. There are some EU members that are chafing 
at the continued imposition of sanctions against Russia.
    In your estimation, what do we need to do to keep EU 
unified in its support for those sanctions? And how significant 
is it that the United States continue its sanctions in that 
effort? Ambassador.
    Ambassador Marmei. Senator, as long as we keep to the 
principle of the Minsk Agreements, there will be unity on both 
sides of the Atlantic in the European Union and the United 
States.
    So this is a very clear message that we should send to 
Russia that Minsk is the basic fundamental agreement that has 
to be fulfilled by all parties. And as long as this is not 
done, the sanctions should continue.
    Ambassador Krisciunas. If I may, Senator, I would add that 
as long as the United States is strong on sanctions and we 
understand that that is the strongest tool we have in our 
toolbox. So that will unite Europe also.
    Senator Moran. U.S. leadership, if I can paraphrase, U.S. 
leadership matters in this regard.
    Ambassador Krisciunas. Yes.

                                 ENERGY

    Senator Moran. Let me ask a question about energy. There is 
a Rand Corporation study that indicates Estonia, Latvia, and 
Lithuania, and Poland are among the EU members most vulnerable 
to a problem with energy if Russia would take certain actions. 
And yet, there is a 2014 European Commission study that says 
that there are cooperative measures among the EU that could 
significantly reduce the impact of any short-term cutoff of 
supplies of energy.
    Are those measures in place, the things that are thought 
that could reduce the implications of an energy cutoff? Has the 
EU taken the steps necessary to mitigate the damage?
    Ambassador Krisciunas. I would say that building a LNG 
terminal in Klaipeda, Lithuania and building an LNG terminal in 
Poland has changed the situation quite substantially, 
especially for Lithuania and the Baltic States.
    We do believe we are strengthening our inter-linkages 
between Latvia, Lithuania, and Estonia. So we are able to get 
gas from anywhere including LNG from the United States, which I 
do expect to see in the future. So it is no longer possible for 
Russia to blackmail us on the gas.
    On electricity, we still have one big project to come 
synchronization with the Western European grid, which is 
important. It is quite an intricate project. It will take time 
to develop, but that will be the last straw in our 
independence. So that will make the Baltic States purely 
independent and self-sufficient in this regard.
    And I do believe that for the other countries it could be 
different.
    Senator Moran. Georgia and Poland.
    Ambassador Bakradze. Thank you very much. And let me 
combine it with your first question with regards to Georgia as 
a provider of an alternative diversified route for energy 
supplies for Europe, which is not dependent on Russia.
    We now have two pipelines. The third one is under 
construction, the Trans-Anatolian Pipeline. The importance of 
strengthening Georgia and stability in Georgia as one of the 
alternative routes and pathways to supplying the alternative 
energy sources for Europe is critical. And therefore one of the 
main attentions from the United States, we expect, is in the 
energy sector.
    Senator Moran. Thank you.
    Ambassador Wilczek. As far as energy cooperation is 
concerned, I believe and we believe in Poland that it should be 
based on mutual benefit. So it should be beneficial for those 
countries that cooperate, like the United States and the 
countries of Central Europe.
    So this LNG terminal in Poland mentioned by my Lithuanian 
colleague is a very important part of this project of 
diversification.
    There is also a project, which is in progress, of the 
Baltic Pipeline with Denmark and Norway. And, of course, there 
is the very important issue of Nord Stream 2 forced by Russia. 
This is a project which divides the European Union partners 
because, of course, it has been suspended for some time.
    But this is actually interesting that, as far as energy is 
concerned, the European Union should be also the energy union. 
This is an idea very much advertised by Poland that the 
European Union, if it is not an energy union, there is no 
union.
    So we really think about diversification and cooperation 
with the United States especially, as far as LNG is concerned, 
as very important for Central Europe.
    Senator Graham. Senator Coons.
    Senator Coons. Thank you, Mr. Chairman. In fact, I want to 
specifically thank you, Chairman Graham as well as Ranking 
Member Leahy for convening this hearing, and for assembling 
these important ambassadors and a foreign minister from vital 
European allies of ours. This has focused us in a bipartisan 
way on how we can confront Russian aggression together.
    I am encouraged by your call that we create a counter-
Russia account specifically to strengthen our allied and 
partner democracies.
    This week is the 150th Anniversary of the creation of the 
Appropriations Committee in the United States Senate, something 
that showed, I think, the wisdom of the founders in recognizing 
that having a strong hand for the Senate in the shaping of our 
investments, including those overseas, was something that has 
enduring relevance.
    I joined my colleague on this subcommittee, Senator Marco 
Rubio of Florida, last week in a bipartisan speech on the floor 
of Congress about the importance of countering Russian 
aggression. We reviewed many of the issues that were raised by 
the witnesses today based on trips that each of us have taken 
to your various countries. We heard from you directly about 
hybrid warfare; about the illegal and inappropriate invasion 
and annexation of Crimea and the ongoing conflict in eastern 
Ukraine; about the importance of our standing in solidarity 
with our allies in Poland and the Baltic States; and the real 
challenges that Georgia has faced, since it was the first of 
you to be illegally invaded, and to have some of its territory 
occupied in an ongoing, disruptive way.
    I just want to mention two bills here in the Senate that 
have already garnered bipartisan support for those who have any 
concern about the absences of bipartisanship here.
    The Counteracting Russian Hostilities Act has 10 Republican 
and 10 Democrat cosponsoring it. It would make Russia pay the 
price for its illegal annexation of Crimea, for the ongoing 
violence in eastern Ukraine, for their support of Assad's 
murderous regime in Syria, and their meddling in our own 
American elections last November.
    The other bill, led by Senator Graham, the Russian Review 
Act, would make certain that congress has to weigh in before 
sanctions against Russia could be waived. I am proud to be a 
cosponsor, as are many on this subcommittee, of these bills.
    We continue to believe that the transatlantic alliance is 
absolutely essential. It is a force for stability in the world, 
to maintain the world order that we worked together to build 
over the last seven decades.
    So let me ask a few questions, if I might.

                            U.S. LEADERSHIP

    There has been a rumored proposal by the administration to 
cut by as much as 37 percent our State Department and USAID, 
which are essential for the funding of many of the programs 
that we have been talking about.
    What would the absence of American leadership in this area 
mean for your countries? Would you feel safer in the face of an 
aggressive Russia if we were to cut back on programs that we 
have just discussed like Radio Free Europe/Radio Liberty; and 
other programs that support your resilience both in terms of 
your governance, democracy institutions, and in terms of our 
sustainment of some of the development initiatives?
    Would any of you care to speak to that question?
    Please, Mr. Ambassador.
    Ambassador Wilczek. Senator Coons, I think this is just a 
rhetorical question.
    Senator Coons. Yes.
    Ambassador Wilczek. We will not feel safer when the budget 
for such projects will be essentially cut. So we hope that it 
is just kind of deliberation tweaking, not really a decision 
because this sounds very dangerous.
    But we hope that it still can be changed, and people who 
think this way will change their minds because American 
leadership in this region is essential and you know this very 
well. That there is great support for American leadership in 
this part of Europe, perhaps more than in other parts of 
Europe.
    So we really rely, as countries of the region, on firm 
American leadership and support.

                         BROADCASTING PROGRAMS

    Senator Coons. On a visit I took last August, in addition 
to several visits by my colleagues, I heard about the 
importance of strengthening our investment in countering Russia 
Today, Sputnik, and other propaganda outlets.
    You referenced, Mr. Ambassador, the broadcasting from 
Latvia both for Voice of America, Radio Free Europe, and Radio 
Liberty.
    Tell me how Russian propaganda operations are affecting 
your country and how we might strengthen and expand our 
investment in counter Russian propaganda operations that would 
be more effective?
    Ambassador Teikmanis. Well, to give a short answer, 
probably we are less concerned in Latvia about Russia Today, 
because the programs of Russia Today are being broadcast in 
English.
    Russia has all the opportunities to broadcast in Russian. 
There are major television channels and that is what Russia is 
doing. And Latvia, as a democratic country, is not putting any 
barriers to free speech, to free broadcasting. While at the 
same time we are aware about the content of these programs, 
what is essential is to give an alternative to different 
sources, to reliable sources. To give an alternative of 
broadcasting in Russian, to be understandable, but to be 
objective, reliable, and different from those major television 
channels broadcasting from Russia.

                OVERSEAS PRIVATE INVESTMENT CORPORATION

    Senator Coons. One last question, Mr. Chairman, to the 
Ambassador from Georgia.
    I understand that the Overseas Private Investment 
Corporation (OPIC) has helped make possible significant 
programs in Georgia over the last 20 years in modernizing 
industries and in agriculture.
    Can you comment at all on the value of OPIC in helping make 
possible mutually beneficial programs in Georgia?
    Ambassador Bakradze. There are several programs that OPIC 
has implemented in Georgia which is really productive, not only 
for developing Georgia, modernizing its economic potential, but 
is also beneficial for both sides.
    And therefore in that regard, I can provide in a more 
detailed way by submitting in a written way more detailed 
information.
    Senator Coons. Terrific. Thank you, Mr. Ambassador.
    Thank you, Mr. Chairman, for your patience.
    Senator Graham. Thank you.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.

                                GEORGIA

    Ambassador Bakradze, in your testimony you talked about 
Russia creating borders on the edge of territory that is 
occupied in Georgia.
    Can you talk a bit about the recent closing of two of these 
controlled crossing points and the impact that it has had for 
Georgia's territorial integrity?
    Ambassador Bakradze. Thank you very much, Senator, for that 
question. Very recently, just 2 days ago, Russian controlled 
forces in the Abkhazia and occupied region have closed two 
checkpoints. That is affecting free movement of people. That is 
affecting free movement of school children over the occupation 
line.
    And we are really appreciative of a very strong statement 
that the State Department has made with regards to these 
developments.
    Also one more very recent development was the initiation 2 
weeks ago by the de facto Tskhinvali region authorities to hold 
a referendum about renaming this region into the one associated 
with one of Russia's autonomous republics. And we also 
appreciate the very strong statement that was made by the U.S. 
Department of State in this regard.
    These kinds of developments continue, but we believe in a 
peaceful resolution of this problem. We believe in the Geneva 
discussion where U.S. authorities are actively contributing.
    Thank you.
    Senator Boozman. Thank you. So you were pleased with the 
American response, then, in that regard?
    Ambassador Bakradze. There was a very strong statement just 
yesterday made by the State Department about the closure of 
these two checkpoints with explaining what kind of humanitarian 
difficulties it will create for those people residing adjacent 
to the occupation line.

                             U.S. PROGRAMS

    Senator Boozman. Let me ask all of you or just whoever 
wants to jump in.
    Which U.S. administered programs in your country seem to 
have the most impact? And are there ways that we can improve 
them? So, what is working? What programs do you like the most 
and how can we make them better?
    Yes, sir.
    Ambassador Bakradze. Thank you very much. We are really 
appreciative.
    We are celebrating 25 years of our diplomatic relations 
this year, and we believe that the U.S. assistance during these 
25 years were essential for the survival, for the 
transformation that Georgia has been through, for creating 
democratic institutions, solidifying civil society, and making 
new opportunities for our people.
    These are the assistance that comes through USAID that 
comes through FMA for supporting Georgia's resilience when it 
comes to the defense and security cooperation, and supporting 
Georgian democracy and the rule of law when it comes to the 
support of the United States.
    We believe there is space for more cooperation on trade, 
economic, and investment direction as we believe that security 
is also coming through economic means.
    Senator Boozman. Yes, sir.
    Ambassador Krisciunas. I would say that any support that 
you could give to Radio Free Europe and Radio Liberty in 
developing their content and strengthening their capacity to 
reach longer distances would matter a lot. So that is the most 
important.
    I, myself, I am still old enough to remember the Soviet 
times when my father was listening. I was a child at that time. 
My father was listening on the radio to Radio Free Europe and I 
know what kind of impact it was. It was eagerly sought every 
evening. There were always plenty of people in Lithuania 
sitting by the radio and listening to it. It was a word of 
freedom.
    So the more words of freedom you could express through the 
region, the more secure the region will be because that will be 
destroying the monopoly on news.
    Senator Boozman. So you like the contact, but strong 
broadcast.
    Ambassador Krisciunas. Yes.
    Senator Boozman. Very good. Yes, sir.
    Ambassador Marmei. Thank you, Senator.
    I would emphasize that in the Estonian case, the most 
efficient funding has come through for military funds and also 
ERI, or the European Reassurance Initiative; so most of the 
American taxpayers' money has gone to these capabilities, but 
also to infrastructure build up.
    We have received about $75 million from the ERI funding in 
the recent 2 years. And we have spent that money on 
infrastructure, but also on the capability development on the 
antitank weapons.
    Also IMF money, which is very important and hopefully it 
will be increased in the coming years, goes to the very 
important capability development.
    Thank you.
    Senator Boozman. Thank you, Mr. Chairman.
    Senator Graham. Very quickly.
    Ambassador Wilczek. Yes, if I can add just to what my 
Estonian colleague said.
    The European Reassurance Initiative is most important for 
us and we would like to thank you for just this great increase 
in this program from $1 billion to $3 billion. It is very, very 
essential.
    But also what my colleague mentioned as well, in all kinds 
of exchange of people, all kinds of programs, we do need Radio 
Free Europe and such projects, but not to such an extent as it 
was under communism. Now people can move and can visit each 
other's countries.
    So I think that support for programs like Fulbright and all 
kinds of exchange programs is also very, very important; just 
people going both ways and learning about each other. And I 
think that for strengthening American support, support of the 
American citizens and taxpayers, it is very important that 
American taxpayers also see our countries and see them thanks 
to exchange programs, which I think are now underestimated; 
their role is underestimated.
    Senator Graham. Thank you.
    Senator Durbin.
    Senator Durbin. Thank you very much.
    Ambassador Teikmanis. Just to add my support to what has 
been said of ERI and for the military financing. That is really 
a kind of value added above our own national contribution, 
national investment, and procurement programs that really gives 
a very focused strengthening of all the capabilities. Thank 
you.
    Senator Durbin. Thank you very much, Mr. Chairman. Thank 
you for being here.
    Each of you is welcome to come back to or to visit Chicago, 
which I am honored to represent, where you will find many 
people from your homeland, and you will find many great 
restaurants. Estonia? Not too sure. [Laughter.]
    But for the rest, I guarantee it. It will be well worth the 
journey and we would be honored to have you visit.
    So 3 weeks ago, we had our first break and I decided to 
visit Warsaw, Vilnius, and Kiev for the very reason that we are 
meeting today. Because I knew there was anxiety and concern 
about the future of NATO and the future relationship between 
the United States and your countries.
    And it was a good visit. There were many things I came home 
with from having met with President Poroshenko, having met with 
President Grybauskait?, and with the leaders in Poland, as well 
as so many other countries.
    But I remember one comment particularly from 4 days in 
travel. The man's name was Zbigniew Pisarski, he works for the 
Casimir Pulaski Foundation. We had dinner in Warsaw and he 
asked me a question which goes to the point of the opening made 
by the chairman.
    He said, ``We are wondering if the United States does not 
take the Russian invasion into your election seriously, will 
you take the Russian invasion into Poland seriously?''
    I thought about that question. I have thought about it ever 
since. And I want to salute the chairman here, who has been one 
of the few who has been willing to step up and speak out about 
how this outrage of the cyber attack by the Russians into the 
American election should not go unnoticed and certainly should 
be responded to.
    It is a starting point to our credibility when it comes to 
our relationship with Russia. And I thank you, Mr. Chairman, 
for what you said earlier.
    I could go through a litany, I will not, of my concerns on 
the security side, and most of them have been touched on here 
whether it is Kaliningrad or whether it is the Zapad which the 
Russians are planning to put 100,000 Russian soldiers into 
Belarus in September on the borders of Lithuania, and Poland, 
and the Ukraine.
    And there is a serious concern about what they might do 
next after we have seen what they have done in the Ukraine and 
what they could do with these troops on the border there for 
this so-called military exercise.
    We are concerned about the hybrid war. I had not heard that 
term before, but I heard it throughout my visit. The hybrid 
war, and not just the military side of it, but the cyber side 
of it and the propaganda side of it.

                          U.S. AND NATO FORCES

    I guess my question, in addition to my suggestion. Number 
one, Mr. Chairman, that when we commit NATO forces and our 
allies--Germany in Lithuania, I believe it is UK in Latvia, am 
I correct on that, and Canada into Estonia--I would hope the 
United States would always have a complement of our uniforms 
and forces as part of it.
    It is not a negative thing in terms of their capability, 
but it is a demonstration, a symbol, that the United States is 
committed to this NATO alliance in every one of these 
deployments.
    The other thing I would hope is that in the Ukraine, your 
president, I said to him, ``What do you need?'' And he said, 
``In the Budapest Agreement, we gave up 1,000 nuclear missiles. 
Can you give us 1,000 antitank missiles?'' And I understood 
what he was saying. They need that for the protection of the 
Ukraine and to stop any incursion of Russians into the rest of 
your country.
    But the point I want to get to is this, Mr. Chairman, and 
that is we have to learn what they have already experienced. We 
have to learn what the Russians have done to you, which led to 
decisions in Lithuania to suspend RT for a number of months 
which led, at some point, to a cyber attack on Estonia, which 
crippled your economy. You have been through these experiences. 
Now we are being threatened with the same thing.
    We can teach you many things about the military. You can 
teach us about these other aspects of the hybrid war and 
prepare us so that the next election is not another victim of 
Russian aggression.
    I know you have talked about this, and I will not dwell on 
it any further because I know Senator Van Hollen would like to 
ask questions too.
    But I thank you all for coming. We value your friendship. 
We value this alliance. It is strong, bipartisan strong in 
Congress.
    Thank you.
    Senator Graham. Very quickly.
    Ambassador Marmei. If I can just respond to Senator Durbin. 
What he raised is a very important issue is the American troop 
presence in the Baltic States.
    You correctly mentioned that there will be an enforced 
forward presence of NATO. As we speak, the British, actually 
are moving into Estonia with 1,200 men. There will be full 
operational capability of these forces by June this year.
    But what I want to emphasize here, and you pointed out, is 
that the American presence in the Baltic States should remain. 
We have company-sized units in each country right now, and we 
would like to see them being embedded to that battalion.
    Ambassador Krisciunas. Chairman, if I may. Supporting 100 
percent what was told by my colleague from Estonia.
    But I just wanted to thank Senator Durbin for his visits to 
those important capitals he mentioned. Those are also very 
important. So it is a part of showing our partnership to the 
world that we are strong together. And so it is very important.
    And I am very encouraged and thankful to all the Senators 
who are visiting our countries to send this very strong 
partnership message. And there are plenty of Lithuanian 
restaurants in Chicago.
    Senator Graham. On that note, Senator Blunt.
    Senator Blunt. Well, thank you, Chairman.
    And I have been in five or six of your countries. I was in 
Estonia a year ago in September, when we had a Reserve A-10 
Unit there from Whiteman Air Force Base in Missouri, and they 
were back again for an even more extended period of time this 
year.
    But following up on what Senator Durbin said, and it was 
really the question I wanted to pursue anyway.
    We clearly understand Russian improper involvement in our 
elections. It is a wide belief that they are currently involved 
in both the upcoming German and the upcoming French elections. 
But you all have experience with this as well.

                         RUSSIAN HYBRID WARFARE

    And I wondered if you want to share, maybe one at a time, 
some sense of what you saw through RT or through manipulation 
of your infrastructure in ways where you feel like the Russians 
were improperly involved. Or everybody, maybe in a couple of 
cases, understands improper involvement in your election 
situation, if you could share some of that with us that would 
be helpful.
    And I am wondering if we could just start maybe, Ambassador 
Marmei, with you?
    Ambassador Marmei. Thank you, Senator.
    I think one of the very clear operations of influence that 
I mentioned earlier also was the cyber attack in 2007. We see 
those cyber hackings on a daily basis. It is continuous.
    I think it is also important to point out that the Kremlin-
backed Russian language television and media channels are 
trying to influence the Russian speaking population in Estonia 
and in other countries. It is not specifically an Estonian 
issue. It is everywhere else. We have to really deal with this.
    We have, 2 years ago, opened an Estonian broadcasting 
company Russian language channel to counter that propaganda.
    I think what we see is also a lot of intimidation when it 
comes to the security of our borders and airspace; the 
violation of air and maritime borders. We had to deal with this 
as well.
    We have to deal with the support of, or the influence of, 
the NGO's in our countries as well and also academia.
    Senator Blunt. That would be Russian influence.
    Ambassador Marmei. Yes, sir.
    Senator Blunt. I am going to run out of time here.
    I will say that the visit that I made there a year ago, I 
think 1 of the 2 days that I was there with our A-10 pilots, 
the Russians were practicing invading Estonia 20 miles away 
from the Estonian border, and it was very publicly clear that 
that was the purpose of that exercise.
    Mr. Krisciunas, anything in Lithuania you would want to 
talk about?
    Ambassador Krisciunas. Well, I would say, Senator that of 
course it is difficult to influence the election in Lithuania 
probably for Russian propaganda, even though I would say they 
are clearly probably trying in there.
    But because in Lithuania, there is almost like 80 percent 
support of EU membership and NATO, so it is very difficult. It 
is not popular to go against those topics which Russia would 
like to destroy.
    So what we see is the efforts by some media outlets to put 
doubt on NATO relevance or to be cooked with fake news which 
would show to the Lithuanian public that, ``The Americans are 
not with you. They are looking the other way,'' and things like 
that.
    So the fake news of a similar nature would be the ones 
which are being cooked in Lithuania, trying to cast a doubt, of 
course, in general of the people believing in the government, 
believing in the NATO and trying to push, for example, NATO. 
Let us be neutral. ``Why should Lithuania be a NATO member? Let 
us be neutral.''
    So it seems like it is a very vague message. It is not like 
against NATO but, ``Why are we not neutral? We are not a 
militaristic Nation,'' and so on. So that is the kind of news 
which is being probably most exploited in Lithuania.
    Senator Blunt. Ambassador Teikmanis.
    Ambassador Teikmanis. Well, I can join the assessment of my 
colleagues in three directions we are facing when we see hybrid 
warfare.
    One is Russian television channels that are broadcasting in 
Russian. And the major narrative is probably linked eternally 
to the Baltic States, but also to the European Union.
    And its narrative tells us that, ``The European Union is 
economically collapsing, and that was a great strategic mistake 
by the Baltic States to have joined to the European Union. And 
the only way to get back to prosperity and welfare is to come 
back to Russia and through the Russian economy, get to high 
welfare.''
    Another way is financing of NGO's. While the people in the 
NGO's are not so numerous--and each of them are working at 
several NGO's--they are financed by different kinds of Russian 
Foundations, and have very nice names linked to the 
``protection of human rights,'' or ``European research,'' or 
whatever. And they are pretending to be fighting for the rights 
of Russian speakers while allegedly developing another 
narrative that Russian speakers in, for instance, Latvia are 
abused and facing massive abuse of their human rights.
    And probably the third I would mention is rather strong 
work in social media spreading out different fake news and 
trolling.
    Or as we saw quite recently--well, that is another 
indication probably whether the news is important--for warfare 
just when preparation for Atlantic Resolve started and U.S. 
troops started to move to Poland from Germany. Well, the news 
headline appeared on different websites that over 3,000 NATO 
tanks were rolling towards the Russian border. Well, that was 
spread out in news lines and social media.
    Senator Blunt. Well, thank you.
    I think the point, Chairman, here is well taken that there 
is a lot we can learn by sharing what we learned from what 
happened here, but also looking at what our friends have 
consistently dealt with for two decades now. And thank you for 
letting me use a little extra time.
    Senator Graham. Absolutely. As a matter of fact, I think 
that is one of the central questions of this whole hearing.
    If the ones who did not comment could put into writing 
examples of interference in your election system, that is very 
important.
    Senator Graham. Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman, and thank you, 
Mr. Minister, and Ambassadors for your testimony today.
    Mr. Chairman, it is great to be on this subcommittee. And I 
want to join our colleagues on a bipartisan basis to thank you 
for your leadership in general and for putting together this 
hearing because Russian interference in our elections is not a 
democratic party issue. It is not a republican issue. It is an 
American issue. In fact, it is an issue obviously important to 
democratic countries around the world, as all of you are 
testifying to today.
    You have had this experience over many, many years with 
both the military challenges and threats, but also the 
intimidation through various means of propaganda. The 
propaganda invasion is a little bit new to the United States in 
terms of our elections. We are seeing it, as Senator Blunt 
said, in the upcoming elections in France and Germany.
    And Mr. Chairman, I would agree with your opening 
statement, which is that if we do not respond, then we will 
allow those actions to be encouraged. If they can do this kind 
of interference with impunity, they will do it again and again 
and again.
    So I support the legislation that would, first of all, 
require congressional consent before we roll back any 
sanctions. And I also support the legislation that would go 
further. I think we need to now impose sanctions on a 
bipartisan basis to send the signal you are talking about 
because if we do not do it, we are simply going to be 
encouraging this kind of interference in elections going 
forward.
    And I appreciate the testimony from all of you as to the 
lessons learned, and look forward to getting some of the 
written observations from others.

                             CYBER WARFARE

    I would say that, obviously, we need to strengthen our 
cyber capabilities across the board. I mean, this is the new 
dimension of security, of warfare and I am pleased that my 
State of Maryland is the home of the U.S. Cyber Command.
    And Ambassador Marmei, I know Estonia takes the lead in 
NATO with respect to cyber security. We also have a good 
relationship between the Maryland National Guard and your 
efforts on behalf of NATO, and look forward to strengthening 
those ties.
    With respect to cyber security, what I would ask is very 
quickly for each of you to try and grade what you think are our 
current capabilities, and whether you think this is an area 
where we need to put more resources, and how vulnerable are we 
today? We know the Russians are very involved every day in 
trying to penetrate our systems.
    And I would, starting with you Ambassador Marmei, because 
of Estonia's lead within NATO, if you could give us some 
assessment of where you think we are.
    Ambassador Marmei. Thank you, Senator. We have good news 
and bad news, I think, or bad news and good news.
    First of all, I would too, also thank you for the really 
good cooperation that Estonia and Maryland have enjoyed in the 
past 25 years especially the cooperation between Estonia, and 
the Armed Forces, and your National Guard. Your 175th Air Wing 
has been to Estonia. You have 21 planes there, 18 of those have 
been to Estonia. So this is excellent. And also the cooperation 
with your cyber defense unit there is developing very fast.
    Now it is clear, as you pointed out, that cyber is the new 
domain of warfare. What is good is that NATO really recognized 
that last year during the Warsaw Summit, and clearly pointed 
out that cyber warfare is the fourth domain of warfare. But a 
lot remains to be done in this area.
    We have to be, all our countries individually have to put 
more resources into that, but we should also collectively deal 
with these issues also on a bilateral basis between the 
relevant countries. But also with NATO which, as you know, 
Estonia hosts the NATO Cyber Center of Excellence. I would 
encourage you when you talk about the further funding of the 
countering of hybrid warfare to find more resources to put to 
that Center as well, and to have more people in NATO 
Headquarters also to deal with this issue.
    It will not fade away. It will, this issue will be with us 
for the good part of this century, I think. So we have to 
really put more emphasis in this.
    Thank you.
    Senator Graham. And everyone else can, in writing, respond 
as we are running out of time.
    There is a vote being called any minute now and there are a 
couple of Members of the subcommittee on the way. So I want to 
make sure everybody can ask questions.
    Very briefly, what have I learned? There has been a 
systematic effort to undermine democracies in your countries by 
Russia for years.
    Does everybody agree with that statement?
    Let the record reflect an affirmative answer.
    Prior efforts to deter Russia have failed. They are getting 
more aggressive not less.
    Affirmative answer.
    Without American leadership, nothing will work.
    Affirmative answer.
    All right. Who do we have? We have two Members on the way. 
Senator Van Hollen, do you want to continue until they come?
    Senator Van Hollen. Well, Chairman, I think--and this is a 
discussion for Members of Congress--I do believe that as you 
have indicated that we need to come together across party lines 
to respond. And we need to learn from your own experiences the 
kind of measures that we need to be on the, one, lookout for. 
But we also need to be very focused on what we are doing.
    Let me ask you this. If the United States does not take any 
affirmative action beyond what President Obama already did with 
respect to the Russian interference in our elections, do you 
believe that would embolden Russia to take these actions on an 
even larger scale in your countries and other democracies 
around the world?
    Senator Graham. And for the record, you can answer that 
because we have Senator Daines, if that is okay. That is a very 
good question, but I want to make sure that everybody can ask 
questions.
    Senator Daines.
    Ambassador Marmei. I think this is real important to show 
unity and resolve. To do it individually on a bilateral basis 
between our countries, but also through NATO and in our case in 
the European Union, which is a very important organization for 
us.
    So a lot remains to be done, but we have to show resolve 
and unity otherwise what you describe will become true.
    Senator Graham. Senator Daines. I have been told the vote 
is on, so we have about 7 or 8 minutes, probably.
    Senator Daines. All right. Thank you, Mr. Chairman.
    Welcome. Thank you for being here, and in representing your 
respective countries, and your interest in the United States.
    The United States values our strong relationships and our 
alliances, and strengthening these ties can help improve the 
security, and certainly the stability, across Eastern Europe.
    Many of you also represent NATO allies. This alliance has 
proven to be an effective and steadfast bulwark against 
aggression and terrorism in Eastern Europe and around the 
world. It is critical that NATO remains strong and continues to 
receive robust support from the United States, particularly in 
light of ongoing Russian aggression that undermines regional 
stability and threatens our national security.
    Russian interference is not limited to the security fear 
either. Disinformation campaigns seeking to discredit alliances 
such as NATO, cyber attacks, or substantially raising energy 
costs as a means to influence other countries have occurred far 
too frequently.

                            RUSSIAN THREATS

    Ambassador Wilczek, what threats from the Kremlin do you 
view as the most imminent, whether it is to Poland, NATO, or 
the region as a whole?
    Ambassador Wilczek. Threats from Kremlin, which threats?
    Senator Daines. Yes. Which threats do you view from Kremlin 
as most imminent, most urgent, whether it is to Poland, to 
NATO, or the region as a whole?
    Ambassador Wilczek. I think it is to the whole Western 
world or the transatlantic alliance, I would say, both Europe 
and the United States.
    Now, the cyber war is going on every day all the time and 
it is a threat for everyone because it does not depend on how 
far you are from the Kremlin. You can be 500 miles, you can be 
5,000 miles, and you can be a dictatorship or a democracy. 
There are various ways of using this hybrid war and the cyber 
war. So I think that everyone is vulnerable.
    And what is essential to our countries to be in our message 
to NATO and the United States and our countries to be 
unambiguous. What is the most dangerous thing, I think, 
especially as far as the war against the Ukraine is concerned 
is that many messages from the various countries are not 
unanimous. It is not univocal. It is not clear cut that this is 
the war.
    I think this should be stated openly that there is Crimea, 
there is Donbas. There is a war against the Ukraine. And I 
think that there is also a war, a cyber war, against so many 
other countries.
    Senator Daines. So in light of that, what in your view 
would be the very best and most effective response to Putin's 
hybrid efforts to advance his goals whether it is energy, 
informational, or cyber?
    Ambassador Wilczek. Well, it is energy, and information, 
and cyber.
    I think that first of all the cooperation on energy should 
be strengthened. And the position, for example, of the European 
Union, again, should be unambiguous because it is dividing the 
Union when various countries have various opinions about energy 
cooperation.
    So I think the cooperation of this region with the United 
States should be strengthened as far as energy is concerned.
    And I think that today, I have just returned from a 
conference on cyber security organized by the Visegrad 
countries--Poland, Slovakia, Czech Republic, Hungary--and I 
think that we are still not aware how important this new kind 
of war is conducted today.
    So I think cyber should be the most important, the most 
essential way of cooperation.

                                 ENERGY

    Senator Daines. You brought up the issue of energy as well 
as cyber. I want to switch gears here.
    Ambassador Marmei, as you know, or may not know, my home 
State of Montana is one of the leading energy producing states 
in the United States. In fact, we have more recoverable coal 
than any State in the United States.
    Montanans understand the importance of and access to 
reliable and an affordable source of energy, and undoubtedly, 
so do Estonians.
    The question is how dependent is your country on Russia for 
its energy needs and what concerns does that raise?
    Ambassador Marmei. Thank you, Senator, for this question.
    I think Estonia enjoys a rather different situation in the 
region in the sense that we are not reliant on Russian energy. 
The only energy that we use or import from Russia is gas, but 
it only forms about 7 percent of the total energy consumption. 
Estonians are reliant on oil shale, which we generate to 
produce electricity. So in that sense, we are not really 
dependent on Russia.
    But there is a bigger issue here, which is that as long the 
region, the Baltic region is still considered as an energy 
island inside the European Union, then it is not a matter of 
how dependent Estonia is. But the question really is how safe 
the whole region can be from the Russian energy influence and 
tools?
    Senator Daines. So would the region be more secure if that 
dependence was on the United States versus Russia?
    Ambassador Marmei. Well, the United States plays a very 
important role here, especially when it comes to LNG and the 
export to Europe, which is, I understand, the issue of 
licensing. And this is clearly what Lithuania is looking 
forward to getting more American LNG to Europe, to Lithuania.
    Also it is important to mention that Estonia actually 
exports 30 percent of our gas from Lithuania today. So it is 
only 8 percent from Russia. And this shows how important the 
connections between these countries are when it comes to 
pipelines and then power grids.
    Senator Daines. Thank you, Mr. Chairman.
    Senator Graham. Thank you all.
    We have just a few minutes left on the vote. Senator Rubio 
is in another committee hearing and he cannot make it by 4:15, 
which is the time we have to all leave. So I will make sure he 
can ask you questions in writing. I know he has been very, very 
good on this issue.
    To all of you, thank you for coming. This has been eye 
opening, at least to me and I am sure to every member of the 
subcommittee. My goal is to inform the American people of the 
risks that you have being in the backyard of Russia as a 
democracy. That they are coming after us, France, and Germany 
until somebody stops them. And we are going to try to give you 
more tools in your toolbox to fight back because the safer you 
are, the safer we will be.
    To all of you, thank you very much. You have been very 
brave to come here today and to our friends in the Ukraine, 
keep your chin up. I think the Ambassador from Poland got it 
right. We need to get the Ukraine right before anything else 
will happen.
    Every effort to stop Russia in the past, whether it be 
Georgia, the Ukraine, you name it, is clearly not working. My 
goal is to come up with something that will work. I want a 
better relationship with Russia, but that never will be 
achieved until Russia changes its practice of trying to grind 
democracy into the ground.
    I can understand why Putin is afraid of democracy. I cannot 
understand why America and others will not defend it.
    I just met with President Trump. I think you are going to 
have a good ally in President Trump in terms of having a 
rotational troop presence in a permanent fashion. That the 
Ukraine will be helped more and not less, and that we will push 
back against all Russian aggression.
    I look forward to working with him and my Democratic and 
Republican colleagues to give you some hope in the region that 
America is back. This subcommittee hearing is just the 
beginning of what I think will be a long journey.
    Our next hearing will be March 29, and we will look at 
civil society's perspective on Russia and Russia's regional 
influence.
    To all of you, thank you very much. Your country is in our 
thoughts and prayers, and I want you to see in America a more 
reliable ally in the future. Thank you.
    The record will be open until Friday.

                     ADDITIONAL COMMITTEE QUESTIONS

    [The following questions were not asked at the hearing, but 
were submitted to the witnesses for response subsequent to the 
hearing:]

               Questions Submitted to Hon. Pavlo Klimkin
                 Ukrainian Minister of Foreign Affairs
              Question Submitted by Senator Lindsey Graham
    Question. Please describe in detail Russian interference in 
elections in your respective countries, including specific actions 
taken to undermine the credibility of the polls or to influence the 
outcome.
    Answer. Ukrainian security services have clear evidence of Russia's 
constant attempts to interfere in elections in Ukraine by using a 
variety of cyber tools, as well as other methods. This submission will 
focus on events that took place in 2014. Subsequent and more recent 
attacks are the subject of ongoing investigations. Once these 
investigations are concluded, we will be happy to provide that 
additional information as it becomes available and when its release 
into public domain would not compromise the national security interests 
of Ukraine.
    On May 22, 2014, ahead of the Presidential elections in Ukraine 
scheduled for May 25, 2014, the ``Elections'' Unified Information 
Analysis System (designed to announce preliminary results on the 
process of voting and counting of votes) was blocked. The computer 
system of the Central Election Commission (CEC) was rendered inoperable 
and most of the data files were deleted or made inaccessible. Malware 
was detected in the CEC's LAN, part which could not be neutralized by 
the licensed Russian-made ``Kaspersky"antivirus software installed in 
the system. Ukrainian specialists managed to promptly address the 
threat and to minimize negative consequences of the external 
interference.
    On May 23, 2014, hacker group ``CyberBerkut'' (which, according to 
available data, is controlled by the Russian secret service FSB 
(Federal Security Service) and is responsible for cyber attacks on 
information infrastructure of Ukrainian state institutions) released 
files and official correspondence from the Ukrainian CEC computers, 
including network and cyber security technical documentation, as well 
as passwords to all network devices, on its site cyber-berkut.org.
    Ukrainian security experts revealed that over 20 CEC's LAN 
computers, including the server, were infected with the malware, later 
detected as ``Sofacy'' virus (created by ART28 hacker group). This 
group reportedly acts in the interests of the Russian Federation's 
secret services and was involved in targeted cyber attacks on 
electronic information resources in Ukraine, European countries and the 
USA. The virus is intended to steal restricted information and make 
destructive impact on electronic information resources, including 
software. It is characterized by high immunity toward detection and 
neutralization by antivirus software.
    As the hacking activities against the ``Elections'' system were 
carried out on the eve of the extraordinary Presidential elections in 
Ukraine, they are evidence of an attempt by the Russian secret services 
to discredit the Ukrainian authorities as unable to organize elections 
at the regional and national levels and, in its turn, to disrupt the 
election as the whole.
    As another evidence of Russia's attempt to influence the electoral 
process, there was publication (starting from 8 pm on May 25, 2014) by 
the Russian media (TV and online outlets) of a fake report on an 
alleged victory of Dmytro Yarosh, leader of the ``Right Sector'' (party 
labeled by Russia as an instigator of the Revolution of Dignity and 
portrayed as an ``anti-Russian ultranationalist and fascist group'').
    The CEC server was externally infected by malicious software 
designed to display fake statistical voting results at a set time 
(Dmytro Yarosh--37.13 percent, Poroshenko--29.63 percent, Tymoshenko--
11.42 percent etc.).
    The mentioned malware was neutralized in a timely fashion by the 
Ukrainian specialists. Nevertheless, as the Russian special services 
were not aware that it was detected, the Russian media started to share 
(at a specific time) the fake news of Dmytro Yarosh's victory at the 
Presidential elections in Ukraine.
    Moreover, aside from interfering in Ukraine's elections, Russia has 
used its special forces to conduct, at the barrel of a gun, its own 
elections in the territory of Ukraine. As the U.S. is well aware, in 
2014, in the course of a Special Forces operation on the Ukrainian 
Crimean peninsula, Russia staged an illegal referendum. The results of 
this referendum have been used by the Kremlin to illegally occupy 
Crimea. Furthermore, the results of that referendum and the attempted 
illegal annexation have never been recognized by Ukraine, the United 
States or the rest of the international community. There have also been 
attempts to hold similar sham referendums in the specific areas of 
Donetsk and Luhansk oblasts, currently controlled by Russia and Russia-
backed terrorists. Such attempts, as well as Russia's ongoing 
interference in Ukraine's electoral system, are part of Russia's hybrid 
warfare against Ukraine.
                                 ______
                                 
             Question Submitted by Senator Chris Van Hollen
    Question. Has the Minsk II process failed? Is there an alternative 
to Minsk II?
    Answer. Ukraine remains committed to the unconditional 
implementation of the Minsk Agreements in their entirety and takes 
consistent action to this end.
    Nevertheless, the Minsk peace process falters, but not because of 
Minsk documents' defect in content and form, while some elements really 
seem to be rather uneasy compromises. It falters because Moscow does 
not want to do anything at all, for Kremlin needs neither Donbas, nor 
its population.
    Russia still considers Ukraine as a part of its core geopolitical 
interests, which, if realized, would mean the end to Ukraine's European 
and Euro-Atlantic aspirations.
    As a result, almost 2 years and a half have passed since signing of 
the first Minsk document, but peace still has not come to Donbas. 
Despite Ukraine's and its allies' joint efforts to resolve the conflict 
peacefully, Russia continuously denies all its obligations claiming its 
non-involvement in what Russia calls ``Ukrainian internal conflict''. 
Under such circumstances, it seems almost impossible to ensure proper 
implementation of the Minsk documents as Ukraine and its partners, on 
one hand, and Russia--on another, have such polar perceptions of the 
nature of the conflict.
    Recently, Russia has made a number of very controversial steps, 
which have nothing to do with its commitments under the Minsk 
agreements, but clearly testify Kremlin's willingness to raise stakes 
and test the reaction of the West. In particular, Kremlin made a formal 
decision to recognize ``documents'' issued by illegal entities of 
certain areas of the Donetsk and Luhansk regions of Ukraine, which 
means Moscow's recognition of its de facto occupation of the certain 
areas of Donbas.
    Moscow also backed `grabbing' of local state and private economic 
entities operating in the Ukrainian legal environment by the members of 
illegal armed formations (IAFs) and mastered their ``formal decision'' 
to recognize Russian rouble as ``the only currency''.
    Moreover, Russia is destroying the industrial potential of Donbas 
by looting local plants and factories, dismantling the most profitable 
and valuable industrial assets and moving them to the Russian 
territory. It was Russia which issued formal permissions to 243 Russian 
enterprises to ``conduct foreign trade operations'' with ``business 
entities'' from the certain areas of the Donetsk and Luhansk regions of 
Ukraine through the Government-uncontrolled section of Ukraine-Russia 
border.
    By taking the above measures, Russia derails the Minsk peace 
process, simultaneously shifting the responsibility for the possible 
collapse of the Minsk Agreements on Ukraine. Kremlin's clear goal is to 
get rid of the international sanctions or at least to ease the 
sanctions' pressure.
    In order to unblock the Minsk as the single peace option we should 
jointly create such tough conditions under which Russia will think at 
least twice before taking any unfriendly actions towards Ukraine in 
breach of Kremlin's commitments under the Minsk Agreements. In this 
regard, we ask the United States to consider the following options:

  --To strengthen sanctions;
  --To strengthen the U.S. involvement in the multinational support of 
        Ukraine in its negotiations with Russia, aimed at 
        implementation of the Minsk agreements, de-occupation of Donbas 
        and Crimea;
  --To provide Ukraine with defensive military aid and to enhance the 
        exchange of intelligence information;
  --To assist Ukraine in training its military personnel;
  --To support OSCE/SMM activities in Ukraine and enhancement of its 
        technical capacities;
  --To provide expertise and financial support of the bold reform 
        agenda;
  --To invest in Ukraine's economy; and
  --To provide continuous political and diplomatic support regarding 
        Ukraine's future membership in NATO.
                                 ______
                                 
               Questions Submitted to Hon. Piotr Wilczek
             Ambassador, Embassy of the Republic of Poland
             Question Submitted by Senator Chris Van Hollen
    Question. Poland has played a leading role in sanctions against 
Russia, following Russia's intervention in Ukraine. How would you amend 
or bolster sanctions on Russia, moving forward?
    Answer. Poland remains a strong proponent of the sanctions policy 
toward Russia. There are no grounds for softening or lifting the 
sanctions. The reasons behind their deployment are still valid: Russia 
occupies Crimea and is actively fueling the conflict in Eastern 
Ukraine.
    Moscow shows no sign of good will. What's worse, its rolling out a 
set of measures that could lead to a creeping annexation of Eastern 
Ukraine, i.e.:

  --The recognition of ID cards issued by separatists in Donetsk and 
        Lugansk;
  --The introduction of the Russian ruble as the official currency in 
        areas controlled by separatists; and
  --Calling the contact line between the two sides a ``state border''.

    The sanctions, and more importantly, the countersanctions 
introduced by Russia had a severe impact on the Polish economy. 
According to the econometric analysis, our GDP shrank by 0.3 percent. 
Yet, we are ready to pay this price in order to protect the basic 
values underpinning international law, such as the peaceful coexistence 
of the nations and the inviolability of sovereign states.
    We hope that the United States will continue to support Poland and 
the EU in the goal of improving the situation in the region. To this 
end, the international community must speak with a strong and coherent 
voice.
    We saw an added value in the process of coordinating the sanctions 
regime between the UE, the United States, Canada, Japan and other 
important players. We believe that this process, which was suspended 
last year, should be restored.
    Should the situation in Ukraine deteriorate due to Moscow's 
actions, we should be ready to implement even stronger restrictive 
measures. Different ideas and proposal with this regard have already 
been discussed among the EU Member States and its partners upon placing 
current sanctions (e.g. enlarging the list of sanctioned persons and 
entities, imposing stricter conditions with regard to present economic 
sanctions or widening their scope to new sectors).
                                 ______
                                 
              Question Submitted by Senator Lindsey Graham
    Question. Please describe in detail Russian interference in 
elections in your respective countries, including specific actions 
taken to undermine the credibility of the polls or to influence the 
outcome.
    Answer. We haven't noticed direct Russian interferences in the 
electoral process in Poland. However, 2015 saw the creation of a pro-
Russian party in our country (``Zmiana'', i.e. ``The Change''). Openly 
pro-Russian, its members support Moscow's aggressive policy towards 
Poland and other members of the international community.
                                 ______
                                 
               Questions Submitted to Hon. David Bakradze
                     Ambassador, Embassy of Georgia
              Question Submitted by Senator Lindsey Graham
    Question. Please describe in detail Russian interference in 
elections in your respective countries, including specific actions 
taken to undermine the credibility of the polls or to influence the 
outcome.
    Answer. Russia has always demonstrated interest toward Georgia's 
election processes and has, through various means, attempted to affect 
them. However, Russia could not have produced such an effect on the 
domestic election outcome via cyber-attacks owing to the fact that 
Georgia simply does not employ the electronic system and ballots for 
vote counting.
    In view of this, Russia utilized propaganda as a tool to influence 
the elections by creating an overall atmosphere, where anti-Western 
sentiments are reinforced and pro-Russian positions/attitudes are 
shaped and supported.
    In fact, the Russian propaganda enlists Russian as well as some 
Georgian language media outlets, Russian non-governmental 
organizations, and their Georgian partners along with the domestic pro-
Russian political parties and movements to actively promote the Russian 
narrative and anti-Western attitudes in the Georgian population.
    In Georgia, Russian propaganda makes use of television as one of 
its key instruments. According to the latest survey, 90 percent of 
Georgia's population stated that television was their main source of 
information. It is noteworthy, however, that the number of pro-Russian 
Internet publications is increasing in line with the growing figure of 
Internet users in the country.
    The instruments of aggressive Russian propaganda represented in 
Georgia include the Kremlin-run Russian television channels that 
operate freely thanks to the pluralistic media environment in the 
country. The Russian information agency ``Sputnik'' must be set apart 
in that context, as it runs not only an online portal, but also a 24-
hour radio broadcast.
    Russian propaganda is actively engaged in social media and online 
publications. The printed media that has quite a substantial 
circulation in Georgia, is rife with Russian propaganda, anti-Western, 
and, specifically, anti-American narrative and mantras.
    In recent years, Russia has actively utilized non-governmental 
organizations as a means of exerting influence via the so-called ``soft 
power'' tools. Recent Russian strategic documents set out a specific 
budget for funds that have been created for the purpose of mobilizing 
public opinion in favor of, and reinforcing support for Russia's 
political agenda--altogether carrying an ulterior motive of 
discrediting the West.
    Generally, the Georgian population is not easily receptive of 
public proclamation of pro-Russian ideas. Therefore, the pro-Russian 
political parties rarely declare their pro-Russian sentiments publicly; 
however, there have been some exceptions. For instance, during the run 
up to the 2016 parliamentary elections, a pro-Russian party 
``Tsentristebi'' (The Centrists) ran a television campaign ad 
(including via the state sponsored ``Public Broadcaster'') in which the 
party issued a promise to its electorate that, in case of victory, they 
would legitimize the Russian military bases existent in Georgia's 
occupied territories, and ensure the payment of Russian pensions in the 
country. Following this development, the leadership of the ``Public 
Broadcaster'' reached a decision to suspend the airing of this campaign 
ad on the grounds that it contained messaging that was directed against 
the state sovereignty, and was violating the supreme law of the land--
the constitution of the Georgian state. In light of such resistance, 
the political parties loyal to Russia directed their efforts toward 
propagating anti-Western narratives instead of concentrating on the 
dissemination of pro-Russian ideas.
                                 ______
                                 
           Question Submitted by Senator Christopher A. Coons
    Question. Since 1995, the Overseas Private Investment Corporation 
(OPIC) has committed over $500 million across 48 projects in Georgia to 
stimulate private sector investment, rebuild war-torn buildings, 
modernize industries, and position Georgia for a more stable and 
prosperous future. How have OPIC investments in the agriculture sector, 
among others, helped to build a more resilient Georgia that is less 
vulnerable to Russia?
    Answer. There is much to be said for OPIC's share in helping to 
build a more resilient Georgia that is less vulnerable to Russia. OPIC, 
together with the USAID and other donor agencies, provide western 
capital investments to Georgia, which foster economic and political 
stability in the country. Such agencies have introduced the western 
model of doing business and corporate governance into the country and 
this has helped improve the exportability of Georgian goods and 
increased the diversity of the country's export markets. The OPIC's 
mandate is to promote private investments and while doing so OPIC is 
greatly contributing to the expansion of US-Georgian business ties. The 
OPIC investment policy is based on measuring the developmental score of 
projects and this is one of the key criteria that the Corporation 
considers when approving loans. Thus, all projects financed by OPIC are 
geared towards aiding Georgia's further development as well as ensuring 
return on U.S. investments by requiring at least 25 percent involvement 
from American companies.
    OPIC has been investing in Georgia since 1993. The Corporation has 
played an important role in the development of different sectors of the 
Georgia's economy, including: the financial sector, tourism, 
healthcare, agriculture, manufacturing, education, mining, renewable 
energy, real estate and hotel industries. OPIC also contributes to the 
development of small and medium size businesses and is very effective 
in providing affordable loans directly to the qualified businesses.
    Issues like local jobs, sustainable employment, worker rights, host 
country benefits, transfer of knowledge, transfer of know-how and 
environmentally friendly solutions are all very important elements of 
OPIC projects in Georgia. Thereby, practically every OPIC project in 
the country can be considered as a part of the Impact Investment 
Strategy.
    The 2008 war with Russia displaced thousands of people from their 
homes and delayed the economic growth of the country. Today, 20 percent 
of Georgia's territory is under Russian occupation. Traditionally, the 
Kartly region, the one most affected by the Russian invasion was known 
for fruit and vegetable production. The population of this region 
supported their families through agriculture.The OPIC financed projects 
in the agriculture sector create employment opportunities for low 
income families that are most susceptible to Russian propaganda. More 
than half of the country's population is employed/self-employed in the 
agricultural sector (although, it constitutes only 9 percent of 
Georgia's GDP), therefore, agricultural projects are essential, as they 
help generate income for IDPs as well as much of Georgia's general 
population.
    The OPIC projects in the agriculture sector also contribute to food 
security in the country. Thanks to the year-round production of 
vegetables and new technologies in the agricultural sector that OPIC 
provides, Georgian consumers became less dependent on imported food 
products, especially from Russia.
    Some of the hallmark investments carried out by OPIC in Georgia's 
agriculture sector include as follows:

    1.  Teliani Valley Winery: OPIC helped the company increase its 
production capacity and produce greater quantities of quality Georgian 
wines. This was one of the earliest private investments into the 
Georgian wine industry, which has traditionally been Georgia's number 
one export commodity. Teliani Valley annually exports around 5-7 
million bottles of wines to European, American and Chinese markets. The 
ability to comply with the highest quality standards, which in 
themselves require heavy capital expenditure into the production 
facilities and equipment, made it possible for the company to diversify 
its export markets, thereby making it virtually independent of the 
Russian market.
    2.  Sante Walsh Products: This is a dairy product plant that 
produces around 100 sorts of various products with 50 million liters of 
milk and milk powder utilization capacity. The company collects around 
10 million liters of natural milk from 2,000 local farmers. This was 
the first local, Georgian, producer of dairy products that introduced 
quality standards. Prior to this, the market was dominated by Russian 
dairy products.
    3.  Cold Storage & Refrigerator in Poti: This OPIC project allows 
for the storage of fruits and vegetables produced in western Georgia 
according to EU standards. This storage acts as a collection center for 
local farmers, who are keen to export to European markets since supply 
is relatively low, and, therefore, there is a waiting period that 
ensures that the required capacity of goods is reached prior to export. 
The modern shock freezing technology provides farmers and traders with 
the ability to store their produce in the cold storage and export it to 
the EU market within a week, thereby, substituting the Russian export 
market.
    4.  Wendy's Georgia: The roll-out of Wendy's restaurants in the 
country boosted the local production of raw meat and meat products. 
Moreover, some of the vegetables used by the restaurants will soon be 
of Georgian production.

    It is noteworthy that in other sectors OPIC has supported two 
educational projects in Georgia, which ensure that the younger 
population has broader access to western standard curricula and quality 
of education. Additionally, OPIC is financing the first hospital 
project in Tbilisi that will be in compliance with JCI standards and 
provide citizens with high quality healthcare.
    Successes in the OPIC funded projects creates certain confidence 
for U.S. and other companies to closer evaluate the investment climate 
of Georgia and ultimately make sound and profitable investments. 
Increased engagement from U.S. companies not only contributes to the 
economic development of the country but serves as a strong 
reinforcement to the security of Georgia and the region as a whole.
    OPIC's involvement in, and effect on Georgia, including the 
country's agricultural sector, is hard to overestimate. Along with the 
funds allocated by other U.S. donors, the OPIC's engagement in Georgia 
exemplifies the effective spending of U.S. taxpayers dollars, 
especially considering the positive outcomes of the allotted investment 
in Georgia. The country stands ready to further continue its 
cooperation with OPIC to help ensure positioning Georgia for a more 
stable and prosperous future.
                                 ______
                                 
              Question Submitted to Hon. Andris Teikmanis
             Ambassador, Embassy of the Republic of Latvia
              Question Submitted by Senator Lindsey Graham
    Question. Please describe in detail Russian interference in 
elections in your respective countries, including specific actions 
taken to undermine the credibility of the polls or to influence the 
outcome.
    Answer. Considering the situation in Latvia, namely, its proximity 
to the Russian Federation, it has and is continuing to use various 
measures in order to distort elections in Latvia. However, methods and 
influence channels used by Russia are slightly different from those in 
the Western Europe or U.S. since Latvia is home for a significant 
Russian-speaking minority which, in Russia's opinion, is an asset to be 
used for meddling in Latvia's internal affairs.
    First, Russian diplomatic missions are working closely with 
compatriots from various organizations. Very often leaders and members 
of compatriot associations happen to be involved in political parties. 
Therefore, Russian diplomatic missions keep in touch with them, offer 
help and assistance in compatriot issues while using these resources to 
groom loyal present or future politicians. The relationship is mutually 
beneficial because that way Russian compatriot politicians can add 
unintentional extra resources to their campaigns. The more resources 
they add to their associations the more favorable is their position 
within the Russian compatriot environment. As a result, Russian 
compatriots often are leaning to vote Kremlin-backed personalities and 
are helping to create negative mass PR on other political parties.
    Second, Russia is growing its influence within information 
environment by spreading propaganda and misinformation. There have been 
cases in Latvia where misleading information has been disseminated 
before election in order to create a negative image about certain 
political parties or candidates whom are not in Russia's interest. As 
mentioned before, for such purposes compatriots have also been used. 
Lately Russian propaganda is more concentrated on creation of a myth 
that Latvia is a ``failed state''. It may result in voter's inactivity 
which is beneficial for Russia. Other aspect of this is the presence of 
Russian media in Latvia. Latvian Russian-speakers get a vast amount of 
their information from Russian television which overwhelmingly gives a 
platform to pro-Kremlin politicians and activists from Latvia. This 
situation distorts perception of reality since on the Russian state 
controlled TV they disseminate far more radical views than at home. 
Another thing, it is almost impossible to qualify it as spending on 
electoral campaign, as there is no information available for Latvian 
state institutions on conditions upon which the broadcasting time is 
granted.
    Last, there have been cases where various political parties have 
been offered an assistance by or tried to establish relationship with 
professional Russian political campaigners and communication experts. 
There are indications, that certain pro-Kremlin political parties have 
received free-of-charge services of such specialists from Russia thus 
potentially giving them advantage in comparison with other political 
competitors.
    Overall, Russia's presence in Latvia's electoral process is 
evident. Since Russia has had limited success distorting elections in 
Latvia through channels mentioned above, it may build up a new 
strategy. Most likely, in upcoming Latvian municipal and parliamentary 
elections it will try to strengthen its messages about Latvia as a 
``failed state'' in order to decrease the overall participation rate 
which in turn would be beneficial for pro-Kremlin political parties 
with strong pool of loyal voters. Also possible establishment and 
running of multiple pro-Russian parties affiliated so called 
``Latvian'' parties may be considered as a tool for fragmenting 
``Latvian vote'' (decreasing proportion of voters per other larger 
Western-orientated parties) in their favor and in this way increasing 
possibility for increase of Russian influence in Latvian politics.
                                 ______
                                 
            Questions Submitted to Hon. Rolandas Krisciunas
            Ambassador, Embassy of the Republic of Lithuania
              Question Submitted by Senator Lindsey Graham
    Question. Please describe in detail Russian interference in 
elections in your respective countries, including specific actions 
taken to undermine the credibility of the polls or to influence the 
outcome.
    Answer. One of the main parts of Russia's compatriot policy is to 
support political parties with the Russian compatriot presence. Russia 
controls and directs activities of compatriot organizations through the 
Coordination Council of Russian Compatriots which works under auspices 
of the Russian Embassy in Lithuania. In Lithuania Russian compatriots 
take part in the elections in the list of Electoral Actions of Poles in 
Lithuania-Unions of Christian Families and party ``Russian Alliance''. 
From 2008 these political parties participate in elections together and 
have support from the Russian Embassy in Lithuania. Leaders of 
aforementioned political parties seek to stop the integration of ethnic 
minorities into Lithuanian society and this activity is beneficial for 
Russia. In 2016 6 MPs were elected from this coalition.
                                 ______
                                 
                Questions Submitted to Hon. Eerik Marmei
                     Ambassador, Embassy of Estonia
              Question Submitted by Senator Lindsey Graham
    Question. Please describe in detail Russian interference in 
elections in your respective countries, including specific actions 
taken to undermine the credibility of the polls or to influence the 
outcome.
    Answer. There have been attempts to interfere in Estonia's 
electoral process. Our Internal Security Service has successfully 
prevented attempts to finance political parties from Russia and 
explained to Estonian political parties the security risks connected 
with the acceptance of illegal foreign funding.
    However, during the 2009 European Parliament elections in Estonia, 
Russia's ``non-interference ``do not intervene'' in other states' 
internal affairs via their compatriots policy was on full display. The 
activity of the Head of Department of Foreign Relations for the Moscow 
City Government Georgi Muradov is also specifically worth mentioning.
    On February 28, 2009, when Russia's Compatriots organizations had a 
meeting in Tallinn, Muradov's two-day visit to Estonia began. At the 
beginning of the visit Muradov claimed in his interview to the Estonian 
media that he came to to rest and visit his friend. In reality the 
visit began in the Embassy of Russian Federation in Tallinn holding 
conversations with selected compatriots who had been called out to 
attend. The purpose was to agree on how to form a joint list of Russian 
candidates for the elections, with Aleksey Semyonov, an active member 
of the Coordination Council and the Head of the non-profit association 
Legal Information Centre for Human Rights, being the number one 
candidate. Highlighting him was understandable, as he is a person 
presenting a view on human rights favourable for Russia and his 
activity is being financed from Moscow. According to the annual report 
of the Legal Information Centre for Human Rights, financial support 
from the Embassy of Russian Federation formed nearly half of the total 
support to their projects in 2008.
    At the meeting the candidates of the planned joint list were 
offered a motivation package of over 10 million EEK, if they would 
fulfil established conditions. How such a large sum would have arrived 
in Estonia in practice remains unknown, as they did not manage to form 
the joint candidates list and thus the purpose of motivation vanished.

    Source: 2009 Estonian Interal Security Service Annual Review page 
12: (https://kapo.ee/sites/default/files/public/content_page/
Annual%20Review%202009.pdf).

                         ADDITIONAL INFORMATION

    [The following materials were submitted by Hon. Andris 
Teikmanis, Ambassador, Embassy of the Republic of Latvia for 
the record:]


   Annual Report About the Activities of the Security Police in 2015
   
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                ------                                


                        Tools of Destabilization


   Russian Soft Power and Non-Military Influence in the Baltic States

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                          SUBCOMMITTEE RECESS

    Senator Graham. The hearing is adjourned.
    [Whereupon, at 4:12 p.m., Tuesday, March 7, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
